<html>
<title> - DHS IN TODAY'S DANGEROUS WORLD: EXAMINING THE DEPARTMENT'S BUDGET AND READINESS TO COUNTER HOMELAND THREATS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






 DHS IN TODAY'S DANGEROUS WORLD: EXAMINING THE DEPARTMENT'S BUDGET AND 
                 READINESS TO COUNTER HOMELAND THREATS

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 16, 2016

                               __________

                           Serial No. 114-60

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                               __________

                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-624 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001




























                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security.......................................................     1
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     2
  Prepared Statement.............................................     4

                                Witness

Honorable Jeh C. Johnson, Secretary, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6

                                Appendix

Questions From Chairman Michael T. McCaul for Hon. Jeh C. Johnson    51
Questions From Ranking Member Bennie G. Thompson for Hon. Jeh C. 
  Johnson........................................................    68
 
 DHS IN TODAY'S DANGEROUS WORLD: EXAMINING THE DEPARTMENT'S BUDGET AND 
                 READINESS TO COUNTER HOMELAND THREATS

                              ----------                              


                       Wednesday, March 16, 2016

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:08 a.m., in Room 
311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the committee] presiding.
    Present: Representatives McCaul, Smith, King, Duncan, 
Barletta, Perry, Clawson, Katko, Hurd, Carter, Walker, 
Loudermilk, McSally, Ratcliffe, Donovan, Thompson, Sanchez, 
Langevin, Richmond, Keating, Payne, Vela, Watson Coleman, and 
Torres.
    Chairman McCaul. The Committee on Homeland Security will 
come to order. The committee is meeting today to examine the 
Department of Homeland Security's budget and readiness to 
counter homeland threats. I now recognize myself for an opening 
statement.
    Almost 15 years after 9/11, the war against Islamist terror 
has entered a dark phase. New battlefields have emerged across 
the world, and our enemies are on the offensive. They are 
recruiting through retweets and crowd-sourcing their attacks. 
They have brought the conflict to our doorsteps in new and 
dangerous ways. Only months ago, in San Bernardino, we 
witnessed the horrible violence terrorists can inflict on our 
communities. Yet we were reminded in the wake of that tragedy 
that such radicalism is no match for our resolve. The American 
people will not submit to the intimidation of jihadists, and we 
will not allow their repressive world view to infest and infect 
our free society.
    Secretary Johnson, your team faces no small task. We are in 
the most serious threat environment since 9/11, and the 
Department of Homeland Security is on the front line. You are 
responsible for keeping threats away from our shores at a time 
when terrorists are targeting us aggressively. Just 2 weeks 
ago, this committee released a report showing that, since 2014, 
ISIS has been tied to 75 terrorist plots against the West. One-
third of those plots were aimed at the United States, making 
our Nation the group's No. 1 target.
    But I am alarmed that, despite these threats, the President 
still lacks a coherent vision for winning the wider war against 
Islamist terror. The administration's wait-and-see and lead-
from-behind foreign policy not only allowed ISIS to create a 
terror incubator in Syria and Iraq, but it also allowed a 
terrorist wildfire to sweep the globe. Even still, the 
President has failed to develop credible plans for containing, 
let alone rolling back new extremist safe havens.
    If we do not win this war on offense, then our security 
falls to our defense. Much of that rests on your shoulders, Mr. 
Secretary. We have arrested, as you know, more than 80 ISIS 
supporters in the United States, and home-grown terror cases 
are being investigated in all 50 States. That is why I am 
grateful DHS is ramping up efforts to combat domestic 
radicalization. Your Department takes the issue seriously and 
has shown much-needed leadership.
    Overall, though, I am disappointed the administration is 
not doing more. Once again, the President is asking Congress to 
give him billions more for countering climate change than for 
countering violent extremism. Terror threats, however, are not 
the only homeland security challenge. Our borders are not 
secure, and they have become highways of illicit traffic and 
violence. The American people are demanding that Washington do 
its job and secure our territory, but time and again, they have 
let us down.
    The lack of a clear vision for securing the border is one 
of the administration's greatest failings. Incredibly, in this 
year's budget, the White House proposes cutting the number of 
Border Patrol Agents. This sends a signal to the American 
people that the Government is not serious about fixing this 
crisis.
    I hope today we will also spend time examining our cyber 
defenses. The effects of cyber intrusions are felt every day 
across America, from corporate boardrooms to kitchen tables. 
DHS has stepped up its efforts to secure Federal networks and 
to assist the private sector, but our country is still under 
daily assault, and the bad guys are winning. The network 
security is a central element of our National security, and 
today, I hope we can discuss the Department's cybersecurity 
agenda and where we need to focus our efforts the most.
    Finally, I am concerned about the steep cuts, more than 
$500 million in this year's DHS budget, for the Urban Area 
Security Initiative and State Homeland Security Grant Programs 
that help first responders. Once again, the terror threat level 
is higher than it has ever been during my time in Congress. The 
State and local responders are the country's first line of 
defense. We need them to be vigilant, trained, and equipped to 
stop acts of terror, so why on Earth would we slash their grant 
funding? Today, we are hoping for a good explanation, because I 
can tell you that, right now, our first responders don't need 
us to cut their budgets; they need us to have their backs.
    So let me again, Mr. Secretary, thank you for being here 
today. We hope to cover a wide range of issues. I look forward 
to hearing about your plans to confront these challenges.
    With that, the Chair now recognizes the Ranking Member.
    Mr. Thompson. Thank you, Chairman McCaul, for holding 
today's hearing.
    Secretary Johnson, thank you for appearing today. As you 
know, this is your first time before us this Congress, and we 
are happy to see you. Today's hearing, entitled ``DHS in 
Today's Dangerous World: Examining the Department's Budget and 
Readiness to Counter Homeland Threats,'' invites us to take a 
broad look at the threats that we face in the United States and 
how the Department is prepared to handle them.
    Mr. Secretary, the current threat posed by foreign 
terrorist organizations, such as ISIL and al-Qaeda, is 
significant and rightfully receive extensive attention. 
However, at the same time, anti-Government and militia groups 
grew by one-third in 2015. In a study by the Triangle Center at 
Duke University, 74 percent of law enforcement identified anti-
Government groups as the top terrorist threat in their 
jurisdiction. Last year, we also witnessed a troubled surge of 
domestic terrorist groups.
    Mr. Secretary, you have stated that we have moved to a 
world that includes the threat of terrorist-inspired attacks, 
where terrorists are motivated by something on the internet. 
Both right-wing extremists and foreign-inspired terrorists have 
used the internet to organize and plan attacks. For instance, 
just this weekend a militia group organized on Twitter to 
attend and use force at Presidential campaign events.
    Mr. Secretary, I want to hear from you how the Department 
is maintaining situational awareness and response capability 
during the increasingly violent Presidential campaign season. I 
know that the Department has long recognized the threat from 
violent extremism and, in 2015, established the Office of 
Community Partnerships. In its budget, the Department requests 
$49 million for countering violent extremism grants for 
emerging threats from violent extremism and complex coordinated 
attacks. To date, the Department has provided Congress with 
little information on how these grants will be distributed. I 
hope that contained within forthcoming grant guidance are 
instructions for some of the funding to be directed at the 
prevention of right-wing extremist attacks.
    Mr. Secretary, as you have stated and as both sides of the 
aisle agree, it is a State or a local cop on the street who may 
prevent the next terrorist attack. With the right-wing attacks 
on the rise and, ISIL recruiting within our borders, it is 
baffling that cuts to State and local grants preparedness 
programs are in the budget. As the Chairman said, nearly $500 
million are slated to be cut under your budget request. I do 
not believe the Department's budget should be focused on being 
balanced on the backs of first responders.
    I want to hear from you, Mr. Secretary, how you expect the 
proposed cuts to affect the ability of State and local response 
capabilities?
    Another concern is the staffing level at our Nation's 
airports. The Federal Aviation Administration is projecting 
passenger growth at a rate of 2 percent a year, making this 
summer one of the busiest in recent years. I, along with other 
Members of this committee, continue to hear from large 
airports, such as the letter we received from the head of 
Atlanta Airport, that they have the infrastructure for many 
security lanes, but due to staffing shortages, they can only 
use a small number of those lanes. Given the forecast of 
increased passenger volume, along with underutilized 
checkpoints, I am concerned that congested screening lines will 
create another vulnerability.
    So we need to hear from you, Mr. Secretary, on that. We 
have done PreCheck. It has been a good thing, but the lines are 
still getting longer.
    Also let me suggest that you look at the TSA behavioral 
detection program as possibility for over 3,000 people who are 
I would assume doing a good job, but we have yet to be provided 
the science behind the behavioral detection program that says 
it works. So we spent a lot of money doing that. If we don't 
have the science, let's put the men and women who are in that 
program in the position to provide relief to some of our 
airports.
    Additionally, I remain concerned about the Secret Service. 
I am supportive of the budget request that reflects the 
recommendation of the protective mission panel and the Office 
of Inspector General. However, I cannot stress enough that the 
Secret Service cannot enter a new chapter with an ugly cloud of 
a decade's long racial discrimination suit hanging over its 
head. Sixteen years, Mr. Secretary, is far too long. Let's put 
this baby to bed and get on with protecting and doing a job 
that our fine men and women do.
    Again, I don't have to tell you about morale; OPM does its 
annual report. We have to do something to get the morale up. I 
look forward to your testimony.
    I yield back, Mr. Chairman.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             March 16, 2016
    Today's hearing title, ``DHS in Today's Dangerous World: Examining 
the Department's Budget and Readiness to Counter Homeland Threats'' 
invites us to take a broad look at the threats that we face in the 
United States and how DHS is positioned to challenge them.
    Mr. Secretary, the current threat posed by foreign terrorist 
organizations such as ISIL and al-Qaeda is significant and rightfully 
receives extensive attention. However, at the same time, anti-
Government and militia groups grew by one-third in 2015. In a study by 
the Triangle Center at Duke University, 74 percent of law enforcement 
identified anti-Government groups as the top terrorist threats in their 
jurisdictions. Last year, we also witnessed a troubling surge of 
domestic terrorist groups.
    Mr. Secretary, you have stated that we have moved to a world that 
includes the threat of terrorist-inspired attacks--where terrorists are 
motivated by something on the internet. Both right-wing extremists and 
foreign-inspired terrorists have used the internet to organize and plan 
attacks. For instance, just this weekend, a militia group organized on 
Twitter to attend Presidential campaign events. Mr. Secretary, I want 
to hear from you how the Department is maintaining situational 
awareness and response capabilities during this increasingly violent 
and volatile Presidential campaign season.
    I know that the Department has long recognized the threat from 
violent extremism and in 2015 established the Office for Community 
Partnerships.
    In its budget, the Department requests 49 million dollars for 
Countering Violent Extremism grants for emergent threats from ``violent 
extremism'' and ``complex coordinated attacks.'' To date, the 
Department has provided Congress with little information on how these 
grants will be distributed. I would hope that contained within 
forthcoming grant guidance are instructions for some of the funding to 
be directed at the prevention of right-wing extremist attacks.
    Mr. Secretary, as you have stated, and as both sides of the aisle 
agree, it is the State or local cop on that may prevent the next 
terrorist attack. With right-wing attacks on the rise and ISIL 
recruiting within our borders, it is baffling that cuts to the State 
and local grant preparedness grants programs are in this budget. Nearly 
$500 million are slated to be cut under your budget request. I do not 
believe the Department's budget should be so focused on being balanced 
on the backs of first responders. I want to hear from you, Mr. 
Secretary, about how you expect the proposed cuts to affect the ability 
of State and local response capabilities.
    Another area of concern is the staffing level at our Nation's 
airports. The Federal Aviation Administration is projecting passenger 
growth at a rate of 2 percent a year, making this summer one of the 
busiest in recent years. I continue to hear from large airports that 
have the infrastructure for many security lanes, but due to staffing 
shortages, they can only use a small number of lanes. Given the 
forecast of increased passenger volume, along with underutilized 
checkpoints, I am concerned that congested screening lines will create 
another vulnerability.
    I need to hear more from you than encouragement that travelers join 
PreCheck. I need to know how you intend to tackle this problem. I am 
also concerned that your budget still requests funds for TSA's 
behavioral detection program, which still has not been scientifically 
proven to disrupt terrorist activity. Additionally, I remain concerned 
about the Secret Service. I am supportive of the budget requests that 
reflect the recommendations of the Protective Mission Panel and the 
Office of Inspector General. However, I cannot stress enough that the 
Secret Service can not enter a new chapter with an ugly cloud of a 
decades-long racial discrimination suit hanging over its head.
    Finally, Mr. Secretary, the Department has the third-largest 
workforce in the Federal Government and faces low employee morale. You 
have personally committed to improving morale and workforce 
satisfaction. It seems as if we still cannot get out of the planning 
phase. Low retention rates are concerning, especially within the Border 
Patrol. CBP does not anticipate reaching its staffing goal in the 
current fiscal year. This has an impact on the Department's readiness. 
We have a shared goal of moving the Department forward. By working with 
you and across the components, the Department should be ready to 
counter homeland threats.

    Chairman McCaul. I thank the Ranking Member.
    I realize there is a Rose Garden ceremony at 11 o'clock. 
Let us know if you need to leave at any time.
    Secretary Johnson. I will be sitting right here.
    Chairman McCaul. Let me recognize the Secretary for an 
opening statement.

    STATEMENT OF HONORABLE JEH C. JOHNSON, SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Secretary Johnson. Thank you, Chairman McCaul, Ranking 
Member Thompson, Members of this committee. The 2017 budget 
request by the President funds our vital Homeland Security 
missions, but it does reflect hard choices to fit within the 
budget caps agreed to by the Congress and the President last 
year.
    We are requesting from Congress $40.6 billion in 
appropriated funds, which is down from the $41 billion level 
that we currently have in fiscal year 2016. The top line is an 
increase, however, from $64.8 billion this year to a request of 
total spending authority of $66.8 billion for fiscal year 2017. 
This includes a request for an increase in various fees to 
support that funding at $66.8 billion, mostly centered around 
aviation security.
    I would be happy to answer questions regarding that 
proposed fee increase. We have submitted to the Congress 
authorization language to authorize such a fee increase. The 
vital Homeland Security objectives that do need to be funded 
and are funded in this budget request center around aviation 
security; cybersecurity; adequate funding for the Secret 
Service; border security and enforcement and administration of 
our immigration laws; the recapitalization of the Coast Guard; 
the funding of a long overdue, new headquarters for the 
Department of Homeland Security; and grants. I recognize that 
this budget request reflects a significant cut in the grants. 
Again, the budget request reflects hard choices to fit within 
the budget caps. But I do recognize and appreciate the 
importance of our grant activity to fund and support State and 
local law enforcement and first responders.
    My top priority for the Department of Homeland Security 
while I am Secretary this last year in office is the top 
overall priority I had last year, which is management reform to 
more effectively and efficiently deliver our homeland security 
to the American public. The overarching effort here is our 
Unity of Effort initiative, which I launched 2 years ago, to 
have more centralized, effective, and efficient decision making 
when it comes to things such as budgeting acquisition and the 
like.
    I want to thank this committee for the support that you 
have provided to Homeland Security since I have been Secretary. 
I want to thank Members of this committee for the hard work 
that went into the Cybersecurity Act of 2015. I know that 
individual Members of this committee spent long hours working 
with the intelligence committees to come to a bill that passed 
the full Congress and was signed by the President. It is a good 
bill, and we are in the midst now of implementing this new law. 
We are meeting the milestones to implement this new law. One 
milestone occurs tomorrow, and we will meet that milestone on 
time.
    I appreciate this committee's support for authorization of 
many of our activities. This committee has already voted out 
authorization for our Joint Task Forces on the Southern Border; 
for our Office of Community Partnerships, as was noted; for our 
CBRNE Office, the Office of Chemical, Biological, Radiological, 
Nuclear, and Explosives detection; our Office of Policy, 
ramping that up.
    This committee has done a lot to authorize these various 
activities to improve the workings of our Department. I very 
much appreciate that it has been done on a bipartisan basis. We 
are looking for Congress for support for our reorganization of 
NPPD and to a more streamlined and effective and operational 
cyber and infrastructure protection agency. We are looking for 
authorization for our Joint Requirements Council, for 
acquisition reform, and for authorization for joint duty 
assignments within the Department of Homeland Security, so we 
are less stovepiped.
    We have our various missions, which have been noted by the 
Chairman and Ranking Member, which I remain focused on. But my 
overall goal for the Department of Homeland Security in my 
remaining 10 months in office is to leave it better than I 
found it and to make it a more effective and efficient place to 
deliver our services to the American people.
    Thank you, and I look forward to your questions.
    [The prepared statement of Secretary Johnson follows:]
                  Prepared Statement of Jeh C. Johnson
                             March 16, 2016
                              introduction
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee, thank you for the opportunity to be here.
    The President's fiscal year 2017 budget request for the Department 
of Homeland Security reflects hard choices to fit within the caps 
established by the bipartisan budget agreement of 2015, but, at the end 
of the day, it funds all of our vital homeland security missions in 
these challenging times.
    The President's fiscal year 2017 budget request calls for $40.6 
billion in appropriated funds (compared to $41 billion currently in 
fiscal year 2016) but an increase in total spending authority to $66.8 
billion (compared to $64.8 billion currently in fiscal year 2016). 
Total workforce requested is 229,626, compared to 226,157 in fiscal 
year 2016, accompanied by an overall workforce pay raise of 1.6%.
    Like this year, the President's budget requests $6.7 billion to 
finance the cost of major disasters in FEMA's disaster relief fund, and 
the ability to collect fees of $19.5 billion (compared to $17.1 billion 
this year).
    As I said before, the President's budget request funds our vital 
homeland security missions. Our request includes:
  <bullet> $5.1 billion for transportation screening operations, 
        including increased screening personnel, to ensure the security 
        of our airways, a $100 million increase;
  <bullet> $1.6 billion, an increase of over $200 million, to fund our 
        vital cybersecurity mission, including increased investments in 
        the Continuous Diagnostic Mitigation program;
  <bullet> $1.9 billion for the Secret Service, which is the same as 
        enacted in fiscal year 2016, to protect our National leaders, 
        fight cyber crime, and support increased hiring;
  <bullet> $319 million to cover costs associated with unaccompanied 
        children and families;
  <bullet> $1.1 billion for recapitalization of the U.S. Coast Guard's 
        assets, including a sizable investment in the Nation's future 
        arctic capability; and
  <bullet> $226 million for continued investment in the construction of 
        a future DHS headquarters at St. Elizabeths.
                           management reform
    Like last year, reforming the way in which the Department of 
Homeland Security functions and conducts business, to more effectively 
and efficiently deliver our services to the American people, is my 
overarching objective for 2016. We've done a lot in the last 2 years, 
but there is still much we will do. There are still too many stove 
pipes and inefficiencies in the Department.
    My goal as Secretary is to continue to protect the homeland, and 
leave the Department of Homeland Security a better place than I found 
it.
    The centerpiece of our management reform has been the Unity of 
Effort initiative I announced in April 2014, which focuses on getting 
away from the stove pipes, in favor of more centralized programming, 
budgeting, and acquisition processes.
    We have already transformed our approach to the budget. Today, we 
focus Department-wide on our mission needs, rather than through 
component stove-pipes. With the support of Congress, we are moving to a 
simplified budget structure that will support better decision making 
across the Department.
    We have transformed our approach to acquisition. Last year I 
established a DHS-wide Joint Requirements Council to evaluate, from the 
viewpoint of the Department as a whole, a component's needs on the 
front end of an acquisition.
    We have launched the ``Acquisition Innovations in Motion'' 
initiative, to consult with the contractor community about ways to 
improve the quality and timeliness of our contracting process, and the 
emerging skills required of our acquisition professionals. We are 
putting faster contracting processes in place.
    We are reforming our human resources process. We are making our 
hiring process faster and more efficient. We are using all the tools we 
have to recruit, retain, and reward personnel.
    As part of the Unity of Effort initiative, in 2014 we created the 
Joint Task Forces dedicated to border security along the Southern 
Border. Once again, we are getting away from the stove pipes. In 2015, 
these Task Forces became fully operational. In 2016, we are asking 
Congress to officially authorize them in legislation.
    We are achieving more transparency in our operations. We have 
staffed up our Office of Immigration Statistics and gave it the mandate 
to integrate immigration data across the Department. Last year, and for 
the second year in a row, we reported our total number of 
repatriations, returns, and removals on a consolidated, Department-wide 
basis.
    The long-awaited entry/exit overstay report was published in 
January, providing a clearer picture of the number of individuals in 
this country who overstay their visitor visas. It reflects that about 
1% of those who enter the country by air or sea on visitor visas or 
through the Visa Waiver Program overstay.
    We are working with outside, non-partisan experts on a project 
called BORDERSTAT, to develop a clear and comprehensive set of outcome 
metrics for measuring border security, apprehension rates, and inflow 
rates.
    Since 2013 we've spearheaded something called the ``DHS Data 
Framework'' initiative. For the protection of the homeland, we are 
improving the collection and comparison of travel, immigration, and 
other information against Classified intelligence. We will do this 
consistent with laws and policies that protect privacy and civil 
liberties.
    We want to restructure the National Protection and Programs 
Directorate from a headquarters element to an operational component 
called the ``Cyber and Infrastructure Protection'' agency.
    Finally, we will improve the levels of employee satisfaction across 
the Department. We've been on an aggressive campaign to improve morale 
over the last 2 years. It takes time to turn a 22-component workforce 
of 240,000 people in a different direction. Though the overall results 
last year were still disappointing, we see signs of improvement. 
Employee satisfaction improved in a number of components, including at 
DHS headquarters.
    This year we will see an overall improvement in employee 
satisfaction across DHS.
                            counterterrorism
    In 2016, counterterrorism will remain the cornerstone of the 
Department of Homeland Security's mission. The events of 2015 reinforce 
this.
    As I have said many times, we are in a new phase in the global 
terrorist threat, requiring a whole new type of response. We have moved 
from a world of terrorist-directed attacks to a world that includes the 
threat of terrorist-inspired attacks--in which the terrorist may have 
never come face to face with a single member of a terrorist 
organization, lives among us in the homeland, and self-radicalizes, 
inspired by something on the internet.
    By their nature, terrorist-inspired attacks are harder to detect by 
our intelligence and law enforcement communities, could occur with 
little or no notice, and in general makes for a more complex homeland 
security challenge.
    So, what are we doing about this?
    First, our Government, along with our coalition partners, continues 
to take the fight militarily to terrorist organizations overseas. ISIL 
is the terrorist organization most prominent on the world stage. Since 
September 2014, air strikes and special operations have in fact led to 
the death of a number of ISIL's leaders and those focused on plotting 
external attacks in the West. At the same time, ISIL has lost about 40% 
of the populated areas it once controlled in Iraq, and thousands of 
square miles of territory it once controlled in Syria.
    On the law enforcement side, the FBI continues to do an excellent 
job of detecting, investigating, preventing, and prosecuting terrorist 
plots here in the homeland.
    As for the Department of Homeland Security, following the attacks 
in Ottawa, Canada in 2014, and in reaction to terrorist groups' public 
calls for attacks on Government installations in the Western world, I 
directed the Federal Protective Service to enhance its presence and 
security at various U.S. Government buildings around the country.
    Given the prospect of the terrorist-inspired attack in the 
homeland, we have intensified our work with State and local law 
enforcement. Almost every day, DHS and the FBI share intelligence and 
information with Joint Terrorism Task Forces, fusion centers, local 
police chiefs, and sheriffs.
    In fiscal year 2015 we provided homeland security assistance to 
State and local governments around the country, for things such as 
active-shooter training exercises, overtime for cops and firefighters, 
salaries for emergency managers, emergency vehicles, and communications 
and surveillance equipment. We helped to fund an active-shooter 
training exercise that took place in the New York City subways last 
November, as well as exercises earlier this year in Miami and last week 
in Louisville, Kentucky. Last month we announced another round of 
awards for fiscal year 2016 that will fund similar activities over the 
next 3 years.
    As I said at a graduation ceremony for 1,200 new cops in New York 
City in December, given the current threat environment, it is the cop 
on the beat who may be the first to detect the next terrorist attack in 
the United States.
    We are also enhancing information sharing with organizations that 
represent businesses, college and professional sports, faith-based 
organizations, and critical infrastructure.
    We are enhancing measures to detect and prevent travel to this 
country by foreign terrorist fighters.
    We are strengthening our Visa Waiver Program, which permits 
travelers from 38 different countries to come here without a visa. In 
2014, we began to collect more personal information in the Electronic 
System for Travel Authorization, or ``ESTA'' system, that travelers 
from Visa Waiver countries are required to use. As a result of these 
enhancements, over 3,000 additional travelers were denied travel here 
in fiscal year 2015.
    In August 2015, we introduced further security enhancements to the 
Visa Waiver Program.
    Through the passage in December of the Visa Waiver Program 
Improvement and Terrorist Travel Prevention Act of 2015, Congress has 
codified into law several of these security enhancements, and placed 
new restrictions on eligibility for travel to the United States without 
a visa. We began to enforce these restrictions on January 21. Waivers 
from these restrictions will only be granted on a case-by-case basis, 
when it is in the law enforcement or National security interests of the 
United States to do so. Those denied entry under the Visa Waiver 
Program as a result of the new law may still apply for a visa to travel 
to the United States.
    Last month, under the authority given me by the new law, I also 
added 3 countries--Libya, Yemen, and Somalia--to a list that prohibits 
anyone who has visited these nations in the past 5 years from traveling 
to the United States without a visa.
    We are expanding the Department's use of social media for various 
purposes. Today social media is used for over 30 different operational 
and investigative purposes within DHS. Beginning in 2014 we launched 4 
pilot programs that involved consulting the social media of applicants 
for certain immigration benefits. USCIS now also reviews the social 
media of Syrian refugee applicants referred for enhanced vetting. Based 
upon the recent recommendation of a Social Media Task Force within DHS, 
I have determined, consistent with relevant privacy and other laws, 
that we must expand the use of social media even further.
    CBP is deploying personnel at various airports abroad, to pre-clear 
air travelers before they get on flights to the United States. At 
present, we have this pre-clearance capability at 15 airports overseas. 
And, last year, through pre-clearance, we denied boarding to over 
10,700 travelers (or 29 per day) seeking to enter the United States. As 
I said here last year, we want to build more of these. In May 2015, I 
announced 10 additional airports in 9 countries that we've prioritized 
for preclearance.
    For years Congress and others have urged us to develop a system for 
biometric exit--that is, to take the fingerprints or other biometric 
data of those who leave the country. CBP has begun testing technologies 
that can be deployed for this Nation-wide. With the passage of the 
omnibus bill, Congress authorized up to $1 billion in fee increases 
over a period of 10 years to pay for the implementation of biometric 
exit. I have directed that CBP begin implementing the system, starting 
at top airports, in 2018.
    In January, I announced the schedule for the final 2 phases of 
implementation of the REAL ID Act, which goes into effect 2 and then 4 
years from now. At present 23 States are compliant with the law, 27 
have extensions, and 6 States or territories are out of compliance. Now 
that the final time table for implementation of the law is in place, we 
urge all States, for the good of their residents, to start issuing REAL 
ID-complaint drivers' licenses as soon as possible.
    In the current threat environment, there is a role for the public 
too. ``If You See Something, Say Something''<SUP>TM</SUP> must be more 
than a slogan. We continue to stress this. DHS has now established 
partnerships with the NFL, Major League Baseball, and NASCAR, to raise 
public awareness at sporting events. An informed and vigilant public 
contributes to National security.
    In December we reformed ``NTAS,'' the National Terrorism Advisory 
System. In 2011, we replaced the color-coded alerts with NTAS. But, the 
problem with NTAS was we never used it, it consisted of just 2 types of 
Alerts: ``Elevated'' and ``Imminent,'' and depended on the presence of 
a known specific and credible threat. This does not work in the current 
environment, which includes the threat of home-grown, self-radicalized, 
terrorist-inspired attacks. So, in December we added a new form of 
advisory--the NTAS ``Bulletin''--to augment the existing Alerts. The 
Bulletin we issued in December advises the public of the current threat 
environment, and how the public can help.
    Finally, given the nature of the evolving terrorist threat, 
building bridges to diverse communities has become a homeland security 
imperative. Well informed families and communities are the best defense 
against terrorist ideologies. Al-Qaeda and the Islamic State are 
targeting Muslim communities in this country. We must respond. In my 
view, this is as important as any of our other homeland security 
missions.
    In 2015 we took these efforts to new levels. We created the DHS 
Office for Community Partnerships, headed by George Selim. George and 
this office are now the central hub for the Department's efforts to 
counter violent extremism in this country, and the lead for a new 
interagency CVE Task Force that includes DHS, DOJ, the FBI, NCTC and 
other agencies.
    Funding is included in the President's budget request to support 
these counterterrorism efforts in the following key areas:
  <bullet> $2 billion requested in total grants funding will prepare 
        State and local governments to prevent, protect against, 
        mitigate, respond to, and recover from incidents of terrorism 
        and other catastrophic events. These funds also include 
        Firefighter and Emergency Management Performance Grants that 
        support local first responders in achieving their missions and 
        $50 million for Countering Violent Extremism grants for 
        emergent threats from violent extremism and from complex, 
        coordinated terrorist attacks.
  <bullet> $292 million sustains U.S. Customs and Border Protection 
        (CBP) targeting programs, which includes support for the 
        National Targeting Centers (NTC) for passengers and cargo. The 
        NTCs effectively target and interdict inadmissible high-risk 
        passengers, cargo, and agriculture/bioterrorism threats before 
        reaching U.S. ports of entry. And, the newly established 
        Counter Network Program will expand CBP's partnerships to 
        exchange information and coordinate actions to identify, 
        disrupt, and dismantle illicit networks and associated 
        organizations.
  <bullet> $197.5 million to sustain inspection and enforcement efforts 
        abroad, which include the Immigration Advisory Program, created 
        by CBP in 2004 to prevent terrorists and high-risk or 
        improperly-documented travelers from boarding commercial 
        aircraft destined for the United States. This investment also 
        funds Preclearance operations. In addition to improving CBP's 
        ability to protect the American homeland by extending our 
        borders and preventing terrorists from gaining access to the 
        United States, Preclearance relieves congestion at U.S. 
        ``gateway'' airports and opens up new destinations for 
        international flights.
  <bullet> $103.9 million to purchase radiological and nuclear 
        detection equipment, an increase of $14 million over funding 
        appropriated in 2016, enabling the proposed new CBRNE Office (a 
        combination of Office of Health Affairs and Domestic Nuclear 
        Detection Office) and the U.S. Coast Guard, CBP, and TSA, to 
        keep U.S. ports of entry safe and secure by detecting and 
        interdicting illicit radioactive or nuclear materials.
  <bullet> $81.9 million sustains the BioWatch program to provide 
        detection and early warning of the intentional release of 
        select aerosolized biological agents in more than 30 
        jurisdictions Nation-wide.
  <bullet> $79.9 million sustains Infrastructure Security Compliance 
        funding to secure America's high-risk chemical facilities 
        through systematic regulation, inspection, and enforcement 
        under the authority of the Chemical Facility Anti-Terrorism 
        Standards.
                           aviation security
    We are taking aggressive steps to improve aviation and airport 
security.
    Since 2014 we have enhanced security at overseas last-point-of-
departure airports, and a number of foreign governments have replicated 
those enhancements.
    As many of you know, in May of last year a Classified DHS Inspector 
General's test of certain TSA screening at 8 airports, reflecting a 
dismal fail rate, was leaked to the press. I directed a 10-point plan 
to fix the problems identified by the IG. Under the new leadership of 
Admiral Pete Neffenger over the last 6 months, TSA has aggressively 
implemented this plan. This has included ``back to basics'' retraining 
for the entire TSO workforce, increased use of random explosive trace 
detectors, testing and re-evaluating the screening equipment that was 
the subject of the IG's test, a rewrite of the standard operating 
procedures manual, increased manual screening, and less randomized 
inclusion in Pre-Check lanes. These measures were implemented on or 
ahead of schedule.
    We are also focused on airport security. In April of last year TSA 
issued guidelines to domestic airports to reduce access to secure 
areas, to require that all airport and airline personnel pass through 
TSA screening if they intend to board a flight, to conduct more 
frequent physical screening of airport and airline personnel, and to 
conduct more frequent criminal background checks of airport and airline 
personnel. Since then employee access points have been reduced, and 
random screening of personnel within secure areas has increased four-
fold. We are continuing these efforts in 2016. In early February, TSA 
issued guidelines to further enhance the screening of aviation workers 
in the secure area of airports.
    I am particularly proud of the newly-established TSA Academy housed 
by the Federal Law Enforcement Training Centers in Glynco, Georgia. All 
new TSOs are now receiving 2-week training on how to screen for 
threats. DHS has built a full-scale representation of an airport 
screening station for students to use as they are taught how to serve 
the traveling public, interpret X-ray machine images, and check bags 
for dangerous materials or weapons.
    In the President's fiscal year 2017 budget request, funding is 
included for aviation security in the following key areas:
  <bullet> $3.0 billion to support 42,848 Transportation Security 
        Officers, an increase of $26.9 million over fiscal year 2016, 
        to ensure effective screening operations while minimizing wait 
        times.
  <bullet> $199.8 million for transportation screening technology, 
        enabling TSA to continue improving the capabilities of its 
        checkpoint screening equipment throughout almost 450 airports 
        to better protect against passenger-borne threats, an increase 
        of $5 million.
  <bullet> $116.6 million to provide training for TSA screeners, which 
        supports an increase of $20 million for new basic training to 
        be provided at the TSA Academy located at the Federal Law 
        Enforcement Training Center in Glynco, Georgia.
  <bullet> $84.0 million for TSA's intelligence operations, an increase 
        of $2.0 million to expand the number of intelligence officers 
        to 87 in front-line facilities that will enhance the 
        effectiveness of checkpoint security screening.
  <bullet> $815.3 million to support the continued deployment of 
        Federal Air Marshals (FAMs), $10 million above the fiscal year 
        2016 levels. The Federal Air Marshal Service has been subject 
        to a hiring freeze since 2011, and recently completed a new 
        Concept of Operations (CONOPS) detailing a new deployment 
        strategy that achieves optimal FAMs staffing to ensure its 
        operations mitigate the maximum risk as with other TSA aviation 
        security activities.
                             cybersecurity
    While counterterrorism remains a cornerstone of our Department's 
mission, I have concluded that cybersecurity must be another. Making 
tangible improvements to our Nation's cybersecurity is a top priority 
for President Obama and for me to accomplish before the next President 
is inaugurated.
    On February 9, the President announced his ``Cybersecurity National 
Action Plan,'' which is the culmination of 7 years of effort by the 
administration. The Plan includes a call for the creation of a 
Commission on Enhancing National Cybersecurity, additional investments 
in technology, Federal cybersecurity, cyber education, new cyber talent 
in the Federal workforce, and improved cyber incident response.
    DHS has a role in almost every aspect of the President's plan.
    As reflected in the President's 2017 budget request, we want to 
expand our cyber response teams from 10 to 48.
    We are doubling the number of cybersecurity advisors to in effect 
make ``house calls,'' to assist private-sector organizations with in-
person, customized cybersecurity assessments and best practices.
    Building on DHS's ``Stop. Think. Connect'' campaign, we will help 
promote public awareness on multi-factor authentication.
    We will collaborate with Underwriters Laboratory and others to 
develop a Cybersecurity Assurance Program to test and certify networked 
devices within the ``Internet of Things''--such as your home alarm 
system, your refrigerator, or even your pacemaker.
    Last year we greatly expanded the capability of DHS's National 
Cybersecurity Communications Integration Center, or ``NCCIC.'' The 
NCCIC increased its distribution of information, the number of 
vulnerability assessments conducted, and the number of incident 
responses.
    At the NCCIC, last year we built a system to automate the receipt 
and distribution of cyber threat indicators in near-real-time speed. We 
built this in a way that also includes privacy protections.
    I have issued an aggressive time table for improving Federal 
civilian cybersecurity, principally through 2 DHS programs:
    The first is called EINSTEIN. EINSTEIN 1 and 2 have the ability to 
detect and monitor cybersecurity threats in our Federal systems, and 
are now in place across all Federal civilian departments and agencies.
    EINSTEIN 3A is the newest iteration of the system, and has the 
ability to block potential cyber attacks on our Federal systems. Thus 
far E3A has actually blocked 700,000 cyber threats, and we are rapidly 
expanding this capability. About a year ago, E3A covered only about 20% 
of our Federal civilian networks. In the wake of the OPM attack, in May 
of last year I directed our cybersecurity team to make at least some 
aspects of E3A available to all Federal departments and agencies by the 
end of last year. They met that deadline. Now that the system is 
available to everyone, 50% are actually on line, including the Office 
of Personnel Management, and we are working to get all Federal 
departments and agencies on board by the end of this year.
    The second program, called Continuous Diagnostics and Mitigation, 
or CDM, helps agencies detect and prioritize vulnerabilities inside 
their networks. In 2015, we provided CDM sensors to 97% of the Federal 
civilian Government. This year, DHS will provide the second phase of 
CDM to 100% of the Federal civilian Government.
    We have worked with OMB and DNI to identify the Government's high-
value systems, and we are working aggressively with the owners of those 
systems to increase their security.
    In September, DHS awarded a grant to the University of Texas San 
Antonio to work with industry to identify a common set of best 
practices for the development of Information Sharing and Analysis 
Organizations, or ``ISAOs.''
    Finally, I thank Congress for passing the Cybersecurity Act of 
2015. This new law is a huge assist to DHS and our cybersecurity 
mission. We are in the process of implementing that new law now. Just 
last month, I announced that we issued guidelines and procedures, 
required by this law, providing Federal agencies and the private sector 
with a clear understanding of how to share cyber threat indicators with 
the NCCIC, and how the NCCIC will share and use that information. We 
issued these guidelines and procedures consistent with the deadline set 
by the new law.
    Funding is included for cybersecurity in the fiscal year 2017 
budget request in the following key areas:
  <bullet> $274.8 million for the Continuous Diagnostics and Mitigation 
        program which provides hardware, software, and services 
        designed to support activities that strengthen the operational 
        security of Federal ``.gov'' networks, an increase of more than 
        $170 million over the fiscal year 2016 enacted level.
  <bullet> $471.1 million sustains the EINSTEIN program, to continue to 
        combat intrusions, enhance information sharing, and deploy 
        analytical capabilities to secure the Federal civilian 
        information technology enterprise.
  <bullet> The fiscal year 2017 budget request sustains ICE and USSS 
        resources to combat cyber crime and investigate cyber 
        criminals.
                      immigration/border security
    Immigration policy must be two sides of the same coin.
    The resources we have to enforce immigration laws are finite, and 
we must use them wisely. This is true of every aspect of law 
enforcement.
    With the immigration enforcement resources we have, ICE is focused 
more sharply on public safety and border security. Those who are 
convicted of serious crimes or who have recently been apprehended at 
the border are top priorities for removal. And we will enforce the law 
in accordance with these priorities.
    Accordingly, over the last several years deportations by ICE have 
gone down, but an increasing percentage of those deported are convicted 
criminals. And, an increased percentage of those in immigration 
detention, around 85%, are in the top priority for removal. We will 
continue to focus our resources on the most significant threats to 
public safety and border security.
    In furtherance of our public safety efforts, in 2014 we did away 
with the controversial Secure Communities program and replaced it with 
the new Priority Enforcement Program, or ``PEP.'' PEP fixes the 
political and legal controversies associated with Secure Communities 
and enables us to take directly into custody from local law enforcement 
the most dangerous, removable criminals. Since PEP was created, cities 
and counties that previously refused to work with Secure Communities 
are coming back to the table. Of the 25 largest counties that refused 
to work with ICE before, 16 are now participating in PEP. In 2016, we 
will work to get more to participate.
    And, because we are asking ICE immigration enforcement officers to 
focus on convicted criminals and do a job that's more in the nature of 
law enforcement, last year we reformed their pay scale accordingly. 
Now, the pay scale for these immigration officers is the same as other 
Federal law enforcement.
    We have also prioritized the removal of those apprehended at the 
border. We cannot allow our borders to be open to illegal immigration.
    Over the last 15 years, our Nation--across multiple 
administrations--has invested a lot in border security, and this 
investment has yielded positive results. Apprehensions by the Border 
Patrol--which are an indicator of total attempts to cross the border 
illegally--are a fraction of what they to use to be.
    In fiscal year 2014, overall apprehensions by the Border Patrol 
increased, as we saw a spike in the number of families and 
unaccompanied children from Central America during the spring and 
summer of 2014. That year the overall number of apprehensions was 
479,000. Across the Government, we responded aggressively to this surge 
and the numbers fell sharply within a short period of time.
    In fiscal year 2015, the number of those apprehended by the Border 
Patrol on the Southwest Border was 331,000--with the exception of 1 
year, the lowest since 1972.
    From July to December 2015 the numbers of migrants from Central 
America, especially families and unaccompanied children, began to climb 
again.
    In January I announced a series of focused enforcement actions to 
take into custody and remove those who had been apprehended at the 
border in 2014 or later and then ordered removed by an immigration 
court. I know this made a lot of people I respect very unhappy. But, we 
must enforce the law in accordance with our priorities.
    In January overall apprehensions by the Border Patrol on the 
Southwest Border dropped 36% from the month before. At the same time, 
the number of unaccompanied children apprehended dropped 54%, and the 
number of those in families dropped 65%. In February, the numbers of 
unaccompanied children have remained at this lower level. We are 
closely monitoring the situation on the Southwest Border and will not 
dial back our efforts, as, illegal migration traditionally increases in 
the spring. We will do all we can to prevent another summer surge in 
illegal crossings. We will continue to enforce the law consistent with 
our priorities for enforcement, which includes those apprehended at the 
border in 2014 or later.
    Then there is the other side of the coin. The new enforcement 
policy the President and I announced in November 2014 makes clear that 
our limited enforcement resources will not be focused on the removal of 
those who have committed no serious crimes, have been in this country 
for years, and have families here. Under our new policy, these people 
are not priorities for removal, nor should they be.
    In fact, the President and I want to offer, to those who have lived 
here for at least 5 years, are parents of U.S. citizens or lawful 
permanents residents, and who have committed no series crimes, the 
opportunity to request deferred action on a case-by-case basis, to come 
out of the shadows, get on the books, and be held accountable. We are 
pleased that the Supreme Court has agreed to hear the case of Texas v. 
United States, which involves the new deferred action policies we 
announced in November 2014.
    Our overall policy is to focus our immigration enforcement 
resources more effectively on threats to public safety and border 
security, and, within our existing legal authority, do as much as we 
can to fix the broken immigration system. We're disappointed that 
Congress has not been our partner in this effort, by passing 
comprehensive immigration reform legislation.
    Finally, we recognize that more border security and deportations 
may deter illegal migration, but they do nothing to overcome the ``push 
factors'' that prompt desperate people to flee Central America in the 
first place. We are prepared to offer vulnerable individuals fleeing 
the violence in Central America a safe and legal alternate path to a 
better life. We are expanding our Refugee Admissions Program to help 
vulnerable men, women, and children in Central America who qualify as 
refugees. We are partnering with the U.N. High Commissioner for 
Refugees and non-governmental organizations in the region to do this as 
soon as possible. This approach builds on our recently established 
Central American Minors program, which is now providing an in-country 
refugee processing option for certain children with lawfully present 
parents in the United States.
    The President's fiscal year 2017 budget request includes the 
following key resources for immigration and border security:
  <bullet> $7.0 billion to fund the salaries and benefits of Border 
        Patrol Agents and CBP Officers. In fiscal year 2017, CBP plans 
        to hire up to 21,070 Border Patrol Agents, a decrease of 300 
        from the 2016 enacted level, and 23,821 CBP Officers.
  <bullet> $1.4 billion to enable U.S. Immigration and Customs 
        Enforcement to maintain nearly 31,000 detention beds for 
        individuals presenting a flight risk, a risk to public safety 
        or National security, or who are subject to mandatory 
        detention.
  <bullet> $2.0 billion sustains the Coast Guard counter-drug and alien 
        migration interdiction operations. These intelligence-driven 
        mission activities are critical to disrupting Transnational 
        Criminal Organizations and securing the Southern Border.
  <bullet> $1.6 billion sustains the Coast Guard's ports, waterways, 
        and coastal security efforts. These include screening to ensure 
        unauthorized and illicit individuals do not gain access to, or 
        disrupt, key maritime transportation and commerce nodes. All 
        crew, passengers, and cargo of vessels over 300 tons are 
        screened prior to arrival in U.S. waters to mitigate potential 
        risks to our Nation.
  <bullet> $319 million, a decrease of more than $370 million, to cover 
        the costs associated with the temporary care and transportation 
        of up to 75,000 unaccompanied children, along with other 
        resources for the custody of adults with children who cross our 
        borders.
  <bullet> $126.0 million for the Alternatives to Detention Program, an 
        increase of $12 million, to monitor 53,000 average daily 
        participants, including families, who may pose a flight risk 
        but who are not considered a threat to our communities. The ATD 
        program places low-risk individuals under various forms of non-
        detained, intensive supervision, which may include electronic 
        monitoring.
  <bullet> $347.5 million for the Criminal Alien Program, an increase 
        of $7 million, to support ICE in the apprehension and removal 
        of both at-large and incarcerated convicted criminals. These 
        resources include funding for an additional 100 officers to 
        support the expanded implementation of PEP.
  <bullet> $268.4 million, an increase of $30 million that sustains the 
        increase of 311 attorneys in the fiscal year 2016 
        appropriation, for ICE's Office of Principal Legal Advisor, 
        which represents the U.S. Government in removal proceedings and 
        litigated over 400,000 immigration related cases in fiscal year 
        2015.
  <bullet> $355.7 million to maintain the necessary infrastructure and 
        technology along the Nation's borders to ensure CBP law 
        enforcement personnel are supported with effective surveillance 
        technology to improve their ability to detect and interdict 
        illegal activity in a safer environment. This represents a 
        decrease of $91 million from the substantial increase provided 
        in the fiscal year 2016 appropriation.
                                refugees
    We are doing our part to address the Syrian refugee crisis. USCIS, 
in conjunction with the Department of State, is working hard to meet 
our commitment to admit at least 10,000 Syrian refugees by the end of 
this fiscal year. We will do this by carefully screening refugees in a 
multi-layered and intense screening process involving multiple law 
enforcement, National security, and intelligence agencies across the 
Federal Government.
                             secret service
    Over the last year, Director Joe Clancy of the Secret Service has 
done a tremendous job reforming the agency, including hiring a chief 
operating officer from outside the Secret Service, altering the 
structure and management of the agency, ramping up efforts to hire new 
members of its workforce, and expanding training opportunities. In 2016 
we will continue to work on areas that still need improvement.
    The President's fiscal year 2017 budget requests $108.2 million to 
enhance White House security, an increase of $42 million, which 
includes support for the U.S. Secret Service's Operational Mission 
Support initiative to enhance protection at fixed and temporary sites 
and includes advanced protective countermeasures.
                            the coast guard
    With the help of Congress, in 2016 we will continue to modernize 
the Coast Guard fleet, including all major air and surface asset lines. 
We propose continuing these investments in the 2017 budget request, and 
we seek an additional $150 million for the design of a new Polar-class 
icebreaker.
    Our fiscal year 2017 budget request includes $1.1 billion to 
support the Coast Guard's air and surface fleet recapitalization, to 
include $240.0 million for production of four Fast Response Cutters; 
$130.0 million to convert Air National Guard C27J aircraft for Coast 
Guard use; $150.0 million for acquisition activities for a new Polar 
icebreaker; and $100.0 million to complete evaluation of detailed 
design and long lead time material for the lead Offshore Patrol Cutter.
                                 fletc
    Our fiscal year 2017 budget includes $243 million to support 
FLETC's mission. Since 2012, the Federal Law Enforcement Training 
Center has trained more than a quarter million Federal, State, and 
local officers and agents. At the same time, FLETC continually updates 
its curriculum to address the biggest challenges facing law 
enforcement, to include training for active-shooter situations, cyber 
forensics, and human trafficking.
                                  fema
    FEMA continues to carry out its extraordinary responsibility of 
supporting the American people and communities to prepare for, respond 
to, and recover from various disasters. FEMA will continue to focus on 
efforts to enhance resilience and mitigation measures before disaster 
strikes, to prevent loss and save lives.
    Our fiscal year 2017 budget request supports the Disaster Relief 
Fund, grant programs, disaster preparedness plans, and training for our 
homeland security and law enforcement partners. This includes $6.7 
billion to sustain relief fund levels that provide immediate and long-
lasting assistance to individuals and communities stricken by 
emergencies and major disasters. Our 2017 budget request also includes 
$365.0 million for the Pre-disaster Mitigation Fund and for flood 
hazard zone mapping. The administration is committed to helping 
communities take steps to protect themselves from extreme weather and 
other climate impacts. These investments build on recent progress and 
pursue strategies to build a more climate-resilient America.
                        lawful trade and travel
    We continue to promote lawful trade and travel. We will continue to 
pursue the President's U.S.-Mexico High Level Economic Dialogue and his 
Beyond the Border Initiative with Canada. We are implementing ``Single 
Window'' for international trade, which, by December 2016, will enable 
the private sector to use just one portal to transmit information to 47 
Government agencies about exports and imports, thereby eliminating over 
200 different forms and streamlining the trade process.
                               conclusion
    As I stated before, developing this budget request within the 
topline constraints of the bipartisan budget agreement of 2015 required 
difficult choices. But I am confident that the Department of Homeland 
Security will build upon the progress we have made over the past year 
and continue to fulfill our vital mission of keeping the homeland safe.
    I again thank you for the opportunity to speak here today and for 
your continued support of DHS.
    I look forward to your questions.

    Chairman McCaul. I thank the Secretary. I think you have 
improved the Department significantly. We appreciate that.
    I recognize myself for questions. I also want to thank you 
for discussing the authorization bills, particularly the 
cybersecurity bill, which I think was perhaps the most 
significant bill passed out of this committee in quite some 
time, and so I thank you for that.
    I had a question about the border. In a letter you sent to 
Secretary of Defense Ashton Carter, dated November the 30, 
2015, you requested a 50 percent reduction of flight hours by 
the National Guard, or the equivalent of 3,850 hours less than 
what was provided last year, and then a reduction in 300 Border 
Patrol Agents. So, as we look at trying to get the border more 
secure, can you tell me why you have requested a 50 percent 
reduction in aviation assets?
    Secretary Johnson. Mr. Chairman, you are referring to 
Operation Phalanx. This is something that the Department of 
Defense provided over the last 10 years or so, which includes 
flight hours with DOD assets. DOD began originally supporting 
that effort some years ago when DHS itself had far less 
capability in that regard, both in terms of people on the 
ground and surveillance equipment in the air.
    In the intervening years, because of the support of 
Congress, DHS is in a much better place in terms of flight 
hours, aerial capability, and capability on the ground. So, 
this past year, the Department of Defense and I did agree that 
we could accept less from DOD because of the investments that 
had been made over the last several years by DHS itself. So, 
overall, we are at a much better place in terms of total flight 
hours, so we accepted less from DOD, which represents about a 5 
percent cut in flight hours from last year, but longer term, we 
are in a much better overall place.
    Chairman McCaul. Let me move on to another issue. The Paris 
attackers and the Garland case involved what is called dark 
space communications, an encrypted space using apps. Without 
the ability to see these communications, it is hard to stop it. 
There has been a lot of talk with the Apple case, obviously, in 
Federal court.
    You at one point in time talked about that if smart people 
are in a room together, to ensure all stakeholders are 
represented in that discussion, that that could be part of the 
solution. As you know, sir, Senator Warner and I introduced a 
bill to form a National commission on technology and security 
to address this very important issue in their report to 
Congress, just as the 9/11 Commission did with solutions to 
this very difficult challenge to Federal law enforcement.
    Can you give me your opinion on that?
    Secretary Johnson. Mr. Chairman, I agree that there needs 
to be a discussion among smart people to arrive at the 
appropriate balanced solution to the encryption problem. I 
think that in response to demands from the marketplace, the 
tech sector has gone pretty far down the road of encryption, 
not to hide criminal or terrorist activity but in response to 
the demands of the marketplace for increased security and 
encryption by Americans everywhere. That has, in fact, made it 
harder for us to detect terrorist activity and criminal 
activity.
    I agree that there needs to be a conversation among smart 
people representative of all the stakeholders in this debate to 
arrive at the--and I believe there is an appropriate solution 
to this--to arrive at it, that includes not only 
representatives of the law enforcement community, Federal, 
State and local, privacy advocates, the tech sector, the 
intelligence community. I believe we can arrive at that if you 
have the right people in the room to do that.
    So I am agreeing with the principle of what you are saying.
    Chairman McCaul. That is principally what the bill states.
    Last question----
    Secretary Johnson. Excuse me, sir. May I have just one 
second so you can hear me?
    Chairman McCaul. Sure.
    [Recess.]
    Secretary Johnson. I apologize. I think I am in a better 
place.
    Chairman McCaul. Many of us are suffering from the same 
illness.
    So I think you agree conceptually with what the bill 
represents.
    Secretary Johnson. I think there needs to be a 
recalibration, and I believe that there is a solution to this 
problem that encompasses all interests. Some smart people if 
they come together to consider this issue I think can solve 
this issue.
    Chairman McCaul. Just going to the refugees, the Syrian 
refugee issue. We have the SAFE Act that passed the House but 
not the Senate. You testified before this committee that it is 
a challenge. We know that organizations like ISIS might like to 
exploit the refugee program, and then, subsequent to that, the 
director of national intelligence wrote to me in a letter 
indicating that, ``individuals with ties to terrorist groups in 
Syria have attempted to gain entry to the United States or have 
already attempted to through the refugee program.''
    Let me ask you a 2-part question. No. 1, do you still agree 
that that poses a potential threat to the security of the 
United States? Let me just ask you that question first.
    Secretary Johnson. In all candor, I do agree that the 
refugee flow coming out of Iraq and Syria represents a 
potential opportunity for terrorist organizations to move its 
members into other nations for potential attacks. So I agree 
that there is that potential, which is why just within the last 
several months we have enhanced our vetting for refugees.
    With that said, just the week before last, I was in Turkey, 
as I think you know. One of the places I visited was a Syrian 
refugee camp. The overwhelming number of people in that camp 
are women and children who left Syria because their homes had 
been ravaged and destroyed, and want to go back there. They are 
the victims of terrorism and violence. So I think we need to 
support the effort to resettle this population someplace else. 
But we are going to do it carefully, and we have put on a 
number of security enhancements to the process, which is 
already very cumbersome and time-consuming, and we are 
evaluating whether more is necessary, but my basic answer to 
your first question is yes, sir.
    Chairman McCaul. Well, let me just follow up. When I go 
home, and I talk to my local community, State representatives, 
you know, Federal law requires that the State and local 
governments be consulted with. When I go home, they basically 
tell me as you move the refugees in--and they are coming into 
the United States now--and as you move them in, the local 
communities want to know when you are moving them in and where 
for a lot of reasons, safety and security and maybe the safety 
of the refugees themselves.
    Can you tell me why this is not being done?
    Secretary Johnson. Well, as I am sure you know, the actual 
resettlement in the United States is principally the 
responsibility of the State Department and the State Department 
is supposed to be consulting with State governments, with local 
communities, local not-for-profit organizations. My 
observation, just in the State of Texas--and I have met 
communities that have embraced Syrian refugees in particular in 
Texas--is that it is going well, that the communities that have 
accepted the refugees are embracing of refugees. They are 
learning the language. They are getting jobs. Their families 
are relatively happy to be here. That has been my observations. 
I know that there is friction with Governors, which the State 
Department and I have been seeking to address, and I think we 
are in a better place now than we were, say, in December.
    Chairman McCaul. I would encourage you to do as much 
consultation as possible before they are moved into these 
communities.
    With that, the Chair recognizes the Ranking Member.
    Secretary Johnson. I am now adequately doctored up here 
with 2 cups of tea, a lot of candy, Life Savers. I am good for 
another 6 hours. There must be something in the air.
    Mr. Thompson. Thank you very much.
    Mr. Secretary, I talked a little bit about the wait times 
that a lot of airports presently are experiencing and the 
implications for additional times, wait times this summer. We 
had Administrator Neffenger here before the committee recently 
and shared the information with him. Can you kind of give some 
assurance to this committee that that existing problem, as well 
as a future problem, is high on your radar screen and that this 
budget would not impede a solution to that problem?
    Secretary Johnson. The answer is yes. Let me say 3 things. 
First, wait times are due in significant part to increased 
travel. More people are flying these days. No. 2, we have in 
fact applied a renewed focus to security at checkpoints at 
domestic airports. That is something that Administrator 
Neffenger and I both support, and it is something I asked him 
to do, in part because of the results of the inspector 
general's tests last summer, which we all know about. So we 
made a renewed effort at aviation security, aviation screening, 
and checkpoints, which I hope and expect and believe that the 
American public supports and understands; it is for the 
protection of them.
    With regard to the workforce, as I am sure you know, 
Congressman, for years, we have been reducing the number of 
TSOs, because of risk-based security. In this budget request, 
we are beginning to reverse that trend. We want to stop the 
process of reducing the number and in fact start building on 
that so that we have more TSOs available to do the screening, 
and that will help with the wait times. I track wait times 
myself every time Pete Neffenger comes in to brief me, and I 
see the numbers going up. But I think it will get better over 
time. A lot of it is due to increased travel volume, which is a 
good thing in my view.
    Mr. Thompson. So you anticipate that the problem will be 
managed?
    Secretary Johnson. I anticipate that the problem will be 
managed. It is being managed. We are approaching the summer 
months, as you know. I am sure we will see added wait times at 
certain airports, but we are in this budget request seeking a 
slight increase in the number of TSOs, and I expect that to be 
a longer-term trend to deal with the screening at airports, but 
there has been a renewed focus on security, without a doubt.
    Mr. Thompson. I talked a little bit about Presidential 
campaigns, security. It is that time of the year. Some of us 
are concerned with the activities of people who are attending 
campaign events. I would hope that the mission for the Secret 
Service is maintained toward the protection of, particularly, 
individuals running for office and that other security 
responsibilities will fall to other law enforcement.
    Secretary Johnson. Okay. That is exactly the line they 
draw. The Secret Service, and I want to make this very clear, 
is responsible for the physical security of the protectee. The 
Secret Service is not responsible for removing demonstrators, 
removing those who violate the rules or are noisy, unless it 
represents a physical threat to the protectee. So, very often 
at these large events, as you have observed, there will be 
security provided by the event space, provided perhaps by the 
event organizers, but the Secret Service, you know, the people 
that the taxpayers pay for are there to provide physical 
security for the protectee. That is their job, and that is the 
limit of their jobs. It also includes magnetometers at the 
screening of the events for the physical safety of the 
protectee.
    But as a protectee myself, I have been in situations where 
there are protestors, demonstrators, and things get a little 
hot, but the Secret Service is there to just take care of the 
protectee; that is it. They are not there to deal with the 
demonstrators, unless the demonstrators present a threat to the 
protectee.
    Mr. Thompson. Thank you, I yield back.
    Chairman McCaul. The Chair recognizes Mr. King from New 
York.
    Mr. King. Thank you, Mr. Chairman. Secretary Johnson, at 
the outset, thank you for your service as Homeland Security 
Secretary both with the Department and also the level of 
cooperation you give to this committee and the open door that 
you have.
    I would like to focus on the grant programs. I say this 
coming from New York, but I think it would apply to almost any 
urban area, even suburban areas throughout the country. It is 
high and when the ISIS threats are so high, we see a 45-percent 
reduction in the urban area security grants.
    From my observation, these grants have been effective. They 
have been administered in an efficient way. I am not aware of 
any particular waste or corruption or abuse of the grants. Also 
cities attempt to process them as quickly as possible for grant 
applications. So I would just like your observations as to what 
you believe the effectiveness of these grant programs have been 
now and going forward.
    Secretary Johnson. The budget request, Congressman, with 
respect to grants, again reflects hard choices to fit within 
the budget caps. I do agree that our grant activity is very 
important to State and local law enforcement, State and local 
first responders. I have seen first-hand the effectiveness of 
our grants that support for the NYPD, for example, 
communications equipment, surveillance equipment, overtime for 
cops, for firefighters, and active-shooter training. I 
personally attended an active-shooter training exercise in the 
New York City subway system in November with Commissioner 
Bratton. Active-shooter exercises right now, given the existing 
threat we face, are very important. So I have not only been to 
New York City; I have been to Miami to observe active-shooter 
training exercises there, and Louisville, Kentucky, to 
highlight the importance of this. So given how, as was noted, 
we have more and more reliance on State and local law 
enforcement to detect the next terrorist attack, supporting 
State and local law enforcement in their counterterrorism 
efforts is very, very important in my judgment.
    I support the President's budget obviously, but I do agree 
that our grant money is very important for State and local law 
enforcement, State and local governments.
    Mr. King. Thank you. I would just to add to that, in many 
ways, your local police and fire department are carrying out a 
Federal function as far as resisting terrorism. So I appreciate 
your testimony on that.
    As follow-up to what the Ranking Member was asking about 
Secret Service protection, I realize that their job is to 
protect the protectee, but planning for the conventions this 
summer, will Secret Service have a role in dealing with the 
preparation of the local police and with local security 
coordinators?
    Secretary Johnson. Yes.
    Mr. King. Or will the candidates at the convention itself, 
and again the local police departments?
    Secretary Johnson. Yes. A National political convention is 
an NSSE. There is a Federal coordinator of the security of the 
effort. The planning that goes into that takes a year or more. 
This year in particular, I have told the Secret Service that we 
should do as much of that advanced planning as possible. I will 
be particularly involved myself. It does involve working with 
State and local law enforcement, State and local responders for 
perimeter security, traffic patterns and the like. I think this 
year I want to see us--ensure that we are adequately prepared.
    Mr. King. Going forward, do you think more money should be 
allocated just for the contingency of what might happen going 
into a Presidential year? I mean, you could be caught short 
this year just by I think--I don't think any of us anticipated 
the level of interest or level of potential violence. Is there 
enough funding? Going forward, can you make a recommendation 
for your successor?
    Secretary Johnson. I believe we are adequately funded. But 
I am going to speak for myself here and not for my 
administration for a moment to say that I think that we 
should--I know we try to adequately fund the Secret Service at 
higher levels during election years, but there are variables to 
campaigns. This year, at one point, we had 14 candidates 
running for the Republican nomination, any one of whom could 
have requested Secret Service, and they may have qualified for 
it. But there is a huge variable there. I think, perhaps, and 
again I am speaking for myself, we ought to think about some 
sort of fund that is multi-year money that the Secret Service 
can draw on to deal with these variables. I think that is 
something that we and the Congress should think about for the 
future because there are some things you can't anticipate or 
you can. But depending upon events, you could be funding at 
this level versus that level.
    Mr. King. Thank you, Mr. Secretary. I would just say in 
conclusion, I certainly would urge the Congress to do all it 
can to restore the grant money and get cooperation as we move 
forward on that.
    I yield back, thank you.
    Chairman McCaul. The Chair recognizes Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Mr. Secretary, I want to thank you for being here and 
welcome you back. I want to thank you as well as the 
hardworking men and women who work under your supervision at 
the Department of Homeland Security and the work that they do 
to protect our Nation. So I have a few questions on issues of 
great importance to me, to you, and to the country that begins 
with cybersecurity. I just want to begin by saying that I was 
very pleased with the administration's Cybersecurity National 
Action Plan the President just now announced recently, which I 
really do believe makes even steps toward centralizing dot-gov 
information security, something that I have long called for, 
for a number of years now.
    Can you discuss the Department's role in the CNAP? In 
particular, how will DHS interact with the new Federal Chief 
Information Security Officer?
    Secretary Johnson. Well, a couple of things, DHS will be 
involved--is involved with almost every aspect of that plan. 
Every head of Federal agencies and Departments--every head is 
legally responsible for their own systems, but having a central 
information cybersecurity officer I think is good thing. I am 
responsible for the overall security of the Federal civilian 
dot-gov system. I think we are fulfilling that responsibility 
right now, particularly with the authorities in the new law.
    The CNAP I think puts focus on a couple of things that are 
important. One is education; the other is hiring a cyber 
workforce. The third and I know this is the thing that the 
President is very emphatic about, modernization of our Federal 
systems, some of which are very old, go back to the 1970s and 
1980s, and so we are requesting a huge long-term investment in 
doing that. But DHS is involved in virtually every aspect of 
the plan, and we are involved in virtually every aspect of 
cybersecurity day to day as we go about our mission.
    Mr. Langevin. Thank you. I understand that the President's 
National Plan of Action is actually moving away from this idea 
of departments and agencies procuring their own cybersecurity. 
Is that your understanding as well?
    Secretary Johnson. I think the idea is we would like to 
have a more strategic centralized approach to the acquisition 
of systems so that we get the best deals, and there are lessons 
learned across the departments and a consistency in how we go 
about this so it is not case by case and happenstance.
    Mr. Langevin. So, continuing along that line, in your 
testimony, you point out CDM and EINSTEIN continuing to expand 
their reach across dot-gov programs like these allow 
departments and agencies to outsource important cybersecurity 
functions with the subject-matter experts in your Department. 
However, as you point out, only 50 percent of personnel are 
protected by E3A at the moment. Do you need more authorities to 
make sure agencies adopt these valuable resources? If not, how 
should we ensure that they are used?
    Secretary Johnson. I think that the Cybersecurity Act of 
2015 did a good job of addressing this. There was some doubt 
about the authority of DHS to go into other Federal agencies 
with an intrusion detection system, but the new law addresses 
that. I will say that there are still some lingering concerns 
about that in certain departments and agencies, but we are 
addressing them armed with this new law that you give us last 
year.
    Mr. Langevin. Okay.
    Secretary Johnson. One of the things the law requires is 
that we get to 100 percent by the end of this year, and I think 
we are on track to do that.
    Mr. Langevin. I am anxious for us to get there, and I know 
you are as well as.
    Mr. Secretary, one additional question, I know my time has 
expired, but 2 weeks ago the Defense Department announced that 
it would be establishing a bug bounty program to provide 
security research as a clear path to detect and report 
vulnerabilities to the DOD. Is this something you would support 
for DHS?
    Secretary Johnson. I haven't thought carefully about that 
question, but it sounds like a good idea, yes, sir.
    Mr. Langevin. Of all the places that you think would not 
want to support, DOD, in terms of being hypersensitive about 
security and the networks, to allow something like this I think 
is very forward leaning, very creative. I support it. I think 
it is a good thing, and I hope you would seriously consider 
doing something similar.
    Secretary Johnson. Yes, sir.
    Mr. Langevin. With that, thank you, Mr. Chairman. My time 
has expired. I yield back.
    Chairman McCaul. The Chair recognizes Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Secretary, I just want to get an idea, first, to the 
extent of the problem we are trying to address with the budget. 
First of all, how much of an increase has there been in illegal 
immigration since the first of this year? My understanding is 
it is up 25 percent. Is that accurate?
    Secretary Johnson. Are you referring to apprehensions?
    Mr. Smith. Yes.
    Secretary Johnson. Since the first of this calendar year, 
it has remained pretty steady. I have the numbers right here if 
you would like.
    Mr. Smith. Okay.
    Secretary Johnson. But as I mentioned earlier, 
apprehensions on the Southern Border in February and January 
have gone down significantly.
    Mr. Smith. Rather than the beginning of this calendar year, 
I meant to say the beginning of the fiscal year. The first 4 
months of a fiscal year, I understand apprehensions were up 25 
percent.
    Secretary Johnson. The numbers, beginning October 1, were 
creeping up in October, November, December. They decreased 
pretty significantly in January, February.
    Mr. Smith. Is 25 percent accurate generally?
    Secretary Johnson. Over the prior fiscal year, that is 
probably right, because of that increase we saw in the fall.
    Mr. Smith. Right. Also, with the corresponding same period 
of time, were apprehensions for unaccompanied children up about 
100 percent?
    Secretary Johnson. I don't know whether that is true or 
not. I don't know about that number.
    Mr. Smith. Okay. That is my understanding as well: 
Apprehensions overall, 25 percent; unaccompanied children, 100 
percent. No surprise, except that is not an encouraging trend.
    Secretary Johnson. The trend has been back down again in 
January/February to the levels it was this time last year.
    Mr. Smith. Right. There is still, regardless, over the last 
year, the 100 percent over the corresponding same time I 
understand. But you can get back to me maybe even by the time 
we are finished today.
    The other subject I wanted to bring up was I was down 
recently at the border in Texas and some individuals told us 
that the administration's catch-and-release program was being 
expanded. By catch-and-release, I mean individuals were 
apprehended and not put in to proceedings but just turned 
around and released and sometimes returned across the border. 
Is that catch-and-release process being expanded in your 
opinion?
    Secretary Johnson. No. I would have to disagree with that, 
sir. As I think you know, we have expanded our capability for 
family resident centers.
    Mr. Smith. Right.
    Secretary Johnson. In several locations in Texas. We have--
--
    Mr. Smith. Agents are not being told just to not put 
individuals in proceedings; they are not being told just to 
release them.
    Secretary Johnson. No, that is not my understanding, and 
that is not my expectation at all. We have just this fiscal 
year, we have sent back either by the Border Patrol or ICE 
something like 128,000 Mexicans.
    Mr. Smith. But I am talking about something different. I am 
sure individuals have been returned. I am talking about--and it 
sounds to me--I would like to have you confirm it--that if an 
individual is apprehended, they are put in proceedings, not 
just released.
    Secretary Johnson. If an individual is apprehended, if they 
are not detained, they should be given a notice to appear and 
put in immigration proceedings. Once they are ordered removed 
and they are a priority removal, they should be removed.
    Mr. Smith. Okay. Good. Last, and you probably anticipate 
this question because I ask it every time you are before this 
committee: How many thousands of individuals has the 
administration released who are criminal immigrants? In other 
words, every year, it is around 28,000. Every year, you say it 
is wrong; we are not going to do it anymore. We seem to 
continue that policy, but how many criminal immigrants are 
being released?
    Secretary Johnson. Congressman, since you and I have been 
having this conversation, in fiscal year 2013, the number was 
36,000.
    Mr. Smith. Okay.
    Secretary Johnson. Last year or the year before, I put in 
some reforms to the process to tighten up that decision-making 
process.
    Mr. Smith. Right.
    Secretary Johnson. In fiscal year 2014, the number went 
down to about 30,000. In fiscal year 2015, the number is I 
think around 19,000.
    Mr. Smith. Okay. Why is it 1,000? Why are we releasing any 
criminal immigrant back into our neighborhoods?
    Secretary Johnson. As you know, a lot of the decisions are 
made by an immigration judge, which is part of the Department 
of Justice, and because of the Supreme Court's decision in 
Zadvydas, which after a removal order gives us limited ability 
to hold people.
    Mr. Smith. Those cases amount to about 2,000 of the 20,000. 
I am talking about the other 18,000, which the administration, 
if they wanted to continue to incarcerate, they could, and they 
still continue to release thousands of people. As you know, the 
figures came out a few days ago where over the last several 
years, hundreds of individuals have committed capital crimes 
who had been released, who didn't need to be released. So when 
is the figure going to get down to zero and not 19,000 or 
whatever it might be?
    Secretary Johnson. Well, I am constrained by the decision 
of an immigration judge, and I am constrained by the law. I 
will tell you that a decreasing percentage of those released 
are released as the result of the exercise of discretion by an 
immigration officer. I would like to see that continue in that 
direction. I too would like to see that number continue to go 
down, and it has gone down significantly in the last 2 years.
    Mr. Smith. Thank you, Mr. Chairman.
    Chairman McCaul. I thank you.
    The Chair recognizes Mrs. Watson Coleman.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    Good morning, Mr. Secretary. It is good to see you again.
    Secretary Johnson. Good morning.
    Mrs. Watson Coleman. I want to ask you a question about the 
Department's decision to up the number of individuals that it 
plans to house at the headquarters from 12,800 employees to 
18,000 employees and from 230 square feet per person to 155 
square feet per person. The reason I am asking you this is 
because we have had many hearings here where the issue of 
chronic low morale has been raised. It would seem to me that 
reducing this sort of personal work space and increasing the 
number of people in that area might have a negative impact also 
on morale. So I am wondering why that decision was made and 
what went into making that decision.
    Secretary Johnson. Well, first of all, we have an 
aggressive campaign to improve the levels of employee 
satisfaction. I believe we will see an improvement in the 
levels of employee satisfaction this year because of the 
efforts we are making over the last 2. We are building, with 
the support of this Congress, a new headquarters in southeast 
Washington. It will be a really nice headquarters, much nicer 
than the temporary space we are in now, which, irrespective of 
the square footage, is not optimal for our headquarters 
personnel. I believe, aside from whatever square footage there 
is, that once we get to a new consolidated headquarters, that 
will also improve levels of employee satisfaction. Just being 
in a new modernized headquarters space where we are all better 
able to have secure communications, more conference space and 
the like, is going to go a long way. So I don't know about--I 
heard you mention those numbers. I am not familiar with those 
square footage numbers, but I do believe and I am convinced 
that when we move to the new headquarters, that is going to do 
a lot for morale.
    Mrs. Watson Coleman. Way back when, when I was in school 
and studying issues of this nature, this whole issue of 
personal space and how you felt about your work environment 
kind of went hand-in-hand. So I was just sort-of interested in 
how one decided that this 75-square-feet reduction wouldn't 
have a negative impact on an already sort-of fragile work 
environment. I do understand and appreciate that you have been 
doing a lot to try to lift morale and make people happy about 
working in the important work that they do.
    Secretary Johnson. I think moving to a sparkling new 
headquarters is going to do a lot for that.
    Mrs. Watson Coleman. That will help. That will help, truly, 
yes.
    I wanted to talk to you a little bit more. We talked about 
the Secret Service and its role at these Presidential debates 
and who it is supposed to protect. But I wanted to go a little 
bit beyond that because these are major large events, and I 
know you speak to maintaining situational awareness at these 
major events. So as we are moving forward, not only in this 
primary season but even in the general election season, even up 
to the various conventions, what is it that the Department will 
be doing to maintain situational awareness and coordinate with 
State and local law enforcement during this whole campaign 
season up to and including?
    Secretary Johnson. Well, the Secret Service is in large 
part a law enforcement agency, so a lot of what the Secret 
Service does is investigative in nature. So a lot of protection 
mission is in investigative in nature. The Secret Service I 
know for a fact works well with State and local law enforcement 
on a variety of things, including the protection mission. State 
and local law enforcement supports the protection mission in 
every place a protectee goes. I have seen that first-hand. This 
election year, that is an expanded mission. So I anticipate, 
particularly as we move toward the National political 
conventions, that we are going to spend a lot of time working 
with local law enforcement in Cleveland, working with local law 
enforcement in Philadelphia. Those are two NSSEs that we 
coordinate the security for every 4 years, and I anticipate 
that again happening this year.
    Mrs. Watson Coleman. So will there be other personnel, 
other than Secret Service personnel, from your Department that 
are engaged?
    Secretary Johnson. Yes, yes. Like the General Assembly last 
year, our HSI personnel, our TSA personnel, our Coast Guard are 
all devoted toward the security of the event and other 
components of my Department. So I anticipate that happening 
going forward with the conventions and with the campaign.
    Mrs. Watson Coleman. So will some of those personnel be 
involved in tamping down, calming down episodes at these events 
like we have seen at some already?
    Secretary Johnson. No, I would not put it that way. I think 
that what our personnel do to support the Secret Service is, 
say, magnetometer screening at events to ensure that no 
prohibited items are brought in. But in terms of dealing with 
demonstrators and the like, that is largely a private security 
function and a local law enforcement function.
    Mrs. Watson Coleman. I have one other quick question, and 
it regards border agents, the problem you are having with 
recruitment and with retention. There was some information 
about one of the problems with this is that a lot of these 
border agent applicants couldn't pass the polygraph test. So I 
am wondering, are you doing a broad recruitment, or is this a 
narrow--what is the problem here in being able to retain the 
workforce as you state you need and as you are asking for here?
    Secretary Johnson. We simply have not been able to hire to 
the levels that we want to hire to. So the Commissioner of CBP, 
with my encouragement has been very focused on an intense 
campaign to move--get people through that process faster. We 
now have a hiring and recruitment command at CBP. We have 
things called Hiring Hubs. We are doing a number of things to 
get through the polygraph and the vetting process quicker. This 
is a top priority of the Commissioner, and I know he is focused 
on it.
    Mrs. Watson Coleman. This is not an issue of not enough 
candidates. This is an issue of the system not being able to 
move----
    Secretary Johnson. I think that is a fair statement.
    Mrs. Watson Coleman. Thank you, Mr. Secretary.
    My time is up.
    Chairman McCaul. The Chair recognizes Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    Mr. Secretary, a lot of statistics we hear about visa 
overstays are that 49 percent of all illegals in this country 
are people that overstayed their visa. I want to thank you for 
putting together this entry-exit overstay report put out in 
January. I read it with some interest, because it looks like 
you all have left out some of the visa overstay categories. For 
instance, this report is limited to foreign nationals who 
entered the United States as nonimmigrant visa visitors for 
business, IAB-1 and WB visas, or pleasure, IAB-2 and WT visas, 
through ARC ports of entry. You left out F-1 student visas, 
which is a large category of these overstays. Can we expect a 
report from your office on the anticipated number of visa 
overstays that are F-1 visa holders?
    Secretary Johnson. Yes, we should and we must get there. 
The reason that the visa overstay that you have is limited to 
B-1, B-2 visas is because that was the place where we could 
provide you with reliable information. It is based on 
biographic exit. With regard to nonimmigrant B-1, B-2 visas, we 
are now in a place where we can get that data on a reliable 
basis.
    The problem with student visas is we don't always know how 
long the validity period is because it varies with student 
visas. But when somebody is issued a visa for tourism for a 
defined period and so that is more readily-available 
information. So this is, as you know, this has been a long-term 
effort. We finally got to the place where we could provide visa 
overstay information with regard to B-1, B-2, but I agree with 
you that it needs to be a work in progress. We are going to 
keep at this.
    Mr. Duncan. Absolutely, I think you would agree with me 
that we need to continue our efforts on an entry-exit visa 
system--entry-exit system biometrics so we know when someone 
enters and leaves the country. I notice the Visa Waiver Program 
numbers are not included in here either. You mention the 
challenge, and I understand that. I just hope that we will 
continue working on that. That was not the thrust of my 
intention this morning, but I read this with some interest and 
I applaud you for at least taking a first step on that.
    The Department of Defense recently released its plan for 
closing the prison at Guantanamo Bay and relocating those 
terrorists to U.S. soil. DOD visited a site in South Carolina, 
the Charleston Naval Brig, among other sites within the United 
States. Housing terrorists in the United States could 
potentially increase the threat to our homeland, including 
Charleston in my home State.
    So a two-part question: Has the Department conducted any 
analysis into the security threat that would be posed to the 
homeland in bringing these terrorists into the United States? 
Specifically, has there been any analysis conducted into the 
potential increased threat posed to communities that would 
house these terrorists?
    Secretary Johnson. With regard to that last question, I 
would have to refer you to the Department of Defense.
    From my Homeland Security perspective--I certainly support 
the closing of the facility at Guantanamo, but from my Homeland 
Security perspective, I would want to know 2 things. I would 
want to see a threat assessment done with respect to the 
surrounding community for wherever we select to send some of 
these people in the United States. I would want to be sure, 
from a legal perspective, that the laws that provide for 
various immigration protections do not apply to these people.
    Mr. Duncan. I agree with you on that part, that our civil 
liberties and Constitutional rights should not apply to 
terrorists just because they are brought to United States soil 
in captivity. I agree with you on that.
    Secretary Johnson. Well, I have seen legal analysis that 
the immigration laws, immigration benefits would not apply to a 
law of war detainee in the United States. I would want to be 
sure that is true.
    Mr. Duncan. Okay.
    The brig in Charleston has an elementary school a mile or 
less from the brig. It is a security concern.
    I think it does absolutely fall under your umbrella of 
jurisdiction, because if you bring these terrorists to U.S. 
soil and we are holding them there--right now, they are on an 
island. It is very hard for ISIS or al-Qaeda to attack that 
prison. But if they come to United States soil--and we have 
already seen San Bernardino and other terrorist attacks happen. 
A lot of folks believe that those cities themselves where those 
terrorists are housed could be targets themselves for an act of 
terror just because.
    Now, it could be an attempted breakout. We saw a helicopter 
land at a local prison in upstate South Carolina in a prison 
break. So these are legitimate concerns.
    The administration, this week, just yesterday, reversed 
course on a 5-year plan for oil and gas leasing in the Atlantic 
Ocean. They said in their statement they did so because of 
input from stakeholders, the local community and whatnot.
    Do you believe or would you not agree that it is 
appropriate to include the State Governors in the talks of 
moving the terrorists into their State?
    Secretary Johnson. Yes.
    Mr. Duncan. Thank you. Because I think the administration, 
if you use precedence of oil and gas leasing in the Atlantic 
using stakeholder input, they absolutely ought to listen to the 
Governors in the State.
    So Governors have written letters to the administration 
voicing their concerns in opposition to not only bringing 
terrorists onto U.S. soil but into their individual States. 
Governor Haley in my State ought to be commended for being one 
of those Governors that say we don't want these terrorists in 
our State. I think the administration should listen to the 
Governors, just like they listen to the environmentalists with 
regard to oil and gas leases.
    So thanks for your comments.
    Mr. Chairman, I appreciate it and yield back.
    Secretary Johnson. If I may, I know from my experience 
years ago as General Counsel of the Department of Defense that 
when we were looking at this question we would consult 
Governors and Members of Congress that represent potential 
locations.
    Mr. Duncan. I don't know that the administration is 
listening at this point to the Governors or the Members of 
Congress on this particular issue at this time.
    I yield back.
    Chairman McCaul. The Chair recognizes Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here.
    Let me just throw out some questions and see if time 
permits you to answer them here or if you will have to follow 
up in writing.
    First of all, I want to touch base on, again, emphasizing 
what the Chairman said in his opening remarks about the UASI 
grants, the Urban Area Security Initiative grants. Those cuts, 
as well as cuts to State Homeland Security grant moneys, we are 
concerned about those. At Boston, we saw the value of those 
UASI grants first-hand, and we continue to utilize those 
effectively. Also, last September, you announced the Office for 
Community Partnerships initiative. The cuts in these State and 
local programs could indeed hurt the effectiveness of that 
effort as well. That is No. 1.
    No. 2, the long wait lines that so many airports are 
experiencing right now--we have experienced them. We are among 
the many who have experienced them, at Logan Airport, 
particularly with the influx of summertime vacations and the 
warm weather that is coming. It is my understanding from some 
of the airports that passenger-screening K-9s could help 
expedite this. In fact, in Logan Airport, they said that 2 to 4 
dogs, an increase, with their efforts assisting with explosive 
detection, would greatly reduce passenger times. No. 2, I want 
to see if there could be something to address that as well as, 
if you could, the long-term solution for some of the staffing 
shortages.
    The third thing is a component, a bill that I put in with 
the Chair dealing with detection and identification and 
seizures of cultural properties, artifacts that are there, 
which fuel terrorist activities. Part of that was signed into 
law in February. How are you doing progressing with that in 
terms of staffing up to deal with that detection program?
    I will leave it with that, although I do want to--in 
writing, I will talk about some of the more local issues in New 
Bedford Airport and Hyannis Harbor with CBP people, as well as 
give you a thank you. Your staff is helping us to expedite the 
H-2B visa issue which, because of the Department of Labor 
concerns, is being slowed up, but your people have been helping 
us to in the overall process shorten that, so thank you.
    I know I gave you a lot. I apologize.
    Secretary Johnson. With regard to the last question about 
the artifacts law, I believe we are doing what we have to do to 
meet that law. We support that law.
    I agree with you about the effectiveness of K-9s. It is my 
assessment that use of K-9s--a dog's nose is about as good a 
technology as there is.
    We are addressing wait times at the airports, but part of 
it is due to increased travel volume. We want to reverse the 
trend to downsize TSOs. Part of added wait times is simply more 
security. We have, both the TSA administrator and myself, 
embarked upon a plan to bring about more aviation security at 
domestic airports. So that is an intended--it is not an 
unforeseen consequence that we are having longer wait times, 
but a lot of it is due to the increased travel volume.
    I do agree with the importance of UASI grants. I have seen 
the effectiveness of it myself. Given the evolution of the 
global terrorist threat, I think supporting State and local law 
enforcement is important. The submission you have before you 
for fiscal year 2017 does reflect hard choices to fit within 
the budget caps.
    Mr. Keating. Maybe we can address some of those here, 
hopefully.
    The Office for Community Partnerships, how is that going?
    Secretary Johnson. I think it is going well.
    Mr. Keating. It is an important program.
    Secretary Johnson. Countering violent extremism, given the 
current threat environment, is, in my judgment, as important as 
any of our homeland security missions. Under the leadership of 
George Selim, we are building bridges. We are building bridges 
to the tech sector for help there. We are building bridges to 
philanthropies.
    I am very supportive and appreciative of the Congress' 
efforts to help us out with grant money to do all this. There 
is bipartisan support in Congress for our CVE efforts, and I am 
glad to see that.
    Mr. Keating. Great. Thank you, Mr. Secretary.
    I yield back.
    Chairman McCaul. The Chair recognizes Mr. Barletta.
    Mr. Barletta. Thank you, Mr. Chairman.
    I happen to Chair the subcommittee that oversees Federal 
buildings. The first Federal building I went into, they had 
1,500 square feet per employee. That is a little bit more than 
a cubicle. So it has been my request and the request of the 
President to reduce the Federal footprint of Federal 
properties. We have done that so far. The agencies have 
complied, and, to date, we have saved $2.9 billion in the 
agencies that have now moved into spaces that are 180 square 
feet or less per employee.
    So I appreciate Homeland Security working with us. It is 
going to be a beautiful facility. At the same time, there will 
be more money for your mission, rather than wasted space that 
most Americans don't have in their day-to-day jobs. So that is 
a sidebar, and, again, I appreciate your working with the 
committee.
    Mr. Secretary, the 9/11 Commission taught us that, to 
terrorists, travel documents are just as important as weapons. 
It is the preferred method of entry into the country for 
terrorists. They come here legally and then just stay, 
disappear into the mainland. Nevertheless, our Government 
continues to fail at keeping track of who has entered our 
country and whether they have left or not. If you are home to 
an international airport, your State, you essentially live in a 
border State.
    This is a point I have consistently raised since joining 
this committee, and that is why I have again introduced 
legislation that makes a simple tweak to our laws.
    As we all know, if someone illegally crosses the Southern 
Border, they are unlawfully present in the United States. If 
someone comes in on a visa and then overstays their visa, they 
are unlawfully present in the United States. In fact, over 40 
percent of the people that are here illegally didn't cross the 
border illegally; they come on a visa, and they don't go home.
    Yet the penalty is very different, even though both people 
in this situation have the same legal status, unlawfully 
present. Their status is the same, so why is the penalty 
different? Why doesn't it make sense for the penalty to be the 
same, a criminal and not a civil offense?
    Just last month, we saw a reason why this isn't a debate 
club argument but an issue that impacts my constituents at 
home. A Ukrainian national most likely lied to get into this 
country. Authorities say he came to the United States on a 3-
month work visa, then got a tourist visa that expired in March 
2013.
    He then enrolled as a freshman at a Harrisburg school just 
6 months later. He took on a false identity, a fake name. He 
lied about his age. He started school as a freshman, a 20-year-
old freshman, in our schools. His ``surrogate parents,'' 
Stephanye McClure-Potts and Michael Potts, helped enroll him 
with fake documents. The criminal complaint said that they also 
helped him get a Pennsylvania driver's license under the name 
of Asher Potts in 2014.
    He is being charged with multiple offenses, including 
theft, identity theft, tampering with public records, 
conspiracy, and statutory rape. Now, his surrogate parents say 
he talked about attacking students at his high school. Nothing 
could be more chilling than the thought of terrorists enrolling 
as students. Previously, we have heard of terrorists taking 
flying lessons, but imagine them sitting next to your kids in 
algebra class.
    The fact that this has happened in central Pennsylvania 
shows how serious this is. Imagine if, instead of being a 23-
year-old Ukrainian national named Artur Samarin posing with the 
name of Asher Potts, this man had an Arabic or Hispanic last 
name. That sure would get everyone's attention--and this is the 
same thing, no matter what his name is--if they heard that 
someone overstayed their visa, had created false documents, 
joined the ROTC and talked about wanting to join NASA, and had 
allegedly made threats to attack students.
    Now, we have seen concrete evidence in Harrisburg. Where 
else is this happening? How many more Asher Potts are there 
Nation-wide? My question is: How many individuals have 
overstayed their visas, falsified their identities, lied about 
their age, and are sitting in school classes today?
    Secretary Johnson. Congressman, a couple things.
    First, the visa overstay report that was recently released 
reveals that, with regard to those who entered on B-1, B-2 
visas, year to year, the population of those who overstayed at 
any one time--that could be a day or a year--is somewhere 
around 400,000. I don't have the exact number, but it is 
reflected in the report.
    I am going to agree with the spirit of your question. I 
think that, in this current environment, in this current threat 
environment, the potential for fraudulent travel documents is a 
big concern. So I have done a lot to support DHS's fraudulent 
documents lab which we have. We have the capability to detect 
fraudulent documents.
    I also have asked our folks to, now that we have some 
better clarity on visa overstays, develop priorities for 
enforcement with regard to visa overstays. Right now, priority 
3 in my policy reflects those who--I can't remember the exact 
words--commit fraud of the system, but I have told our folks we 
need to develop priorities within the visa overstay population 
to get at this population.
    I think there is a concern we should all have about 
fraudulent travel documents.
    Mr. Barletta. Especially if they can get into our schools, 
lie about their age. You know, there wouldn't be a more 
horrific crime here than if you can use your imagination of 
what could happen.
    Don't you think the penalties should be the same? If you 
cross the border or you overstay your visa, your status is the 
same, you are unlawfully present here. Shouldn't the penalties 
at least be the same?
    Secretary Johnson. I would have to think about that a bit 
more. I am concerned about the fraudulent travel document 
problem because of the migration crisis we have, primarily. I 
understand the spirit of your question too. But that is my 
concern.
    Mr. Barletta. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCaul. Thanks.
    The Chair recognizes Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    Secretary, it is good to see you again.
    As you know, my district, your home, takes in the Port of 
Newark and Newark Liberty International Airport. The Customs 
and Border Protection Agricultural Specialists at the airport 
clear up to 20,000 passengers every day. You know, the port is 
one of the busiest on the east coast, and the CBP Agricultural 
Specialists inspect all types of items that could harm domestic 
agriculture.
    Now, I am concerned that our understaffed ports lead to 
delays in our commercial lanes, as cargo waits to enter the 
U.S. commerce, but also creates a significant hardship for CBP 
Officers. There is a severe shortage of Agricultural 
Specialists at Newark ports of entry, in the neighborhood of 30 
members.
    What is the strategy in terms of working on these issues 
with the lack of personnel?
    Secretary Johnson. The strategy is an aggressive plan to 
make for a more efficient hiring process through aggressive 
recruitment, a recruitment hiring command within CBP, hiring 
hubs, and a more expedited way to get through the polygraphs.
    We do have shortages in person power that are reflected 
around the country, including in northern New Jersey, and I 
have told the Commissioner that this has got to be a top 
priority this year to address. I believe he is addressing it. 
He is acutely aware of the shortages that you refer to.
    Mr. Payne. Okay. Thank you.
    Also, you know, in November 2012, DHS OIG found that, 
although the Department has spent $430 million on developing 
interoperable communications capabilities, radio users from 
different jurisdictions could not communicate.
    The DHS Inoperable Communications Act, which I reintroduced 
this Congress, was the first bill of 2015 out of this committee 
and signed into law last July. But the Department has failed to 
issue the mandated strategy by the January 2016 deadline and 
has rebuffed many requests to provide status briefings on this.
    When could this committee expect to receive the 
Department's strategy to achieve interoperability? Why has it 
been delayed?
    Secretary Johnson. Well, Congressman, first of all, if we 
are not being responsive to Congress, that is something that I 
will address.
    I know from a briefing I had recently that we are in a 
better place than we were certainly in 2012 with regard to 
interoperability. Day to day, we are functioning much better 
now. There are still areas of needed improvement, without a 
doubt, but I think interoperability, both within DHS and across 
law enforcement agencies, is key.
    I will address the question of getting back to you with 
regard to your outstanding request, make sure that that is met.
    Mr. Payne. Absolutely. I mean, we all understand how 
crucial interoperability is in the event of a catastrophe or a 
terrorist attack or a natural disaster, that agencies on the 
ground need to be able to communicate with each other and also 
within the Department specifically.
    Let's see. Well, I am running out of time, so I will yield 
back. But I hope that you, if you are going to be in 
Washington, that you vote by mail and vote for your Congressman 
again.
    Thank you.
    Chairman McCaul. Wow.
    The Chair recognizes Mr. Perry.
    Secretary Johnson. That is a new one at a hearing.
    Chairman McCaul. Yeah.
    Secretary Johnson. I will accept the challenge.
    Mr. Perry. Thank you, Mr. Chairman.
    Thank you, Secretary, for being here.
    Next week, the President is making a legacy trip to Cuba. 
Last October, Deputy Secretary Mayorkas traveled to Cuba to 
meet with senior Cuban government officials, and, according to 
your press release, or DHS's press release, the discussion 
focused on enhancing cooperation in Customs and Border 
Protection and exploring new areas of collaboration.
    Secretary Johnson. Uh-huh.
    Mr. Perry. Now, given the Cuban government's past 
activities related to human rights violations, 
counterintelligence activities, and subversive actions towards 
America, as well as the fact that they have lifted the visa 
requirement and we are seeing Cuban refugees coming through 
Central America and walking across the land border into Mexico, 
there are some serious questions that remain as to how DHS 
plans to coordinate with Cuba.
    Yet when the Oversight Committee that I chair requested 
information, an informational briefing, from DHS to Members on 
the DHS activities related to Cuba, DHS headquarters and CBP 
refused to provide briefers, saying that they have to have 
State Department present for such a briefing. Of course, as you 
can imagine, State Department saying, well, we have to have DHS 
present for such a briefing.
    So we are getting the runaround here. Is there some secrecy 
here or something I am missing? I mean, is there something that 
the Department can't tell us autonomously, and if we have to 
verify it with the State Department, we'll do that if they 
refuse to come, or deal with them separately? Or what is 
happening here?
    Secretary Johnson. Congressman, I will look into that for 
you----
    Mr. Perry. Okay.
    Secretary Johnson [continuing]. Now that you have put that 
on my radar.
    I can tell you that, in general, we are making an effort to 
build a greater degree of law enforcement cooperation with the 
Cuban government. I think that is in our public safety interest 
to do.
    Mr. Perry. Absolutely.
    Secretary Johnson. In terms of maritime security, law 
enforcement, port security, I think that is in our interest. We 
have been having those discussions.
    Mr. Perry. The Department has always been cooperative. So I 
am concerned about this, and Members of the committee are, as 
well. Of course, this is an emerging and changing policy, and 
we want to make sure that we are involved in it, as 
Representatives----
    Secretary Johnson. I do know that we are pretty focused 
right now on the President's visit, which is coming next week. 
But I will look into this, and, as I hope you know by now, I 
believe in responsiveness to Congress.
    Mr. Perry. I appreciate that. I do know that, so thank you.
    Recently, or at least previously, you stated in this 
committee that your position, it is your goal to get DHS off 
the GAO high-risk list.
    Secretary Johnson. Yes.
    Mr. Perry. I am assuming that is the same thing. I suspect 
your staff has informed you of the Subcommittee on Oversight 
and Management Efficiency's findings and our hearings that we 
have had where literally every single thing we have examined 
has shown gross mismanagement, whether it is in the human 
resources information--HR IT technology system, the vehicle 
fleet management, and other areas, where we just see hundreds 
of millions of taxpayer dollars wasted.
    I am just wondering--I know you have requested $225 million 
for St. Elizabeths. I have been out there. It is going to take 
a lot of resources, without a doubt. But you also manage the 
second-largest civilian fleet in the Federal Government at a 
cost of over $460 million to operate. I found some unimaginable 
things occurring there.
    I am just wondering if getting off the high-risk list, 
GAO's high-risk list, you know, even--there is not much asked 
for in improving your acquisition process, which was another 
point of contention, and only a minuscule fraction is devoted 
to that.
    So I am just wondering, as you weigh everything and try and 
prioritize with St. Elizabeths, et cetera, and the mission that 
you have got to complete, the President's visit to Cuba, how 
does this fit in?
    Secretary Johnson. Well, as I indicated in my opening 
remarks, management reform is my top overall priority. We 
continue to make good progress with GAO. In fact, GAO has told 
us that they consider us a model agency for how you get off the 
high-risk list.
    Mr. Perry. If I may interject, when they told you that, did 
they tell you that in writing? Because I don't get that sense--
no disrespect intended, but I don't get that sense when they 
come to testify.
    Secretary Johnson. I believe that they did. Because when I 
was told that verbally, I said, ``Get me the piece of paper 
that says that.''
    Mr. Perry. Great. As long as you are working on the 
hearing, if you can find that, as well.
    Secretary Johnson. Congressman, I don't know how recent 
your last briefing from us was on our reforms that we have 
applied for HR and acquisition. If you haven't already, I would 
encourage you to sit down with our new Under Secretary for 
Management, Russ Deyo, who is a retired Johnson & Johnson 
executive, who has done a lot already in his year to reform our 
HR process, our acquisition process. I don't know when the last 
briefing you got was, but I think we are moving in the right 
direction.
    Mr. Perry. All right. We will look forward to that. Thank 
you, Mr. Secretary.
    Chairman McCaul. The Chair recognizes Mrs. Torres.
    Mrs. Torres. Thank you so much.
    Good morning.
    Secretary Johnson. Good morning.
    Mrs. Torres. It is nice to see you again.
    In the Consolidated Appropriations Act of 2016, the Office 
of Community Partnership was appropriated $10 million for 
grants to extend to outside stakeholders to further its mission 
to counter violent extremists.
    Last week, Department of Homeland Security, the FBI, along 
with my police departments, fire departments, all got together 
with key community stakeholders.
    Is $10 million enough money to ensure that these grants are 
available for all communities across the United States? If not, 
I want to know how I can get my community in the front of the 
line.
    Secretary Johnson. Frankly, no, it is not. We originally 
thought we had 50, and when we looked at the report language, 
we saw that it was 10 for CVE and 39 for preparedness for 
complex attack situations. But the same language, which I have 
read myself, says that if you want to make a reprogramming 
request, make a reprogramming request.
    So I would like to see us fund our grants across the 
country. Ten million dollars doesn't go very far, given where I 
think the needs are. So I can make a reprogramming request, 
which I hope Congress would honor, if I believe I need more, 
and I may need more.
    Mrs. Torres. I hope that you would ask for more. 
Communities like San Bernardino that have suffered so much, it 
hasn't been because of the lack of interest from the community 
to want to work and participate in being the solution to 
threats to our homeland. But, certainly, this funding, I don't 
think it is enough.
    On the issue of interoperability within the radio system, 
you heard the radio conversations with our first responders as 
they were responding to San Bernardino, to the incident in San 
Bernardino.
    I have a big concern that a lot of our agencies have not 
upgraded their radio systems and have no way to encrypt their 
communications directing first responders to critical incidents 
such as the one in San Bernardino. What is the plan to address 
this critical issue?
    Secretary Johnson. Congresswoman, interoperability is a 
work in progress. I think we have made significant progress 
over the last couple years. But interoperability is, in my law 
enforcement experience, crucial, and we have to be able to talk 
to each other within DHS and across law enforcement agencies.
    The active-shooter training exercise I attended in New York 
City in November was devoted--funded by DHS--was devoted 
principally to interoperability of communications. That is the 
level of importance that we and I attach to that. So we are 
moving in the right direction.
    Mrs. Torres. Right. It is important for them to be able to 
talk to each other, but it is critically important for them to 
be able to encrypt those communications.
    Secretary Johnson. Understood.
    Mrs. Torres. Thank you.
    I yield back.
    Chairman McCaul. I thank you.
    The Chair recognizes Mr. Carter.
    Mr. Carter. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being here.
    Mr. Secretary, in my district, my constituents, as you can 
imagine, are most concerned about securing our borders. They 
are most concerned about making certain that the people who are 
coming in here, that we know who they are and that we know 
whether they are coming here to hurt us or not. I trust, Mr. 
Secretary, after having interacted and gotten to know you for 
the past 16 months, that you have the same concern and share 
the same concern.
    So my question is this. You have expressed support of the 
budget during the time that you have been here, but the budget 
includes funding for 300 fewer Border Patrol Agents than was 
mandated in the fiscal year 2016 budget. I am just wondering, 
if indeed, as I believe, you share that same concern about 
securing our borders, how can you be satisfied with this budget 
if it includes 300 fewer Border Patrol Agents than what was 
mandated in the fiscal year 2016 budget?
    Secretary Johnson. Two things.
    The budget submitted to you reflects hard choices to fit 
within the legally-mandated caps.
    The request reflects a considered decision to focus on 
technology and surveillance equipment at the border, given the 
nature of what we are seeing and the changing character of 
those crossing the border. Very often, as I am sure you know, 
people, particularly people from Central America, anticipate 
that they are going to be caught. So the key is to know where 
they are crossing through technology, through surveillance 
equipment, and get our personnel there in place to meet that 
surge.
    Mr. Carter. Mr. Secretary, I appreciate that and understand 
that, but, you know, we had the opportunity on this committee 
to visit the border, and the Border Patrol Agents were telling 
us we need more boots on the ground. That is what we were 
hearing from them. Now, granted, you are correct, we do need 
the technology. I am not arguing that fact. It will and has 
helped us. But, again, they are crying out for more boots on 
the ground.
    If I could shift gears for just a second, a couple weeks 
ago, on March 2, we had the administrator of TSA, Mr. Neffenger 
here. At that time, we talked about the Screening Partnership 
Program, something that I am very interested in. I am from 
Georgia, of course. As you are aware, the administrator for 
Hartsfield-Jackson International Airport has expressed concerns 
about the long waits and the long lines and has actually talked 
about perhaps utilizing this program.
    What I wanted to ask you--Mr. Neffenger had told us that we 
were getting cost estimates from GAO. When can we expect those 
cost estimates to be in?
    Secretary Johnson. Let me get back to you on that, sir.
    Mr. Carter. Okay.
    Secretary Johnson. I have spent a lot of time at Hartsfield 
myself. Sixty-three thousand people work at Atlanta Hartsfield 
Airport. One of the things that I am sure you know we are 
focused on there is airport security. So the administrator has 
issued directives for self-assessments and the like. It is the 
busiest airport in the country, so any best practice we could 
bring there--but I will look into that issue of the report for 
you.
    Mr. Carter. Okay.
    Well, one other thing, and that is I noticed in your budget 
you requested over $900 million in air passenger and airline 
fees.
    Secretary Johnson. Yes.
    Mr. Carter. This is a 43 percent increase. I mean, this is 
significant, a significant increase.
    You requested to allow TSA to increase the Passenger 
Security Fee $1 to $6.60? I mean, that is a big jump.
    Now, what we are told is that the Screening Partnership 
Program can potentially save up to 17 percent. Why are we not 
pushing this more? I mean, if it is going to save us money and 
you are still going to have oversight over it, why aren't we 
pushing this?
    When we push it, why aren't we getting more creative? As I 
suggested to Mr. Neffenger, perhaps you offer half of that 
savings to the airport. You still are going to realize 8.5 
percent savings in your budget.
    Secretary Johnson. Well, first of all, aviation security is 
not just simply a matter of dollars and cents, as I am sure you 
appreciate. First and foremost, it is the protection of the 
American people. I want to know that whatever force we are 
providing to that mission is the best we have.
    The proposed increase is from $5.60 to $6.60. As I am sure 
you are aware, in 2013 Congress increased it from $5 to $5.60. 
We are asking for another increase. My view is that, rather 
than ask the American taxpayer in general to pay for aviation 
security, maybe we ought to ask a little more from those who 
actually use the system.
    Mr. Carter. I understand. But I certainly hope that you 
look very carefully at the Screening Partnership Program. To 
me, you know, I want to privatize as much as we can. You are 
still going to have oversight on it. If it can save us money 
and still do the job--and I appreciate your concern for safety. 
We are all concerned for that. But, at the same time, if it can 
provide the safety and be safe and effective and save money, 
that is what we ought to be going toward.
    Thank you, Mr. Secretary.
    I yield back, Mr. Chairman.
    Chairman McCaul. Thank you.
    The Chair recognizes Mr. Walker.
    Mr. Walker. Thank you, Mr. Chairman.
    Secretary Johnson, thank you again for being here today. At 
the lower table. So, appreciate your acknowledgment there.
    Secretary Johnson. I am down here with you.
    Mr. Walker. Okay. All right.
    You mentioned the term ``migration problem'' a little 
earlier in your testimony. That is where I would like to focus 
a little bit. I have a couple questions.
    The 2017 budget request proposes to cut funding for ICE 
detention and removal operations, including a reduction in 
detention beds. With reduced detention capacity, what does the 
Department intend to do if there is a surge in illegal 
migration numbers?
    Before you answer that, I want to get this second question 
because I believe probably one answer would suffice both of 
them. The second question is a little bit longer, but it has a 
little background with question No. 1.
    The budget request recognizes that administration policies 
may continue to encourage thousands of Unaccompanied Alien 
Children to attempt to cross the border, as it requests base 
funding for 75,000 UACs. According to our records, that would 
be a record number.
    This is a result of failures in removal of the UAC 
population to date. In 2014, there were a little over 1,900 
that were repatriated, and I believe in 2014, 1,882 was the 
number that were sent back. This is a small fraction when 
compared to 83,337 that ICE transferred to Department of Health 
and Human Resources' custody in the same years.
    Do you agree that the incentives established by this 
administration are helping to fuel potentially another surge? 
So can you speak to that as well as the surge in the illegal 
migration numbers from question No. 1?
    Secretary Johnson. I disagree.
    First, let me start with the detention bed issue. The 
request we have is for approximately 31,000 beds across adult 
space, family unit space. At the time we submitted the request 
last year, I think we were at about 28,000. So we don't want to 
ask you for more than we think we need. At present--and I 
haven't checked this in a while, but at present, I think we are 
at about 31,000, which is what we are asking for. There is a 
possibility of a reprogramming request if there is another 
surge.
    I disagree that our policies encourage UACs to migrate 
here. I have been very public about, if you come here and you 
are apprehended at the border, we will send you back, 
consistent with our laws. Just the other day, I put out a 
public statement about Operation Border Guardian that focuses 
on the return of those who came here as children. I said in 
that statement, this fiscal year we have sent back to Central 
America 28,000 people and we have sent back to Mexico 128,000 
people.
    My consistent message, since I have been in office almost, 
is if you come here illegally we will send you back, consistent 
with our laws and our values.
    Mr. Walker. Thank you, Secretary Johnson. That is fair. I 
hope the administration continues to augment that clear message 
there.
    For this fiscal year, the budget requests $49 million for 
countering violent extremism, including grants and efforts to 
prevent, prepare for, and respond to emergent threats from 
violent extremism and complex, coordinated terrorist attacks.
    Specifically looking at San Bernardino, can you draw a 
distinct line as far as how that $49 million would impact these 
communities in making sure they are more properly prepared for 
such attacks?
    Secretary Johnson. We are in the implementation phase now, 
but I think that the intent of Congress was that communities be 
better prepared for complex attacks of the San Bernardino type. 
So we are in the implementation phase. It is a worthwhile 
mission.
    As I mentioned to Congresswoman Torres, I also think that 
the CVE grant money is important for even earlier in the 
process, in case somebody is heading in the wrong direction, to 
encourage communities to let law enforcement know.
    So, between the 10 and the 39, I think those are two very 
good objectives. I wish we had a little more to work with.
    Mr. Walker. Thank you, Secretary.
    One last question. Do you feel like DHS, when it comes to 
examining social media, are we doing a more accurate, thorough 
job? Can you just take a few seconds to address that?
    Secretary Johnson. Yes. Under my watch as Secretary, we 
have stepped up our use of social media in connection with 
immigration benefits. We have, in addition to that, something 
like over 30 uses of social media for intelligence and law 
enforcement purposes. We have had pilot programs.
    In response to a task force report that came to me, I said 
we need to expand upon this and amplify this and make this a 
regular part of our practice. So that is what we are moving 
toward and that is what we are doing.
    Mr. Walker. Thank you, Secretary Johnson.
    I yield back, Mr. Chairman.
    Chairman McCaul. The Chair recognizes Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Secretary, for being with us 
today.
    I have a question about the countering violent extremism. 
So, in the Consolidated Appropriations Act of Fiscal Year 2016, 
the Office of Community Partnerships was appropriated $10 
million for grants to extend to outside stakeholders to further 
the CVE mission.
    It is still unclear how those grants are going to be 
administered. Can you fill us in on, if any, of the nuts and 
bolts of that?
    Secretary Johnson. My vision for that, Congresswoman, is 
that we have a grant application process where community 
organizations have the opportunity to come forward, apply for a 
grant, we scrub it carefully like we do lots of other grants, 
and the money be used for messaging in communities at the local 
level, for programs at the local level to prevent people from 
heading in the direction of violence, to give people an 
alternative way to channel their energy.
    In my numerous CVE engagements around the country, in 
places like Minneapolis, California, Texas, I have heard over 
and over again from communities, ``We need help, ourselves, in 
dealing with this issue, dealing with this problem.'' I think 
it should be a National Federal Government effort to support 
that.
    So I want to see a competitive, efficient process for 
evaluating grant applications and supporting that.
    Ms. Sanchez. Well, again, it is only $10 million, so I 
would hope it would be efficient. Who knows who will ask for 
it.
    Secretary Johnson. As I said earlier, I would like to see 
more.
    Ms. Sanchez. My biggest concern is, you know, there are 2 
types of things going on, at least in my arena back in 
California. For example, I have a very large Muslim population 
in Orange County. So what would you see--let's say somebody 
wins a grant. What kind of programs would you see would help 
that?
    That is a place that maybe people will come and get to, you 
know, because there is bigger numbers and possibilities, for 
example, if something is happening, versus something like this 
whole, you know, lone-wolf kind of radicalization coming from 
the internet thing that happened to us in San Bernardino, which 
is also just, like, 30 minutes away from me.
    Secretary Johnson. Right.
    Ms. Sanchez. So when you say nonprofits, competitive, let's 
say they get a grant, what kind of programs to steer people in 
a different direction? What would that look like, in your 
opinion?
    Secretary Johnson. Could be some form of counseling 
program. Could be some form of competition, like we are 
supporting now in colleges, for counter messages, where you 
encourage people to develop counter messages to focus on young 
people, to steer them away from the appeal of the Islamic 
State's messages.
    It could be a variety of things, so I want to encourage a 
certain level of creativity. As the Federal Government, I don't 
necessarily have all the answers, so I want to see these 
applications and see what kind of ideas we generate.
    Ms. Sanchez. Can you give me--what is the time line that 
you would see for something like that, a time line of where the 
grant applications might be out and----
    Secretary Johnson. Well, we have money this fiscal year, 
2016, so I want to see applications this fiscal year.
    Ms. Sanchez. Okay.
    Secretary Johnson. Hopefully this is a program that will 
continue in 2017 and 2018 and beyond.
    Ms. Sanchez. Thank you.
    My last question. Your Department has established an 
insider threat program designed to mitigate the threat 
resulting from employees and contractors who purposefully or 
inadvertently commit security breaches.
    Can you give me an overview of that program, how it works? 
Is that program limited to the detection of abnormalities in 
data usage? Or how are you monitoring what is going on? To the 
extent you can in public, obviously.
    Secretary Johnson. Yes. I am not sure whether you are 
referring to TSA at airport security or a broader program. I 
would have to--if you would allow me, I would like to take that 
question for the record and get back to you in a more informed 
way.
    Ms. Sanchez. That would be great, because I am sure that 
some of it might be something you might not want to air in 
public.
    Thank you.
    Secretary Johnson. Thank you.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Chairman McCaul. Thank you.
    The Chair recognizes Mr. Loudermilk.
    Mr. Loudermilk. Thank you, Mr. Chair.
    Mr. Secretary, it is a pleasure to have you here again.
    Difficult times. We are looking at a growing debt of nearly 
$20 trillion, so we know that we have to address that. We know 
that we have to cut spending in certain areas. The taxpayers 
expect that. The taxpayers expect us to do these difficult 
things. They also expect us to protect them.
    This comes down to priorities and what we are going to do 
with the limited funds. I think that is where a lot of our 
differences lie, because I know your heart is to protect the 
American people, as your job has given you that, and I believe 
that is where your heart is. That is definitely where my heart 
is, to do with what we can.
    But, yesterday, the Subcommittee on Emergency Preparedness, 
Response, and Communications had a hearing regarding the $599 
million cuts to the FEMA terrorism preparedness grants. We had 
quite an illustrious field of witnesses that were here, 
including Mr. Jim Butterworth, who is the head of Georgia 
Emergency Management Agency, and the chief of the Atlanta 
Police Department, who said that these cuts would cause 
significant damage in their ability to prepare not only against 
terrorist activities but the other threats along with those, 
from cyber threats, natural disasters, et cetera.
    Mr. Sena, who is with the Northern California Regional 
Intelligence Center, who was testifying on behalf of the 
National Fusion Center Association, when I asked him about it, 
he said that he believed that these cuts would actually cause 
them to have to shut down many of our fusion centers. That is 
of grave concern to me.
    Can you respond to what your thoughts are on that?
    Secretary Johnson. Congressman, our budget request reflects 
hard choices to fit within the caps. I will not disagree with 
you about the importance of our grant money--I have seen it 
myself--to support fusion centers, to support interoperability 
of communications, to support surveillance technology, to 
support the Atlanta police chief to pay his cops overtime, to 
support New York City, to support active-shooter training.
    Given the nature of the global terrorist threat right now, 
which must involve fusion centers, local law enforcement to 
help us detect the next terrorist attack on the country, I 
think our grant-making is important.
    I would have preferred a grant-making request for both 
State-level funding and UASI funding and the competitive grant 
programs at a higher level, but the budget request reflects 
hard choices, without a doubt.
    Mr. Loudermilk. Do you concur that this could cause fusion 
centers to actually have to close their doors?
    Secretary Johnson. I don't know whether that is true or 
not. It depends on the choices people would make with the money 
that they have. But I do concur with the importance of fusion 
centers and JTTFs in general, yes, sir.
    Mr. Loudermilk. But this would definitely have an impact on 
their operations?
    Secretary Johnson. A cut of that magnitude most likely 
would, yes, sir.
    Mr. Loudermilk. Just about 2 weeks ago, we passed on the 
House floor the ALERT Act, which, from a conversation earlier, 
I think you are aware of. It was a strong, bipartisan-supported 
bill I authored that actually removes some of the bureaucratic 
hurdles and obstacles that were in the way of coordinating more 
effectively between Federal agencies and local law enforcement 
as a force multiplier in the war on terror. Most of that was 
focused on these fusion centers. There was a strong CVE element 
as part of that, as well.
    Part of my concern is, if we shut down some of the fusion 
centers or if we take away enough of the funds to where they 
are ineffective, the impact that that is going to have on local 
law enforcement, which we are growing to a point where we see 
them as an extension of our ability to fight terror.
    With that in mind, is there anything that we can do within 
these budget caps to reduce the $599 million cut or move from 
other areas, other cost savings that we can find?
    Secretary Johnson. Well, I think that is an issue the 
appropriators are going to have to wrestle with. I do think the 
grant-making means public safety and homeland security.
    You know, separate and apart from the levels of grant-
making--and I suspect you will agree with this, Congressman--I 
would encourage you to encourage law enforcement in the State 
of Georgia to continue training, active-shooter training, that 
is multijurisdictional and multidiscipline. In a place like 
Georgia, I think that is critical. In a place like the Atlanta 
metropolitan area, I think that is critical, given the threats 
that we face.
    But these are hard choices that the appropriators are going 
to have to wrestle with, sir.
    Mr. Loudermilk. Well, I appreciate that. I hope that you 
will work closely with us. Because when we look at this 
magnitude of cuts, on top of the Department of Justice 
suspending the revenue sharing through the Asset Forfeiture 
Program, which has already had an impact in my district, with 
the Federal and local law enforcement agencies cooperating 
together, now you have put on top a $599 million cut, so I 
think this could have a drastic impact.
    But I thank you. I hope we can work together to try to find 
a resolution for this.
    Secretary Johnson. Thank you.
    Chairman McCaul. The Chair recognizes Mr. Donovan.
    Mr. Donovan. Thank you, Chairman.
    Mr. Secretary, thank you again for being with us. Being the 
most junior Member of this committee, everyone asks your 
questions before it is time for you to actually ask a question.
    Chairman McCaul. I used to say that, a while ago.
    Mr. Donovan. It is still true.
    Mr. Loudermilk was at that hearing with me yesterday, and 
one of the things that we heard--and you and I have discussed 
this--is of course you wish you had more money and of course 
you wish you didn't have to make the cuts to the UASI money, 
the grant money. But we did hear testimony from Mayor de 
Blasio, who then went to speak with you afterward, and some of 
the gentlemen on the other panel, and the Chairman's fire 
commissioner from Austin, Texas, spoke--she heads the fire 
association for the entire country--about the effects there.
    One of the things that we were hearing, and it wasn't from 
you, but hearing from the administration of why the cuts were 
appropriate, one was that FEMA's efforts--the actual quote was, 
``FEMA's successful investments in prior years made these 
appropriate.'' The other was that places like New York City was 
sitting on $600 million of unspent money, so they really didn't 
need it. The administrator for FEMA, Craig Fugate, stated that 
the capabilities built through these grants are perishable and 
they have to be maintained, so that whatever their successes 
were in the past will diminish as time goes on. They need to 
keep them fresh.
    As I am sure you are aware, the grants that were already 
allowed take time to be spent. In New York City, we certainly 
have to bid it out. We have to VENDEX vendors. We have to 
have--things like the fireboat that detects nuclear weapons in 
the harbor, it had to be designed, it had to be created, it had 
to be delivered. All of the moneys that were allocated in the 
last grant cycle, at least in New York, have already been 
obligated.
    So those answers to our questions that we got from other 
parts of the administration seem to be hollow at this point. Is 
it your opinion that these are just hard choices that had to be 
made? It seems like the spending level from fiscal year 2016 
and 2017 are almost equal, or the request is almost equal. So I 
guess there have been increases in other parts of the budget 
that are making up the difference for the amount of moneys that 
were cut in this grant program.
    Secretary Johnson. Well, the requested appropriation from 
Congress this year is lower than the 2016 money. It is 40.6 
versus 41. Plus, there are other places where we definitely are 
focused on.
    On the timing of the grant money, we had a policy in place 
that you had to spend it within 2 years. This was an issue with 
New York City, which I addressed with Mayor de Blasio and his 
emergency response people and others, a few Members of Congress 
too. But I expanded that to 3 years, it went from 2 to 3, to 
give jurisdictions more time to spend the money.
    That has meant that bleeding into fiscal year 2017, I 
believe, or maybe it is 2016, that is about $54 million total. 
So it is not a lot. So that certainly is not a justification 
for a cut of this magnitude. The reality is it is our best 
effort to make hard choices to fit within the budget caps.
    But it is the case that very often cities, metropolitan 
areas take a very long time to spend the money that we give 
them. So I would hope that, together, we can encourage your 
constituents and others can encourage their constituents, 
mayors, to spend the money fast, efficiently, and effectively 
so we don't have this problem with money basically turning into 
a pumpkin, which has happened from time to time.
    Mr. Donovan. Thank you, sir.
    Mr. Chairman, I yield back.
    Chairman McCaul. The Chair recognizes Mr. Hurd.
    Mr. Hurd. I would like to thank the Chairman and the 
Ranking Member for saving the best for last.
    Mr. Secretary, I appreciate you being here.
    You commented in your opening remarks on the desire to 
reorganize and restructure the National Protection and Programs 
Directorate, which, as we all know, leads the National effort 
to protect and enhance the resilience of our Nation's physical 
and cyber infrastructure.
    Can you expand on why you think that effort is necessary 
and give us a sense of what we can expect should this 
committee----
    Secretary Johnson. Yes.
    Mr. Hurd [continuing]. Authorize NPPD to do so?
    Secretary Johnson. I think that we need an agency, not just 
a directorate, an agency. A directorate is like an office. We 
need an agency focused on cybersecurity and infrastructure 
protection. So our vision is to reform, rebuild the NPPD, which 
is a directorate, into a cyber and infrastructure protection 
agency. Given our current threats to cyber, to critical 
infrastructure, I think we need an agency that is focused on 
this. That is one thing.
    Within NPPD, I want to see us restructure it so that the 
NCCIC, which is our--I don't know if you have ever been there; 
it is our cybersecurity center--has stripped away from it some 
of the administrative functions, like acquisition, so that they 
are focused solely on their cybersecurity operational mission.
    But, in general, I want to see this DHS component with more 
of an operational focus in an agency like TSA, like the Coast 
Guard, like CBP, ICE. Certainly, the cybersecurity mission of 
the Federal Government warrants that, I would think.
    So that is the vision. I could give you a more detailed 
briefing on this restructuring, but that is the overall vision.
    Mr. Hurd. Do we have the time to pull this off? You know, 
because my fear is, if we don't do this sooner rather than 
later, that we are not going to--you know, all the experience 
and lessons learned that you and your team have gained may be 
lost in the next transition of Government. Do you think we have 
the time?
    Secretary Johnson. Well, I think that is an issue with our 
cyber talent and cyber experience generally. Below the 
political appointee level, we have some really talented, 
terrific people that I hope would stay in Government. As you 
know, recruiting good cyber talent is an issue.
    But this is a reorganization that does require 
Congressional authorization, and I hope Congress would respond. 
I think there is definitely a demand and a need for this 
Nation's cybersecurity mission that we have that agency.
    Mr. Hurd. Great.
    We have been talking about tough budget decisions. One I 
want to talk about and just get your perspective on, the 
National Center for Zoonotic and Animal Disease Defense. This 
is dealing with Zika.
    You know, if there were additional funds, is this something 
that you would think is important to continue if we didn't have 
to make that difficult budget decision?
    Secretary Johnson. Well, we are learning more about Zika 
every day. Within DHS, we are focused on making sure our 
Customs personnel know how to detect this disease at a port of 
entry. We are focused on the possibility of the Zika virus in 
immigration detention. We are focused on protecting our own 
workforce.
    There is always the possibility with an unanticipated event 
for a reprogramming request. We have broken ground on our NBAF 
in Kansas, and that is, as far as I know, on schedule. That 
will be a good thing when it is completed.
    Mr. Hurd. Good copy. Thank you, sir.
    I yield back my time.
    Chairman McCaul. The Chair recognizes Mr. Ratcliffe.
    Mr. Ratcliffe. Thank you, Mr. Chairman.
    Mr. Secretary, I appreciate your being here with us today. 
I had unfortunately another hearing, and I had to step out. I 
caught the tail end of the Chairman asking you at the beginning 
of the hearing about Operation Phalanx. I wanted to follow up 
in that regard.
    Let me just ask you: I saw where you had a 50 percent 
reduction in the persistent aerial detection in this request 
versus your most recent prior request. Can you tell me why?
    Secretary Johnson. There was a 50 percent reduction in the 
level of support that DOD is providing in overall flight hours. 
Since we started that program with DOD support, DHS capability 
in this area has dramatically increased so that flight hours, 
Border Patrol capabilities have increased thanks to the support 
of this Congress dramatically the last 5, 10 years. So we are 
in a position to accept less from DOD because they needed their 
assets back, that has represented a reduction of about 5 
percent overall in flight hours, but longer term, in the last 
couple of years, we have dramatically added to that capability 
ourselves.
    Mr. Ratcliffe. Okay. I was familiar with that. I knew that 
it resulted in a reduction. I was familiar with your testimony 
before the House Appropriations Committee in that regard. The 
reason I wanted to follow up with you is I know that my 
Governor, Governor Abbott and one of my colleagues on the 
Democratic side, wrote you a letter back in February expressing 
concern over this issue about, given the fact that our Southern 
Border is not secure, why would we be doing less and not more? 
I know you talked in the beginning about making hard choices, 
but would you agree with me that the aerial surveillance on our 
Southern Border is an area where we should be----
    Secretary Johnson. In general, I think we need more of an 
investment in technology for surveillance. When I ask Border 
Patrol Agents, ``What do you need?'', they are always telling 
me about mobile surveillance, aerial surveillance, and the 
like. So, in general, I think we need investments in that 
technology, and I think this request reflects that.
    Mr. Ratcliffe. Can you just tell me, have you responded to 
the Governor and Congressman Cuellar?
    Secretary Johnson. I think I did.
    Mr. Ratcliffe. There was a request for some explanation 
about metrics and I----
    Secretary Johnson. I think I did. I try to respond to every 
letter within 10 days or so. I think I did. When is that letter 
dated?
    Mr. Ratcliffe. February 1.
    Secretary Johnson. I hope I did.
    Mr. Ratcliffe. Okay. Would you mind looking into that for 
me?
    Secretary Johnson. Yes, okay. Certainly Henry and I talked 
about the issue too.
    Mr. Ratcliffe. Again, I think that expresses that this is a 
bipartisan concern here. I am not making this a partisan issue. 
So I appreciate if you would follow up in that regard.
    Let me turn to a conversation that I had with Director 
Rodriguez earlier in a hearing, Director Rodriguez over at U.S. 
Citizenship and Immigration Services, about the Syrian refugee 
issue. In that exchange that I had with him, the topic related 
to the issue of social media as part of the vetting process, 
and he related that social media vetting was only done in cases 
where a red flag had been raised. My concern there is I think 
that social media vetting should be part of the base level of 
scrutiny with regard to vetting of refugees as opposed to a 
secondary level of scrutiny only when a red flag is raised, and 
I wanted your perspective on that.
    Secretary Johnson. Social media right now is done manually 
by an examiner, by a CIS officer. That is a time-consuming 
process. We do right now have a protocol for the use of social 
media. You used the phrase ``red flags'' if there are certain 
indicators, but that does not preclude the possibility that an 
officer in the first instance could consult social media, and I 
would not discourage that.
    Mr. Ratcliffe. Okay.
    Secretary Johnson. But it is something that--the use of 
social media generally is something we are expanding upon in my 
2 years as Secretary.
    Mr. Ratcliffe. I know you can appreciate the point because 
you have testified about this is the expression from groups 
like ISIS that they intend to use the program to cause harm to 
Americans and to America through that, and social media being a 
treasure trove of information in some cases with regard to some 
of these individuals. I would really like to see it as part of 
our base-level scrutiny, especially when you have folks coming 
from countries where we would suspect those individuals----
    Secretary Johnson. It is also true that the more and more 
we focus on this publicly, the more they are going to take 
their communications off-line.
    Mr. Ratcliffe. Well, my time has expired. I look forward to 
continuing this conversation with you at a later date. Again, I 
thank you for your service and for being here today.
    Secretary Johnson. Thank you.
    Mr. Ratcliffe. I yield back.
    Chairman McCaul. The Chair recognizes Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    Thank you, Secretary Johnson. I know some others talked 
about manning at the ports of entry. I want to follow up on 
that, both manning at the ports and then also in between the 
ports and Border Patrol. At our ports of entry, we are seeing a 
constant decline in the manning of--we were on the verge. We 
literally had to kind-of meet together with the business 
community and the local port director a few weeks ago. They 
were thinking about shutting down service on Saturdays at 
Douglas, and they are just seeing this bleeding in their 
manning, and it is impacting wait times. It is impacting 
potentially, obviously security. It is impacting economic 
opportunity, people coming over to shop, just giving up. We are 
hearing anecdotes about individuals going through the process 
to be hired, it taking 18 months, the vetting process, which we 
all agree we want to make sure our people are vetted, some of 
our constituents have been very concerned about their 
experience in that. My first bill passed into law was the 
Border Jobs Veterans Act, trying to fast-track our veterans, 
many of whom have already been through security clearances and 
background checks, to fill these positions. So can you just 
speak a little bit more about what you are doing? I mean, 
insanity is doing the same thing over and over again expecting 
a different result. This backlog is something that is going on 
now. We increased the authorization of the ports of entry by 
2,000 a couple of years ago. You are still under that and I 
think asking for another 2,000 more. But if we can't fill the 
positions, then we still have a problem.
    So what are we doing about that specifically? If a veteran 
is taking advantage of the Border Jobs for Veterans Act how are 
you implementing that? If somebody has had background check and 
has had a clearance in the military, please don't tell me you 
are going through the same process of going through all the 
polygraphing if they have already had a background check.
    Secretary Johnson. Congresswoman, as I am sure you know 
this is something the Commissioner is focused on. I have heard 
enough about this and I have heard enough concern about this 
that it has now become a priority of mine. Within CBP, the 
Commissioner has put in place a separate command for hiring and 
recruitment to expedite this process. At the DHS headquarters 
level, we have reformed our acquisition--our HR process to 
institute policies to make this more expedited. It should not 
take 18 months, because in that 18 months, my guess is somebody 
will get another job.
    Ms. McSally. Get another job, exactly.
    Secretary Johnson. We have instituted the creation of 
Hiring Hubs to expedite the process. I agree with your point if 
somebody is a military veteran and they have gone through the 
process of getting there, which probably includes a security 
clearance, there ought to be some way we abbreviate this 
process.
    So I am acutely aware of the shortages in personnel at 
ports of entry and on the border. So, before I leave office 
this year, I want to fix this problem.
    Ms. McSally. Thank you. This also impacted--I mean, we have 
had a Congressionally-mandated floor of 21,370 Border Patrol 
Agents. At the end of last year, you guys were 1,208 below 
that. This budget request you are asking for a 300-position 
cut.
    I mean, border security you said earlier is a high 
priority. Is that because you just can't fill these positions 
so you don't want to have positions authorized? Why?
    Secretary Johnson. We are seeking 300 fewer less because we 
think that the money should be invested in technology. But we 
are also determined to hire to whatever level Congress 
authorizes us. So we still need more work to hire to the 
requested level of, I think, 21,000 or 20,070 as I recall.
    Ms. McSally. Thanks. Just shifting gears, I am now the 
Subcommittee on Border and Maritime Security Chair. We had our 
first hearing last week. One of the challenges and frustrations 
that we have is how we measure border security. In the old 
days, it used to be operational control. The last time we used 
that, it was at about 44 percent. Then we shifted to number of 
apprehensions, which you don't know whether that is good or bad 
if apprehensions have gone up or down, especially if you don't 
know what the denominator is. You are currently reporting your 
effectiveness, which is based on apprehensions over the number 
of people that you caught plus got away that you knew about. 
But we still don't know the ones that we don't know about. 
Clearly, the price of drugs on the streets would tell you there 
is probably a lot we don't know about. When I finally asked the 
acting chief, ``What percentage of the border do you think you 
have situational awareness of?'', he said 56 percent. So can 
you work using better measures of effectiveness and measures of 
reporting to us and the American people?
    We don't need to be hyperbolizing. We don't need to be 
over- or under-addressing this. It needs to be based on facts. 
But I look at it as a fighter pilot: We need to know 
situational awareness. We need to know operational control, 
like, of what we can see, what can we intercept, and then how 
much can we just not see? These seemed like--I mean, it is not 
that complex, but will you work with us on coming up with 
better measurements to build transparency.
    Secretary Johnson. Yes. I agree. Within DHS, we have an 
initiative called Border Stat, where we are working with a 
Federally-funded research center to develop more concrete 
metrics to measure a border security. I agree with you.
    Ms. McSally. Great. Thank you. My time has expired. Thank 
you, Mr. Secretary.
    Chairman McCaul. The Chair recognizes Mr. Clawson.
    Mr. Clawson. Following up on the Congresswoman's comments, 
in my office, we have been going back a year, a year-and-a-
half, asking for some data on this border. Staff has been told 
by your people that they would give it, and we never see it at 
any level. You referred me to outside studies, so on and so 
forth. But any kind of summary data on how you are doing and 
what the return on investment for the American taxpayer would 
be wonderful. With your background, I know you know what that 
means, but the next set of summary data on performance from 
your group will be the first that I have seen. I just want to 
let you know. I wasn't even going to bring that up today. I 
just kind of gave up after asking so many times. If you went 
back and looked at the clips, we would just like to see some 
border data on how you are doing with all the people, 
particularly since you asked for more money on capital 
expenditures. We get requests for capital expenditures and no 
operational data on how you are doing. We could probably ask 
until you are gone, and we still won't see it. So if you will 
send us data--we don't have anything to criticize, because we 
don't get to see anything. We would just like to see it, just 
some data, please, for the American taxpayer.
    In my district, after 9/11, we were told by TSA to spend 
money on EDS inline inspection equipment, as you all know 
about. So we did that. We did that with the promise from TSA 
that we would be repaid. I know you know about this, Mr. 
Johnson, Honorable Mr. Johnson. So, to my knowledge, 20 
airports around the country are owed $400 million. In my 
district, it is $40 million just for the Fort Myers airport in 
south Florida. We would like to get our money back. You all are 
killing us. You are killing us. You told us--we got it in 
writing. You told us to get the equipment for safety after 9/
11. We bought the equipment. TSA told us they would reimburse 
us, and we never got our money. There are always requests for 
committee hearings and everything else. You all are killing us. 
I mean, don't double-cross people. This is $40 million that we 
paid locally with the promise in writing explicit from TSA that 
it would be paid back. We would like our money back. We would 
really like our money back. We see Honorable Mr. Johnson that 
you all asked for almost $200 million for transportation 
screening technology for your current budget. I am saying: My 
God, you owe me my money, and you are spending new money 
without paying people for what you told them you were going to 
pay them. So we want to be polite, and we want to be 
respectable, but how long does it take to get our money back? 
So if you could let us know, we just want the money you all 
told us you would give us when we bought the equipment.
    Secretary Johnson. I just asked my CFO.
    Mr. Clawson. If I am missing something, you all tell me.
    Secretary Johnson. I just asked my CFO: What is the story? 
We need to get you a better-informed answer. I think you 
deserve an answer to your question, sir.
    Mr. Clawson. Yeah, I mean, we always say that the role of 
Government and this administration likes to say that the role 
of Government, this, that, and the other; it is not to double-
cross folks at the local level. So we would really--I don't 
want to make a problem out of this, but every time I fly home, 
I go through that airport, and the guys are saying: Where is 
our $40 million, Mr. Congressman? We want our $40 million. It 
was local money that was supposed to--you know, we don't want 
to be you all's infinite credit bank. Time costs money after 
over 10 years, you get what I am saying.
    Secretary Johnson. What year was this investment made?
    Mr. Clawson. Well, it was mandated or a directive right 
after 9/11. So you are going back over 10 years now. So if my 
folks in my district are getting a little prickly on the issue, 
I think we have a right to do so. So you all give us our money 
back. We don't want another letter saying that this has to be--
the last letter we got from you all said: This has to compete 
with new investment.
    Why does my CAPEX from 10 years ago have to compete with 
new investment when you all told me you were going to pay me 
back? If I did that in the corporate world, everybody would 
kick me out as Chairman; I wouldn't last one board meeting. You 
all are double-crossing suppliers here. We want our money back.
    Secretary Johnson. I will get with TSA, and I will get you 
an answer. I would like to know the answer too.
    Mr. Clawson. Please do it. Look, we don't want a problem. 
We just want our money like you all told us you would give it 
to us. You all are the Federal Government. We believed you. 
People in my airport have been there forever; they believed 
you. We want to believe in the Government to get stuff done. 
Just help us out a little bit here. It is $40 million for my 
airport. That is not chump change to me, you all.
    Final thing I wanted to say is that the lines are getting 
bigger, as you all know. That is good news in Florida because 
it means we have more tourists. So to your previous 
conversation, our lifeblood is tourism, so anything you all do 
to shorten the lines, extend the pre-hours, and that sort of 
thing operationally so that our businesses can hire more people 
and do more business, we really appreciate that. I am glad it 
came up today, and I appreciate you looking into it.
    Secretary Johnson. I have family who flies through that 
airport, so I hear about this from them too.
    Mr. Clawson. It is a good--it is a great airport. It is a 
well-managed airport. We are just waiting on that bottleneck in 
TSA. That is my bottleneck. The airport runs well, and we like 
the inspectors that are there. We just need more. Thanks, 
thanks for taking a look at my question.
    Secretary Johnson. Thank you.
    Chairman McCaul. Mr. Secretary, let me just say thank you 
for being here today. Thank you for your service also in a very 
challenging and high-threat environment.
    Pursuant to the rules, the hearing record will be open for 
10 days.
    Without objection, the committee stands adjourned.
    [Whereupon, at 12:25 p.m., the committee was adjourned.]



                            A P P E N D I X

                              ----------                              

   Questions From Chairman Michael T. McCaul for Hon. Jeh C. Johnson
    Question 1. One of the stated goals of the Department's Joint 
Requirements Council is to support a more operationally-efficient 
organization through the creation of a component-driven joint 
requirements process.
    How will DHS ensure that its components are committed to investing 
in joint requirements to the greatest extent possible?
    Answer. The Department of Homeland Security (DHS) has recently 
promulgated 2 directives, DHS Joint Requirements Council (JRC) 
Directive (DHS Directive 071-02) and the Joint Requirements Integration 
and Management System (JRIMS) Directive (DHS Directive 107-01), which 
codify the JRC and the process by which the Department, through the 
JRC, reviews and validates capability requirements, associated gaps and 
needs, and proposed solution approaches to mitigate those gaps. In 
addition to these directives the JRC and the Office of Program 
Accountability and Risk Management have been working closely to ensure 
the new requirements process and the existing acquisition oversight 
process are complementary. Further, the requirements process has been 
integrated into the Department's Planning, Programming, Budgeting, and 
Execution (PPBE). As a result, the JRC and the requirements process are 
now integrated in the enterprise's main investment pillars.
    Question 2a. Since the Department's current acquisition management 
policy went into place in November 2008, GAO has found that several 
major acquisition programs lack required documentation such as 
acquisition program baselines, which contain critical cost estimates.
    What is the Department doing to ensure that all major acquisition 
programs complete this documentation in compliance with DHS policy?
    Question 2b. How has the Department managed these programs without 
such critical program information?
    Answer. As the Government Accountability Office (GAO) recently 
testified the Department of Homeland Security has made significant 
progress in overseeing the Department's acquisition portfolio. The GAO 
attributed that progress to Departmental leadership's commitment to 
improve all aspects of acquisition through the Secretary's Unity of 
Effort initiative. One of these major improvements has been the 
completion of acquisition documentation by the Department's programs. 
In 2015, then-acting deputy under secretary for management directed the 
Office of Program Accountability and Risk Management (PARM), the 
Component Acquisition Executives (CAE), and Department's program 
managers to have complete sets of acquisition documentation for the 
current phase each the program in accordance with Management Directive 
102-01. The programs complied with this direction, and as of December 
31, 2015, all active major acquisition programs had the complete set of 
acquisition documentation.
    Many of the Department's programs were initiated prior to the 
Department's acquisition policies being established in 2008. At the 
beginning of Management Directive 102-01's implementation, only those 
acquisition documents for the next Acquisition Decision Event were 
required. Programs were not expected to return to complete acquisition 
documentation for earlier phases. The Department has since taken a 
different view based on recommendations of the GAO, and as stated 
above, in accordance with Management Directive 102-01, all programs 
have completed the required acquisition documentation.
    Question 3. What is the status of the Department's efforts to track 
operations and maintenance costs for its acquisition programs?
    Answer. The Government Accountability Office recommended in its 
audit ``DHS Should Better Define Oversight Roles and Improve Program 
Reporting to Congress,'' (GAO 15-292) dated March 2015, that the 
Department produce operations and maintenance cost estimates for 
programs in sustainment and establish responsibility for tracking 
sustainment programs' adherence to those estimates. In response, the 
then-acting deputy under secretary for management, directed component 
heads to annually update operations and maintenance cost estimates and 
affirm the life span for each major acquisition program in sustainment. 
The chief financial officer (CFO), as part of the Department's 
Planning, Programming, Budgeting, and Execution (PPBE) process, was 
directed to assess the alignment of the estimates with spending 
patterns for current services. These actions were completed and funding 
levels are addressed in the Department's annual Future Years Homeland 
Security Program.
    Question 4a. GAO has found that many of DHS's major acquisition 
programs have experienced cost growth from their Department-approved 
cost estimates.
    What steps is DHS taking to ensure that programs have accurate, 
reliable, and timely cost estimates?
    Question 4b. What is the Department doing to control costs within 
individual programs and across its acquisition portfolio?
    Answer. The Department has taken a very active role in overseeing 
our major acquisition programs. Since the beginning of October 2014, we 
have conducted 40 action-oriented Acquisition Review Boards of major 
acquisition programs and have updated the Department's acquisition 
policies to incorporate best practices, recommendations from GAO and 
the DHS Inspector General, as well as new laws. We have enhanced cost 
estimation by realigning the cost estimation function from the Office 
of Program Accountability and Risk Management to a newly-established 
Cost Analysis Division (CAD) within the Office of the Chief Financial 
Officer (OCFO). As a result, there is a renewed emphasis in not only 
supporting the Acquisition Process but also to provide a closer link of 
cost estimates to the annual Program and Budget Review process in order 
to assess the affordability of our major acquisition programs. As of 
January 14, 2016, the Department has successfully closed the 
Acquisition Documentation gap. All major acquisition programs between 
Acquisition Decision Event (ADE) 2A and 3 have a CFO-approved Life 
Cycle Cost Estimate (LCCE), which will be updated annually by Component 
Program Management Offices. These updates will identify costs incurred 
to date and provide estimates to complete the remaining program as 
planned. With this information, the Department will have better insight 
into potential forecasted cost growth and the ability to intervene 
before costs are realized. In addition to the maintenance of cost 
estimates, the OCFO CAD has established a capability to develop 
independent cost estimates and assessments. This analysis provides DHS 
leadership with an unbiased assessment of a program's estimated cost 
and where inherent risks may exist within the program's LCCE.
    In addition to the progress the Department has made in overseeing 
our acquisition programs, the Department's Unity of Effort initiative 
is making important steps in improving our integration. We established 
the Joint Requirements Council (JRC) to provide oversight of the 
Department's requirements development processes. The goal of the JRC is 
to enhance operational effectiveness and inform the Department's main 
investment decisions during resource allocation and the acquisition 
review process.
    Question 5. DHS's major acquisition programs often take several 
years to complete, but the threats facing the homeland are constantly 
changing.
    What steps should DHS leadership take to help its major acquisition 
programs keep pace with these dynamic threats, particularly in the 
areas of aviation, border, and cybersecurity?
    Answer. DHS has undertaken a number of efforts under the 
Department's Unity of Effort initiative to establish new processes and 
strengthen business management to be more adaptable in responding to 
evolving homeland security threats. First, the new DHS Joint 
Requirements Council, and corresponding DHS requirements process, 
provides a structured way for the Department to develop and assess 
capability operational requirements needed to support DHS homeland 
security operations. The Department strongly believes that conducting 
rigorous, repeatable, up-front analysis of operational needs better 
ensures: Acquisition programs are aligned with strategic and policy 
priorities; potential solutions are technologically feasible and 
fiscally informed; and acquisition programs will meet cost-schedule-
performance goals.
    Second, to reinforce the new DHS requirements effort, the DHS 
Science and Technology Directorate has established a new research and 
development prioritization process that uses input from the 
requirements process as supplemented by other emergent DHS component 
capability needs to ensure DHS research and development investment is 
closely tied to approved emerging operational needs. In addition, this 
effort will also provide Department decision makers with greater 
awareness of existing, mature technology and potentially less mature, 
but promising technology, as part of the requirements, resource 
allocation, and acquisition oversight processes.
    Finally, under the leadership of DHS management, significant 
strides have been made in greatly improving the oversight of DHS 
acquisition programs. These efforts have been lauded by OMB, which has 
recently recognized DHS as a standard bearer for its efforts to reduce 
acquisition program risk. In addition to ensuring the administrative 
records of all major acquisitions records are in order, that 
acquisition programs have traceable requirements documentation, and 
that programs in breach are either paused or canceled, the DHS 
Acquisition Executive has energized the Department's Acquisition Review 
Board to actively engage and hold accountable the Department's 
component acquisition executives for the health of the acquisition 
programs under their oversight.
    Question 6a. Last year, you outlined the creation of 3 new border 
security task forces. Two of them are geographically focused on the 
Southern Border and 1, based on investigations, ostensibly supports the 
other 2.
    Can you explain, in detail, how the Joint Task Forces have 
increased the ability of the Department to secure the border?
    Answer. The DHS Joint Task Forces (JTFs) have enhanced our ability 
to secure the border by establishing cross-component, unified 
operations with enhanced coordination across air, land, and maritime 
domains to address illicit flows and networks in designated joint 
operating areas. Specifically, the JTFs have improved the effectiveness 
of DHS border security operations by ensuring better coordination among 
the patrol, inspection, investigative, and regulatory elements of the 
Department at the operational and strategic level through coordinated 
joint operational activities such as JTF-W's OPERATION ALL-IN, JTF-E's 
JATT PARDESI, and JTF-I's HOMECORT investigations. These coordinated 
joint activities derive from JTF-established operational priorities 
approved by the Secretary with direct linkage to Department objectives 
and lines of effort established in the Campaign Plan. The geographic 
JTFs' ability to look across the various component activities to 
anticipate, identify, and fully describe challenges in their joint 
operating areas significantly enhances DHS's border security operating 
structure.
    Question 6b. Do you have metrics in place to help Congress 
determine whether or not this new organizational structure has merit?
    Answer. DHS has several measurement efforts under way related to 
our border security mission. In the short run, we are tracking output 
measures on the role of the JTFs. These measures include the fiscal 
year 2016-2017 Agency Priority Goal to decrease the ability of 
transnational criminal organizations to operate (CBP/ICE/USCG). 
Specifically, actions by the DHS Joint Task Forces via synchronized 
component operations are projected to result in the disruption and/or 
dismantlement of 15% of targeted transnational criminal organizations 
by September 30, 2017.
    In the long run, the most relevant way to assess the impact of the 
JTFs is to focus on border enforcement outcomes--including the 
estimated number of illegal inflows across the Southwest Border. As the 
committee knows, DHS has been working for years, with support from 
Congress, to develop more refined measures both of border enforcement 
outputs (i.e., the degree to which border enforcement makes it more 
difficult for migrants to cross the border illegally and deters illicit 
behavior) and outcomes (i.e., the number of migrants that attempt and/
or succeed in crossing the border illegally). The most mature of these 
metrics, in use since 2014, is the Interdiction Effectiveness Rate 
(IER). The IER is an observation-based estimate of the share of illegal 
border crossers detected by the U.S. Border Patrol that is either 
apprehended or compelled to retreat to Mexico. Thus, IER is calculated 
as the ratio of apprehensions and detected turnbacks to all detected 
activity (apprehensions, detected turnbacks, and detected got-aways). 
The IER measure provides insight into enforcement outputs, and CBP uses 
IER data to inform operational decisions across the Border Patrol 
sectors. Congress and the Department may also consider changes in the 
IER as one way to evaluate the impact of the JTFs.
    Beginning in 2015, DHS also initiated a comprehensive border 
security metrics effort with the goal of establishing a scientifically 
defensible approach, using available data, to develop additional 
outcome-focused estimates of illegal border crossing activity. This 
effort, which DHS calls BorderStat, includes several metrics that are 
similar to Congressional proposals such as the Border Security Results 
Act (H.R. 1417).
    The primary focus of the BorderStat analysis to date has been to 
develop an estimate of the total number of unauthorized immigrants 
successfully crossing into the United States between ports of entry 
along the Southwest Border. Future BorderStat research is expected to 
also focus on enforcement outcomes at ports of entry and in the 
maritime environment. DHS also has begun a related effort to use 
BorderStat data to examine the impact of specific enforcement 
strategies on illegal migration flows. The Department continues to 
refine the BorderStat methodology. When sufficiently mature, validated, 
and finalized, the BorderStat estimates will be a direct tool that 
Congress and the Department can use to track and evaluate border 
security and the impact of DHS enforcement programs, such as the JTFs. 
While the JTF structure is intended to improve DHS border security 
outcomes, they are one of many factors, both within DHS's control and 
external to the Department, that contribute to the level of border 
security.
    Question 7. The fiscal year 2017 budget requests $67 million in 
funds to purchase new CBP vehicle fleet assets. Given the problems that 
we have recently seen with vehicle fleet purchases--namely the gross 
mismanagement of the FPS vehicle fleet--how is the Department ensuring 
that CBP is purchasing the correct type and amount of vehicles to 
accommodate their needs?
    Answer. In fiscal year 2011, the Department of Homeland Security 
(DHS) established a fleet scorecard metric for incorporation into the 
DHS Chief Readiness Support Officer's (OCRSO) Component Scorecard. This 
metric is designed to evaluate component progress towards required 
fleet right-sizing efforts which require a 10 percent component fleet 
reduction by fiscal year 2019. Performance is measured on the 
percentage of reduction to a component's fleet size against their 
fiscal year 2011 baseline. The right-sizing cumulative target is 
derived from the DHS Fiscal Year 2011 Vehicle Allocation Methodology 
Study outcomes (formally finalized in early 2012) and uses the fiscal 
year 2011 Component Fleet Inventory as the baseline for its 
measurement. Further, the reduction targets were designed to be 
achieved through phased implementation. The phased implementation 
strategy was established and approved by former Deputy Secretary Lute 
to ensure operations were not negatively impacted as progress was 
achieved and to allow for vehicles to reach the end of their life 
cycles prior to disposal. DHS monitors component progress towards these 
targets on a quarterly basis and rates performance accordingly. To 
date, CBP has reduced fleet size by over 7 percent, exceeding the 
fiscal year 2017 target.
    As evidenced in the quarterly scorecard outcomes, from fiscal year 
2011 through fiscal year 2015, CBP has reduced its operating motor 
vehicle fleet by 2,069 vehicles. In addition, CBP plans to reduce its 
vehicle fleet, at a minimum, an additional 1,109 vehicles by the close 
of fiscal year 2016. These reductions are incorporated into CBP's fleet 
replacement forecasts and planning. The reductions achieved to date 
result in a cost avoidance of approximately $74.5 million, since 
funding for the replacement of these retired assets will no longer be 
required. The referenced requested funding replaces only those assets 
remaining in the CBP motor vehicle fleet that have reached the end of 
their service time and are not targeted for reduction.
    In addition to fleet right-sizing, CBP improved the vehicle 
requirements development process to include an on-line module that 
directs operators to provide more detail related to expected vehicle 
mission activities. The information obtained through this tool is used 
to serve 3 primary functions. First, the on-line requirements gathering 
tool serves as an archive for electronic documentation as related to 
this process. Second, the on-line tool provides a formal approval 
workflow to ensure proper controls and authorities are exercised in the 
review of any submitted acquisition requirements. Third, the on-line 
tool ensures that submissions are focused on the intended mission-
related use of a vehicle. Rather than offering the submitting party the 
option to select a make and model, the tool forces submitting parties 
to provide a series of mission requirements (number of passengers, 
canine capable, off-road capable, etc.). These attributes are then used 
to determine the most cost-effective vehicle acquisition solution to 
meet mission needs. The approved available vehicle solution options are 
held in a catalog of standardized platforms and packages. The catalog 
is reviewed annually to determine if further cost-saving opportunities 
can be identified and/or to make alterations in accordance with 
evolving mission requirements. These capabilities ensure headquarters 
oversight, approval, and program controls are institutional and 
effective.
    The fiscal year 2017 budget request of $67 million will be used to 
purchase approximately 1,673 replacement CBP vehicles. The acquisitions 
are intended to address a portion of the 9,841 vehicles that have met 
or will meet CBP replacement criteria through fiscal year 2017. The 
purchase of vehicles for CBP ensures personnel have the appropriate 
vehicle assets necessary to support on-going mission operations. Aging 
vehicles experience increased maintenance, repair, and operating costs 
while also realizing increased down time (time out of mission service 
for maintenance). Furthermore, agent/officer safety concerns may arise 
as vehicles become older and less reliable. Reductions in vehicle 
performance and/or reliability may result in stranding agents in remote 
and/or hostile locations while awaiting assistance. Awaiting vehicle 
assistance may leave them vulnerable to severe weather and/or violent 
action by criminal actors along the border.
    Additionally, in fiscal year 2016, DHS is strengthening management, 
oversight, and visibility into vehicle acquisitions across the 
Department through updated fleet policy, improved data capture, 
acquisition plan reviews, and formal fleet management/assessment review 
cycles. CBP is participating in these efforts to ensure fleet 
management receives the appropriate attention and scrutiny commensurate 
with the investment. As part of this effort, CBP has evaluated their 
current agency fleet management practices, metrics, accomplishments, 
and on-going evolutionary steps towards furthering enhanced fleet 
management capabilities.
    Question 8a. DHS is in the process of developing a Classified 
screening system that allows them to better utilize the law enforcement 
data DHS component agencies collect to more effectively identify 
travelers and cargo of concern.
    Knowing that the specific budget details are Classified, what is 
the status of the DHS Data Framework initiative and when do you expect 
it to be complete?
    How will the data enhancement improve foreign fighter 
identification?
    Will the enhanced screening efforts be duplicative of NCTC or other 
intelligence community efforts?
    Answer. DHS is developing a system that will allow DHS components 
to identify where a person or entity has been previously encountered by 
another DHS entity and enable DHS to share information with other U.S. 
Government entities while appropriately safeguarding and controlling 
the data, while ensuring the protection of privacy, civil rights, and 
civil liberties. This system will operate at Unclassified and 
Classified levels. The first phase is for screening and vetting of 
people.
    Question 8b. Knowing that the specific budget details are 
Classified, what is the status of the DHS Data Framework initiative and 
when do you expect it to be complete?
    Answer. Among the hundreds of data sets that exist across multiple 
systems, DHS is first focusing on 20 data sets identified to be a 
priority for people-screening and vetting functions. The Data Framework 
initially planned to ingest the 20 data sets by the end of fiscal year 
2020, however, the time line was accelerated with a goal of getting the 
top 20 datasets across the Department that encompass travel and 
benefits into the Framework as quickly as possible and in a manner that 
assures access to comprehensive, quality data. Additional data sets are 
being prioritized for ingest into Data Framework in and future years. 
The Data Framework will continue to ingest DHS data sets as they are 
created and will make them credible--using dynamic policy-based access 
controls and privacy protections--to mission users in both the 
Classified and Unclassified environments. DHS will build protections 
into the system that will allow for the identification and protection, 
as appropriate, of sensitive data in the use and sharing of data, both 
within, and outside of DHS. Currently, 7 of the 20 data sets are 
available on the Top Secret/Sensitive Compartmented Information (TS/
SCI) network.
    Question 8c. How will the data enhancement improve foreign fighter 
identification?
    Answer. Currently, our border control and aviation security 
measures are enhanced by our ability to compare travel, immigration, 
and other information against disseminated and non-disseminated 
intelligence community (IC) information. DHS, through the Data 
Framework, is working to bring together DHS data--information that DHS 
gathers during its interactions with the public in the course of 
executing its homeland security responsibilities (e.g., benefits 
issuance, travel-related screening)--in both the Unclassified and 
Classified environments, while at the same time protecting the privacy 
and civil liberties of the public. The transfer and storage of DHS 
travel and immigration data on the Classified network via the Data 
Framework creates a screening and vetting capability that was not 
previously automated for the Department.
    Having DHS data on the TS/SCI network gives users the ability to 
conduct additional research and determine if applicants have 
connections to known or suspected terrorists via IC reporting. It can 
lead to the discovery of previously-unknown links to suspicious 
activity or individuals in illicit networks and enables analysts to 
proactively identify individuals associated with a threat who merit 
additional screening, investigation, or other operational actions.
    Question 8d. Will the enhanced screening efforts be duplicative of 
NCTC or other intelligence community efforts?
    Answer. The enhanced screening efforts are complementary. DHS 
routinely collaborates with NCTC and other IC agencies to ensure 
screening efforts are not duplicative and each agency's unique data 
accesses are exploited to minimize vulnerabilities. In the conduct of 
its law enforcement, immigration, border, and transportation security 
missions, DHS collects an enormous amount of data related to the 
facilitation of travel and trade. This data includes but is not limited 
to information on international and domestic air passenger manifests, 
visa application data, border crossing data, investigative data, and 
international imports and exports data. Unique DHS authorities allow 
for the analysis and sharing of this data, consistent with the purposes 
for which it was collected. The comparison of this data with other IC 
or U.S. Government data can lead to previously-unknown insights.
    Question 9a. The budget lists development and deployment of 
Advanced Imaging Technology (AIT)--Tier III detection capabilities as a 
priority of TSA's for the upcoming fiscal year to better identify non-
metallic threats to the aviation system; however, the committee has 
learned that TSA has yet to even fully proliferate Tier II capabilities 
across the system.
    Is the budget overly optimistic for Tier III development?
    Answer. The Transportation Security Administration (TSA) has fully 
deployed Advanced Imaging Technology (AIT) Tier II capability. AIT-2s 
came enabled with Tier II, and TSA deployed the Tier II algorithm to 
the original AITs in 2014. The budget is correct in its description of 
Tier III development. On September 16, 2015, the TSA awarded a contract 
to L-3 Communications valued at $2,571,000 for the development of a 
Tier III detection algorithm. Under this contract, L-3 Communications 
will deliver the final version of the software for testing in early 
September 2016; they will provide 2 interim deliveries for TSA 
assessment of progress. Upon completion of Government testing and test 
report, TSA will make a decision regarding deployment of the AIT Tier 
III algorithm.
    Question 9b. Why has the advancement of AIT technology been so 
slow?
    Answer. AIT development is currently sole-sourced to one Original 
Equipment Manufacturer. TSA does not own AIT hardware and software data 
rights, and is solely dependent on the Original Equipment Manufacturer 
for the advancement of the technology. In addition, upgrades to AIT 
require successful completion of a rigorous testing and qualification 
process, which can take several rounds due to issues that result in 
schedule slips. TSA's Innovation Task Force is working with industry to 
establish innovation lanes that will further mature technology, write 
better requirements, and allow quicker procurement and deployment of 
emerging technologies. In parallel, TSA is also taking steps to 
establish a more open future system architecture that would allow for 
third-party vendor participation in AIT development.
    Question 9c. Will TSA shift its focus from AIT procurement to other 
methods of detecting nonmetallic explosives, such as canines and 
Explosive Trace Detection?
    Answer. Canines are a valuable asset deployed in cargo and 
passenger aviation, but AIT continues to be a viable option. TSA is 
working closely with the Department of Homeland Security Science and 
Technology's Apex Screening at Speed initiative to inform the next 
generation of technology, and has established an Innovation Task Force. 
The Innovation Task Force establishes a forum for collaboration with 
airports, airlines, and industry to demonstrate emerging capabilities 
in the airport environment.
    Question 10a. The budget requests funds for the development of new 
baggage screening at checkpoints.
    How will this new technology make a difference in the security of 
the checkpoint?
    Answer. The Transportation Security Administration (TSA) recently 
submitted a targeted Broad Agency Announcement to help in the 
development of new requirements for the next generation of baggage 
screening systems for the checkpoint. TSA should see gains in security 
effectiveness and operational efficiencies from next generation baggage 
screening due to increased detection and reduced false alarms.
    Question 10b. Would resources be better spent investing in another 
security capability?
    Answer. Once the reviews of industry proposals are complete, TSA 
will use the input to develop the TSA requirements for the next 
generation systems and determine the best path forward. TSA must invest 
in technologies that screen accessible property to address the threat.
    Question 11. How is DHS working with industry to ensure innovative 
approaches to aviation security?
    Answer. Many of the Transportation Security Administration's (TSA) 
offices collaborate with industry on innovative approaches to aviation 
security. TSA offices participate in working groups with industry 
associations and on committees such as the Aviation Security Advisory 
Committee and the Aviation Sector Coordinating Council, when working in 
conjunction with the Aviation Government Coordinating Council. Industry 
Engagement Managers with TSA's Office of Security Policy and Industry 
Engagement collaborate directly with industry representatives on the 
development of aviation security policy. TSA Principal Security 
Inspectors and International Industry Representatives engage directly 
with industry on issues related to compliance with policy and alternate 
measures to achieve aviation security policy requirements. TSA conducts 
regular intelligence briefings with industry to raise the intelligence 
awareness within the community.
    Some examples of innovative approaches to aviation security are the 
Department of Homeland Security Aviation Domain Intelligence 
Integration & Analysis Cell, which includes industry participation; 
feedback surveys by which industry can respond to the effectiveness of 
intelligence products that are provided; the policy development 
process, which includes industry engagement and Quarterly Airport 
Security Reviews with industry participation; and the Compliance 
Security Enhancement Through Testing program to enhance industry 
compliance through measures other than penalties.
    Further, TSA has established an Innovation Task Force. The Task 
Force establishes a forum for collaboration with airports, airlines, 
and industry to demonstrate emerging capabilities in the airport 
environment. Innovation lanes would provide an opportunity for industry 
to gather data in an operational setting to inform the evolution of 
technology, and understand the screening process and challenges of the 
screening environment in an effort to enhance detection, increase 
efficiencies, and improve passenger experience.
    Question 12a. The budget requests resources for the deployment of 
TSA canine teams, but does not create any new teams.
    How is DHS working to increase the use of explosives detection 
canine teams and what efforts are being done to streamline the 
Passenger Screening Canine program?
    Answer. The Transportation Security Administration (TSA) Explosives 
Detection Canine (EDC) teams are a proven reliable resource in 
explosives detection, and provide a timely and mobile response to 
threats involving our Nation's transportation systems. The National 
Explosives Detection Canine Team Program, includes both TSA-led teams 
(which are all being trained to do both traditional canine screening as 
well as passenger screening) and State and local law enforcement (LE)-
led teams (who under an Other Transaction Agreement are required to 
spend 80 percent of their on-duty time securing the transportation 
facility(ies) within their area of responsibility. As of March 2016, 
TSA is funded for 322 TSA-led teams and 675 LE-led teams, for a total 
of 997 teams. TSA currently allocates 322 teams led by TSA employees 
that are deployed at 47 airports. By the end of 2017, all TSA-led teams 
will be certified to screen in all areas, including passengers and 
accessible property in queue.
    Question 12b. The committee has heard reports that TSA canine teams 
are struggling to meet certification standards. What is being done to 
ensure canines are able to meet the necessary standards for security?
    Answer. The current success rate for all TSA team evaluations for 
the Explosives Detection Canine teams and the Passenger Screening 
Canine teams is over 92 percent. If a team does not meet TSA standards, 
the team is de-certified and goes into remedial training until they are 
prepared for a re-evaluation.
    Question 13. The budget request supports new TSA Field Intelligence 
Officer positions at airports across the United States. How will these 
positions be used to connect the front-line workforce and stakeholders 
to the threats facing aviation and surface transportation?
    Answer. Field Intelligence Officers (FIOs) are assigned to major 
airports across the United States based on continuous risk evaluations. 
FIOs serve as Transportation Security Administration (TSA) assets in 
the field. FIOs draw from intelligence community partners to provide 
direct intelligence support, threat awareness briefings, and 
information sharing to all TSA operational field components, including 
the front-line workforce, and to transportation security stakeholders 
for all modes of transportation.
    FIOs provide intelligence briefings and training at the appropriate 
classification level regarding threats; terrorist tactics, techniques, 
and procedures; known or suspected terrorist travel encounters; and 
other relevant current intelligence to the TSA airport workforce. FIOs 
deliver Mission Essentials and Threat Mitigation training to the 
screening workforce on a quarterly basis, and will continue to provide 
ad-hoc intelligence briefings on emergent threat issues to field 
components.
    FIOs also share relevant Classified and Unclassified intelligence 
and threat information with local transportation security stakeholders, 
as permitted by dissemination limitations and stakeholder eligibility 
to access Classified material. These stakeholders include airport and/
or local law enforcement and/or security staff with jurisdiction at the 
airport, airline/carrier (passenger and cargo) security staff, rail 
security staff, pipeline security staff, and other transportation 
security staff (highways, etc.). Further, FIOs liaise and provide 
unique transportation security intelligence sharing with Federal and 
local partners; provide input to joint finished intelligence production 
in areas pertaining to transportation; participate in joint exercises 
and information-sharing events; and provide transportation threat 
briefs as needed. These partners include other components within 
Department of Homeland Security (DHS), Department of State, and Local 
Fusion Centers, DHS Intelligence Enterprise local partners, and 
intelligence community representatives.
    Question 14a. As we have learned in previous hearings, our Nation's 
surface transportation system remains a vulnerable target for attack.
    How is TSA measuring the effectiveness and deterrence value of its 
Visible Intermodal Prevention and Response (VIPR) teams? How has VIPR 
deployment changed to be more risk-based?
    Answer. The newly-updated Visible Intermodal Prevention and 
Response (VIPR) Concept of Operations (CONOPS) outlines the risk-based 
framework that is the basis for VIPR team deployment scheduling. Within 
the CONOPS framework, consideration is given to the risk-mitigation 
potential that the VIPR law enforcement and screening capabilities 
bring to each transportation mode and the visible presence that can be 
achieved when deploying to different locations within modes. Risk 
levels have been assigned to modes and locations and target ranges have 
been established for the percent of operations that are conducted 
within each risk level. Combined with scheduling principles to drive 
randomness and geographic dispersion, the framework seeks to optimize 
the value that the Transportation Security Administration (TSA) 
achieves with the VIPR Program.
    Question 14b. What contribution to security do Surface 
Transportation Inspectors make? Would those resources be better devoted 
to additional grant funding for surface transportation entities?
    Answer. Transportation Security Inspectors--Surface (TSI-S) provide 
subject-matter expertise for the planning and execution of effective 
VIPR operations in the surface transportation domain. TSI-S duties 
include helping local transit systems conduct vulnerability 
assessments, developing security plans to have a path forward to 
remediate vulnerabilities identified in the vulnerability assessments, 
and identifying resources that the Transportation Security 
Administration (TSA) (or other areas of the Federal Government) can 
provide to help transit systems raise their security baseline.
    The results of these assessments are analyzed to influence TSA 
policy to ensure that policies and programs are addressing the most 
critical vulnerabilities from a security perspective.
    Specific to the vulnerabilities identified from the assessments, 
Inspectors collaborate with industry on various risk mitigation 
activities including active-shooter training, improvised explosive 
devices awareness training, explosives mitigation training, and First 
Observer training.
    The TSI-S and grant funding are each valuable in their own specific 
way. Grants help the stakeholder to develop and implement programs and 
processes, while the Inspector force provides the continuity and 
oversight to the surface entities. However, once awarded and spent, the 
grant does not allow for flexibility, whereas Inspectors are able to 
shift from freight rail to mass transit to pipeline, based on emerging 
or confirmed threats. Additionally, grants do not have the ability to 
impact the number of entities that TSI-S impact each year.
    Question 15a. The President's budget request funds the acquisition 
of 4 new Fast Response Cutters (FRCs). In order to complete the FRC 
program before full-scale production of the Coast Guard's top 
acquisition priority, the Offshore Patrol Cutter, the Coast Guard 
should not be slowing its production of the FRC. Can the Coast Guard 
complete the FRC program before the planned full-scale production of 
OPCs if it only acquires 4 per year?
    Answer. The fiscal year 2017-2021 Capital Investment Plan, which 
reflects funding to acquire 6 Fast Response Cutters (FRCs) in fiscal 
year 2019 and fiscal year 2020, illustrates that the U.S. Coast Guard 
will have all remaining 26 FRCs on contract to complete the Program of 
Record (58 FRCs) by the end of fiscal year 2020. This is prior to full-
scale production of the Offshore Patrol Cutter Program in fiscal year 
2021.
    Question 15b. If it will require an increase to 6 FRCs in future 
years, why does the Coast Guard only want 4 in fiscal year 2017?
    Answer. As illustrated in the fiscal year 2017-2021 Capital 
Investment Plan, the 2017 request supports a full funding plan to put 
the remaining FRCs under contract by 2020.
    Question 15c. Is the Coast Guard not prepared logistically to 
accept more than 4 in fiscal year 2017?
    Answer. Per the FRC Phase I contract, WPCs 1120-1125 have contract 
delivery dates in fiscal year 2017 and the U.S. Coast Guard is prepared 
logistically to accept these cutters. The FRC Phase II contract is 
structured with options to acquire 4, 5, or 6 cutters in any given 
option year.
    Question 16a. This budget provides $150 million for multi-year 
funding to design a new heavy icebreaker and establish an icebreaker 
acquisition program. The Commandant has said that he believes the Coast 
Guard needs a fleet of 3 heavy icebreakers and 3 medium icebreakers.
    Understanding that the Coast Guard expects the cost of a single 
heavy icebreaker to be approximately $1 billion and the Coast Guard is 
looking to build 3 heavy icebreakers, how is the icebreaking mission a 
Homeland Security mission requirement?
    Answer. Icebreaking is one of several statutory missions of the 
U.S. Coast Guard classified as ``non-homeland security'' missions that 
were retained when the Coast Guard was transferred wholesale to DHS in 
2003. In the Arctic, icebreakers may support the Coast Guard's 
statutory missions classified as ``homeland security'' including port, 
waterways, and coastal security operations and law enforcement 
operations.
    Question 16b. Would this mission be better suited for the U.S. 
Navy?
    Answer. The Navy transferred their wartime icebreaking fleet to the 
U.S. Coast Guard in 1965. Since that time the U.S. Coast Guard has 
maintained and operated all Federally-owned icebreakers.
    Question 17a. Since no United States shipyard has built a heavy 
icebreaker in over 40 years, what technical and contracting challenges 
do you anticipate in this acquisition project?
    Answer. The technical challenges for the Polar Icebreaker 
acquisition are primarily related to size, complexity of the vessel 
design, and the limited number of heavy icebreakers being produced in 
the world. Special skill sets are required to design and construct a 
heavy icebreaker as compared to other vessels. The heavy icebreaker 
envisioned by the Coast Guard must possess the endurance to travel to 
remote areas, break up to 21 feet of ice, and operate in the harsh and 
dynamic conditions of the Polar Regions while being able to support 
multiple missions. These requirements influence size and complexity. 
The design of the heavy icebreaker must include redundant, robust, 
winterized, and maintainable systems and components to facilitate the 
vessel's ability to operate independently in extreme environments and 
overcome the effects of high levels of vibration experienced during 
icebreaking. Through the pre-acquisition work underway, we are taking 
steps to develop a comprehensive ship specification and establish 
effective evaluation criteria to ensure the selection of the most 
capable shipbuilder.
    Question 17b. How is the Coast Guard going to mitigate these 
challenges?
    Answer. The U.S. Coast Guard will mitigate these challenges with 
the following best practices:
  <bullet> Conduct frequent engagements with industry to ensure 
        requirements are producible, feasible, measurable, and 
        affordable;
  <bullet> Employ an Active Risk Management process to identify issues 
        with cost, schedule, and performance early in the acquisition 
        process;
  <bullet> Establish an effective acquisition strategy and contracting 
        method to incentivize industry to provide the best ship at the 
        best price; and
  <bullet> Follow a structured and proven acquisition approach as 
        outlined in the U.S. Coast Guard's Major Systems Acquisition 
        Manual.
    Question 18a. The Coast Guard has said in the past that it believes 
it needs an Acquisition, Construction, and Improvements (AC&I) budget 
of about $1.5 billion per year. The President's budget, providing just 
over $1.1 billion for Coast Guard AC&I does not fully support the 
stated Coast Guard recapitalization needs and significantly decreases 
funding for acquisition from the fiscal year 2016 funded level of $1.95 
billion. The committee fully supports the funding of the Coast Guard's 
recapitalization effort and is concerned that this decrease in funding 
will delay delivery in cutters and limit future recapitalization needs.
    How will you ensure the Coast Guard has the cutters and aircraft it 
needs to be effective in carrying out the homeland security missions of 
the Coast Guard?
    Answer. Requirements across DHS are considered through the annual 
Resource Planning Process. U.S. Coast Guard recapitalization remains a 
top Departmental priority. The fiscal year 2017-2021 Capital Investment 
Plan reflects the Department's commitment to the U.S. Coast Guard 
recapitalization, with funding programmed commensurate with increasing 
acquisition funding requirements over the next 5 years. The planned 
funding over this period fully supports critical acquisitions such as 
the Offshore Patrol Cutter and heavy polar icebreaker, and completes 
the Fast Response Cutter program of record.
    Question 18b. Although this budget indicates difficult choices, 
indicated by drastic cuts in several priority areas, in what ways is 
the Department helping the Coast Guard complete its recapitalization 
effort?
    Answer. The fiscal year 2017-2021 Capital Investment Plan reflects 
the Department's commitment to the U.S. Coast Guard recapitalization, 
with funding programmed commensurate with increasing acquisition 
funding requirements over the next 5 years. Based on the funding 
profile in that plan the U.S. Coast Guard will begin production on the 
Offshore Patrol Cutter, begin construction of the first new heavy polar 
icebreaker in more than 40 years, and complete the Fast Response Cutter 
program of record.
    Question 19a. Although the Coast Guard's program of record for the 
National Security Cutters (NSC) calls for only 8 NSCs, The Consolidated 
Appropriations Act, 2016, provided funding for the production of a 
ninth NSC.
    How will the acquisition of a ninth NSC affect the OPC program? 
Will 25 OPCs still be procured?
    Answer. The U.S. Coast Guard is currently conducting a Fleet Mix 
Analysis to better understand the performance impacts of the additional 
National Security Cutters (NSC).
    Question 19b. Given the ninth NSC, will the Coast Guard still be 
able to afford 2 Offshore Patrol Cutters (OPC) per year and accelerate 
the acquisition of a heavy icebreaker?
    Answer. Yes. The U.S. Coast Guard's fiscal year 2017-2021 Capital 
Investment Plan reflects the procurement of 2 OPCs per year beginning 
in fiscal year 2021, and includes funding for Polar Icebreaker up 
through the first phase of production funding in fiscal year 2021. The 
NSC, OPC, and Polar Icebreaker programs all remain on schedule at these 
funding levels.
    Question 19c. What challenges does the Coast Guard face with the 
addition of the ninth NSC? Specifically, how has the Coast Guard 
planned for the additional costs related to facilities, operations, 
crewing, and maintenance that will result from the acquisition of a 
ninth NSC?
    Answer. The ninth NSC will require out-year investments totaling 
$2.5 billion over a 30-year life:
    These include:
  <bullet> $640 million for long lead time materials and production 
        (funded in fiscal year 2016);
  <bullet> $138 million for post-delivery activities and shore 
        infrastructure development;
  <bullet> $1.7 billion for operations and maintenance over 30 years 
        of service life.
    The U.S. Coast Guard is in the process of conducting a full 
analysis of homeport options to include evaluation of: Mission needs, 
distance to primary operational area, work-life of crew, logistical 
support availability, infrastructure enhancement costs, and 
environmental impacts. Once that analysis is completed, we will have a 
much clearer picture of the cost of homeporting the ninth NSC.
    Question 19d. Does the Coast Guard plan on conducting a new Fleet 
Mix Analysis incorporating the ninth NSC into the analysis?
    Answer. The U.S. Coast Guard is in the process of conducting a 
Fleet Mix Analysis. The ninth NSC will be incorporated into this 
evaluation.
    Question 20. There have been funds requested to improving security 
at the White House, Vice President's Residence, and several other sites 
in response to recent security breaches. Will these funds be enough to 
improve Secret Service and address your Panel's recommendations to 
improve the Service? Are there strategies beyond funding that should be 
considered?
    Answer. The Secret Service is making steady progress in addressing 
known security requirements as well as emerging threats at the White 
House, Vice President's Residence, and other permanent and temporary 
protective sites. A majority of the funding requested to address the 
recommendations of the independent Protective Mission Panel involve 
personnel initiatives to address staffing challenges, training 
enhancements, White House and Vice President's Residence security 
infrastructure improvements, and protective technology upgrades. Some 
of these initiatives, particularly those involving construction, were 
granted multi-year funding and do not require additional funds in 
fiscal year 2017. Others have second year or sustainment needs that are 
included in the fiscal year 2017 President's Budget.
    Beyond funding, over the past year the Director of the Secret 
Service reformed the agency's command structure and implemented 
policies to increase transparency and communication between senior 
leaders, supervisors, and the rank-and-file across the agency to 
improve morale. By aligning operational and mission support functions 
under 2 different executives, the Deputy Director and the Chief 
Operating Officer, the Secret Service now has a structure in place that 
brings greater focus to the operational mission and business needs of 
the agency, recognizing the specialized skills needed to effectively 
manage each. The Secret Service also implemented the first ever Special 
Agent Career Progression policy, allowing employees to better plan and 
predict for themselves and their families when they should expect 
upcoming moves and transfers. Further, the agency published policies on 
promotions and implemented a new special agent promotion and 
reassignment bid process and schedule to increase transparency.
    Question 21a. For the past few years, the levels of both Uniformed 
Division Officers and Special Agents have been below acceptable levels. 
This understaffing has led to a litany of issues within the Service, 
including a lack of ample time for officer and agent training, 
excessive overtime, low morale, and high levels of attrition. In order 
to increase its staffing levels, the Secret Service took a series of 
steps, including the development of an aggressive human capital plan 
and the hiring of contractors to help with recruiting and facilitate 
the on-boarding of new hires. Ensuring the Secret Service is properly 
staffed is crucial, especially considering the additional strain the 
2016 Presidential campaign is placing on the agency's resources.
    How does this budget request support the execution of the Secret 
Service's human capital plan?
    Answer. The fiscal year 2017 budget supports the Secret Service's 
aggressive accession plan for both Special Agent and Uniformed Division 
personnel, as well as administrative, professional, and technical 
staffing to achieve a net gain of 224 full-time equivalents over the 
fiscal year 2016 level. Achieving this staffing level will enable the 
Secret Service to make progress towards meeting the staffing goals 
outlined in the Secret Service's Human Capital Plan.
    Question 21b. How many additional Uniformed Division Officers and 
Special Agents does the Secret Service plan to hire and train in fiscal 
year 2017?
    Answer. The fiscal year 2017 budget supports 6,705 full-time 
equivalents (FTEs) and 6,772 positions, which is 224 FTEs and 58 
positions higher than where the agency projected to end this fiscal 
year. Depending on the time it takes to on-board these new hires, the 
rate of attrition, and the impact of those factors on the budgeted 
FTEs, the fiscal year 2017 budget would allow the Secret Service to 
maximize its hiring efforts again next year as the agency works to keep 
pace with its 5-year Human Capital Plan. At a minimum, the Secret 
Service will hire 168 Special Agents and 192 Uniformed Division 
Officers in fiscal year 2017.
    Question 21c. What additional steps can the Secret Service take to 
increase its staffing to acceptable levels?
    Answer. While the Secret Service has made significant progress on 
its hiring goals, these achievements have been offset by increased 
attrition. As such, the retention of the existing workforce is a 
priority. The agency's biggest retention effort to date was directed at 
the Uniformed Division workforce with the implementation of the 2-year 
Uniformed Division Retention Bonus Program. At the same time, the 
Secret Service is implementing a more comprehensive retention program 
aimed at all members of the workforce. Initiatives such as student loan 
payback, tuition assistance, and the reintroduction of the Senior 
Special Agent and Senior Resident Agent Programs were implemented in 
April 2016. The Secret Service also plans to implement a career 
progression plan for its administrative, professional, and technical 
employees, which would provide a clear road map for professional 
development and career advancement. This is in addition to the 
projected implementation of a child-care subsidy program which would 
apply to qualified employees with children 13 years old or younger, or 
18 years old and younger if the child is disabled. Such initiatives, 
along with further steps currently under consideration, will allow the 
Secret Service to achieve staffing levels consistent with the agency's 
fiscal year 2015-2019 Human Capital Plan.
    Question 22a. In the fiscal year 2017 budget request, the Federal 
Protective Service (FPS) requests approximately $22.5 million for the 
creation of a Rapid Protection Force (RPF), which is designed to deploy 
around the country to ``heightened threat situations.'' In order to pay 
for this new force, FPS will be raising its basic security fee from 74 
cents to 78 cents and will increase its oversight fee from 6 percent to 
8 percent. In addition, FPS will add 121 full-time equivalents (FTE) to 
create the RPF.
    Why is this RPF is even needed?
    Answer. Federal facilities and tenants remain a target of 
international and domestic terrorist threats.
    Today FPS builds and deploys regional and National enhanced 
security teams by pulling available personnel from across the country. 
Regions are taking calculated risks to provide personnel in support of 
these operations.
    The RPF will help FPS better address the current threat environment 
by increasing responsiveness to rapidly provide enhanced security to 
Federal facilities and personnel. The RPF will increase operational 
flexibility, capacity, and capability, and will be more effective than 
the current system of ad hoc teams.
    Question 22b. Given the specialized training and equipment needed 
for the RPF, how much more will it cost to create this RPF versus just 
hiring the additional 121 FTEs?
    Answer. We utilized the DHS Modular Cost Standards to create the 
RPF, which is the same for all FPS activities. In essence, the creation 
of the RPF costs the same as hiring and equipping an additional 121 
FTEs. A mixture of new and existing Law Enforcement Officers is being 
utilized to create the RPF. New hires will be sent to regions where the 
existing Law Enforcement Officers joined the RPF.
    Question 23. The fiscal year 2017 budget request includes $39.8 
million to implement the first phase of the National Cybersecurity and 
Communications Integration Center (NCCIC) Staffing Plan. What is the 
long-term staffing plan for the NCCIC, and how will this plan address 
increased demands?
    Answer. The NCCIC Staffing Plan is a 5-year strategic resource 
document that reflects comprehensive planning and analysis efforts and 
increasing demand for the NCCIC's services. The plan identifies data-
driven staffing requirements commensurate to the projected need for 
NCCIC products and services. The fiscal year 2017 request implements 
the first phase of the Staffing Plan, providing Federal and contractor 
personnel to support the growth in demand for NCCIC services. The first 
phase supports additional proactive assessments (``red team''), 247 
operational staffing at both our Glebe and Pensacola locations, 
coverage, and funds to maintain readiness to execute National security/
emergency preparedness activities. The fiscal year 2017 request will 
also enable specialized cyber defense teams to apply capabilities from 
across the NCCIC, including incident response, ``red team'' penetration 
testing and cyber hunt capabilities, addressing the victim's specific 
risk management requirements and supporting the proactive 
identification of vulnerabilities and threats in agency networks.
    Question 24. The fiscal year 2017 request includes $8.25 million 
for Automated Indicator Sharing (AIS) Threat Dissemination to fulfill 
the information-sharing requirements of the Cybersecurity Act of 2015. 
As you know, this committee has been closely following the DHS 
implementation of the Cybersecurity Act. Can you give the committee an 
update on this status and how these funds will be used?
    Answer. DHS met the legislatively-mandated deadline to certify that 
the Automated Indicator Sharing is operational. As of April 13, 13 
private-sector companies and 5 Federal agencies are connected to the 
AIS system. Over 70 non-Federal entities are in the process of 
connecting. DHS is planning a gradual increase in the number of 
participants over the next year to address any technology issues that 
inherently arise in any new IT system.
    In fiscal year 2017, DHS requested a programmatic increase of $8.25 
million for AIS to support expanded indicator sharing capabilities, 
exercises focused on indicator sharing between Government and the 
private sector, and additional NCCIC analysts to ensure appropriate 
enrichment and privacy and civil liberties review as the volume of 
indicators increase. More specifically, funds will be used to:
  <bullet> Improve the TAXII cyber threat indicator gateway, with a 
        focus on the National Cybersecurity Protection System (NCPS) 
        receipt and dissemination infrastructure; improve internal data 
        management infrastructure, and capabilities to transmit 
        information; and provide the ability to tag information and 
        provide access to the appropriate customers (e.g. by masking or 
        locking or other means). Funds will be used to allow additional 
        redundancy as indicator sharing becomes increasingly integral 
        to NCPS and to the NCCIC's efforts to secure Federal civilian 
        agencies and help companies better secure their own networks. 
        $3.75 million
  <bullet> Conduct exercises focused on indicator sharing between 
        Government and the private sector, intended to institutionalize 
        procedures, improve information-sharing capabilities among 
        various partners, and demonstrate the value proposition of 
        indicator sharing. $3 million
  <bullet> Support enrichment and privacy and civil liberties review 
        processes. $1.5 million
    Question 25a. On February 11, the Subcommittee on Emergency 
Preparedness, Response, and Communications held a hearing on DHS's 
biosurveillance and biodetection capabilities where both Drs. 
Brinsfield and Brothers testified on the challenges facing BioWatch and 
the National Biosurveillance Integration Center. Recent reports from 
the Government Accountability Office and the Blue Ribbon Study Panel on 
Biodefense highlighted the need to prioritize this issue of biological 
preparedness capabilities.
    What will the Department do in fiscal year 2017 to ensure these 
programs are providing a return on investment?
    Answer. DHS investments in the BioWatch Program and the National 
Biosurveillance Integration Center help protect against, prepare for, 
and support the coordinated response and recovery for biological 
events. Ultimately, the return on these investments is the insurance of 
a safe, secure, and resilient homeland.
    With respect to BioWatch, the Department will continue to ensure 
that the currently-fielded technology is operated in accordance with 
established guidance and subject to a rigorous quality assurance 
program. Additionally, the program will work with interagency and DHS 
components involved in biodetection to leverage the expertise, 
experience, and investments of the entire community. Looking to the 
future, the program will benefit from the more robust acquisition 
policies and procedures developed by the Department in recent years. 
The establishment and continued development of the Joint Requirements 
Council serves as another example of processes put in place to make our 
investment decisions. Return on investment is a major consideration in 
making these decisions.
    The National Biosurveillance Integration Center (NBIC) has made 
great strides in recent years and the Department is committed to 
working with the Biosurveillance community, including those partners at 
the State, local, Tribal, and territorial level to further this work. 
In the coming year, NBIC will start work on the next iteration of its 
strategic plan. This process is expected to refine and hone how the 
program works with partners to evaluate needs and gaps and then works 
to develop or leverage available tools and data to enhance 
biosurveillance integration. As in years past, NBIC will work with the 
Department of Defense and others to leverage their investments in 
tools, technology, and data management to maximize value. Additionally, 
the Department will further explore how DHS data sets and intelligence 
community information can enhance and contextualize the biosurveillance 
picture.
    In fiscal year 2017, the Department will continue to evaluate and 
enhance BioWatch and NBIC to ensure these programs are contributing 
toward meeting the goals listed above. DHS will also continue to 
regularly assess BioWatch and NBIC through resource allocation 
decisions in its annual budget cycle.
    Question 25b. When you directed the cancellation of the BioWatch 
Gen-3 acquisition in April 2014, you tasked Dr. Brinsfield and Dr. 
Brothers to work together to come up with enhancements to the current 
BioWatch system and proposals for next generation technology. To date, 
it does not appear much progress has been made in this effort. What is 
the plan for BioWatch going forward? When can this committee expect to 
see outcomes from the Office of Health Affairs and Science and 
Technology Directorate?
    Answer. Since the April 2014 DHS Acquisition Decision Memorandum, 
DHS S&T and BioWatch have been collaborating to advance a plan for 
enhancing BioWatch technologies to increase coverage and speed of 
detection. These improvements are intended to advance the current 
``detect to treat'' capability, which will further enable us to deploy 
medical countermeasures before the population is symptomatic.
    BioWatch and DHS S&T developed a Technology Road Map outlining 
near-term (1-3 years) and mid- to long-term (3+ years) BioWatch 
technology enhancements with an estimated deployment of near-term 
enhancements in fiscal year 2018, pending appropriate funding.
    To date, the collaboration between DHS S&T and BioWatch has 
resulted in: (1) A comprehensive needs analysis, (2) requirements 
development, (3) market survey and analysis of enhancement 
opportunities, (4) capability development planning, (5) programming, 
and (6) periodic programmatic reviews.
    In the late fall of 2014, DHS S&T released 5 Requests for 
Information (RFIs) on technologies that can address critical BioWatch 
capability gaps, and a total of 56 responses were received and 
subsequently reviewed. Additionally, in the spring/summer of 2015, 
Sandia National Laboratories completed a Market Survey on potential 
technologies that can address identified BioWatch capability gaps. The 
technologies identified through the Market Survey were reviewed during 
two Focus Group meetings held in September 2015 by 18 BioWatch 
stakeholders (representing BioWatch Laboratory and Field Operations and 
Public Health Preparedness). The results of the RFIs, Market Survey, 
and Focus Group meetings were documented by Sandia National 
Laboratories in a final report titled BioWatch Capability Enhancement 
Assessment Report in December 2015.
    Throughout fiscal year 2016, BioWatch has worked with DHS 
leadership, in accordance with Acquisition Management Instructions, to 
develop the required documentation for Acquisition Decision Event 1 
(ADE-1), which is scheduled for the first quarter of fiscal year 2017. 
The required ADE-1 documents, including a Mission Needs Statement, a 
Capability Development Pan (CDP), and a Rough Order of Magnitude (ROM) 
Cost Estimate, will be completed prior to the passage through the ADE-1 
gate.
    BioWatch stakeholders have been continuously engaged throughout the 
technology enhancement process, including participation in the above-
mentioned Focus Group meetings, as well as webinar sessions and 
presentations at the Institute of Medicine. BioWatch stakeholders have 
also briefed the Nuclear, Biological, and Chemical Industry Group (NBC-
IG) on 3 occasions to ensure the commercial sector is aware of BioWatch 
technology enhancement needs and that they are briefed on the status of 
acquisitions through OHA and/or Broad Agency Announcements from DHS 
S&T.
    In addition, in fiscal year 2016 BioWatch advanced the development 
of 2 tools contributing to situational awareness, Decision Support Tool 
(DST) and a Sample Tracking Tool (STT), with development of both tools 
planned in fiscal year 2017 to all jurisdictions, pending the 
availability of an appropriations act.
    Question 26. Secretary Johnson, the fiscal year 2017 budget request 
provides very little detail on the newly-proposed Regional Competitive 
Grant Program.
    Why would the Department propose to create a new program at the 
same time that it is proposing cuts to other seemingly similar and 
critical grant programs?
    Can you provide more detail to the committee about the new Regional 
Competitive Grant Program, who would be eligible, and how funding will 
be distributed?
    The fiscal year 2017 budget requests $100 million for a new 
Regional Competitive Grant Program, but the budget documents do not 
provide any detail about what the program would look like.
    Can you describe the program?
    Who would be eligible to apply and what activities would it 
support?
    Which regions would you expect to be the primary recipients of this 
funding?
    Areas with currently funded United Area Security Initiatives 
(UASIs)?
    Or would the funding support the sustainment of capabilities for 
areas that have not historically received significant grant funds?
    Answer. The administration is proposing to re-align $100 million 
from the Homeland Security Grant Program to a new Regional Competitive 
Grant Program which will target critical preparedness capability gaps 
at the regional level. This new program is responsive to specific 
National preparedness needs as identified through a variety of 
strategic assessments, including an analysis of State and regional 
Threat and Hazard Identification and Risk Assessments, the annual 
National Preparedness Report, the Strategic National Risk Assessment, 
and other assessments of National risk and capabilities.
    Funding under the program will be awarded on a competitive basis, 
applying risk mitigation and project effectiveness as the primary 
evaluation measures. States, localities, and urban areas, including 
current UASI grant recipients would be eligible to apply. The 
administration expects that the most competitive applicants will be 
those who propose to work on a regional basis to address critical 
capability shortfalls. As with the existing preparedness grant 
programs, funding under the regional competitive program would support 
activities to build and sustain the capabilities identified in the 
National Preparedness Goal.
    Question 27. The Integrated Product Teams (IPTs) are being used to 
help S&T and operational components identify capability gaps and 
eliminate redundant programs and projects.
    Can you provide more detail about the IPTs to date and how they are 
working to eliminate redundant projects?
    Answer. In response to the Secretary's August 2015 memo, S&T 
established a governance structure and operational process for the IPTs 
in fiscal year 2016. This included standing up 5 chartered IPTs that 
identified technological capability gaps in their respective mission 
areas. Based on inputs from the IPTs, the S&T Research Council 
(composed of the component IPT leads) identified the high-priority gaps 
determined to be most important for R&D investment across DHS.
    The fiscal year 2016 IPT process proved effective and produced 
results in a short time frame. These results are presented in a final 
report, which identifies 24 high-priority technological capability gaps 
that span all 5 IPTs. The fiscal year 2016 process also identified R&D 
efforts that address the highest-priority gaps. As part of this 
process, the IPTs and the S&T Research Council identified duplicative 
or overlapping R&D activities and recommended ways to mitigate 
duplication going forward.
    One way to resolve duplication is to consolidate similar or 
redundant R&D efforts into a unified or joint effort. An example of 
this occurred in the fiscal year 2016 IPT process. During the 
Biological Threat sub-IPT meetings on Detect, Identify, and/or Clarify, 
representatives from CBP, FEMA, and USSS identified the requirement for 
rapid warning, identification, and characterization of biological 
threats in support of the Nation's BioWatch program and other 
programmatic needs. While these components would field such technology 
for differing uses, including force protection, public safety, and 
decision support, the Bio Threat IPT chose to consolidate these 
otherwise independent requirements into joint projects. This resulted 
in improved communication among components and a more focused R&D 
acquisition profile.
    Question 28a. The S&T Embed Program embeds S&T program staff into 
operational components for both short- and long-term opportunities.
    What mechanisms are in place to ensure S&T program staff is 
effectively communicating about these experiences with S&T?
    Answer. In December 2015, the Embed Program manager worked in 
conjunction with human capital and legal offices to develop a report 
construct, implement formal policy, and deploy a permanent reporting 
mechanism for all embed staff to communicate their field experiences 
with S&T employees. In addition, the Embed Program is working in 
harmony with the newly-implemented Integrated Product Team program 
management to inject the embed reports into their capability gap 
business management process. Lastly, upon return from an Embed 
engagement, the embedded staff is given the opportunity to present 
their report to the S&T staff in an open forum setting. To enhance this 
presentation method, in most cases, S&T has invited component operators 
to participate in the presentation giving their perspective to the 
Embed experience. It is the Embed Program's vision to continue these 
venues in fiscal year 2017, with expectation of adding presentations at 
the participating component headquarters facilities.
    Question 28b. How many staff are currently embedded throughout the 
Department, how many more do you expect to utilize this program in 
fical year 2017?
    Answer. The Embed Program's fiscal year 2016 engagement:
    1. DHS U.S. Immigration and Customs Enforcement (ICE) Technical 
        Operations Center, Lorton, VA
    <bullet> 1 October-30 December
    <bullet> Mr. John Price, S&T's First Responders Group
    2. DHS Federal Emergency Management Agency (FEMA) Headquarters, 
        Washington, DC
    <bullet> 15 February 2015-Current
    <bullet> Dr. Keith Holtermann, S&T's R&D Partnerships Group
    3. DHS Federal Law Enforcement Training Center, Training Research 
        and Innovation Directorate, Glynco, GA
    <bullet> 1 April-29 July
    <bullet> Mr. James Grove, S&T's R&D Partnerships Group
    4. Joint Interagency Task Force South, Innovation and Technology 
        Directorate, Key West, FL
    <bullet> 10 March-10 June
    <bullet> Mr. James Odasso, S&T's Capability Development Support 
            Group.
    The Embed Program currently has 3 staff members embedded with DHS 
operators serving in both internal and external DHS environments. The 
Embed Program manager expects to deploy 4 more staff in fiscal year 
2016 for a total of 8 deployments. The Embed Program manager plans to 
deploy 8 to 10 staff members in fiscal year 2017.
    Question 29a. Can you provide us with additional details about the 
Science and Technology Directorate's Apex programs?
    I understand they range from border situational awareness to next 
generation first responders; can you share any outcomes thus far?
    Answer. Apex projects are cross-cutting, multi-disciplinary 
programs identified as highest priority, value, and impact programs 
developed based on priority needs of DHS components and customers. They 
are intended to solve problems of strategic operational importance to 
DHS. There are currently 8 Apex programs in various maturity states. 
The programs include Air Entry/Exit Re-Engineering (AEER), Border 
Enforcement Analytics Program (BEAP), Border Situational Awareness 
(BSA), Screening at Speed (SaS), Next Generation Cyber Infrastructure 
(NGCI), Real-Time Bio Threat Awareness (BSV), Next-Generation First 
Responder (NGFR), and Flood Awareness (Flood). Further information on 
these programs and outcomes to date is attached.
                               Attachment
                          program descriptions
  <bullet> Air Entry/Exit Re-Engineering (AEER).--Identify, develop, 
        test, and evaluate new concepts of operation to enhance and 
        facilitate traveler-screening processes
  <bullet> Border Enforcement Analytics Program (BEAP).--Provides 
        advanced computing and analytical solutions that enable 
        Immigration and Customs Enforcement's (ICE) Homeland Security 
        Investigation (HSI) to effectively combine and analyze 
        multiple, large disparate data sets to increase enforcement 
        effectiveness
  <bullet> Border Situational Awareness (BSA).--Improve situational 
        awareness to more effectively and efficiently deploy resources
  <bullet> Screening at Speed (SaS).--Seamless detection of threats 
        while respecting privacy
  <bullet> Next Generation Cyber Infrastructure (NGCI).--Develop and 
        deliver advanced sensing technologies and network protections
  <bullet> Real-Time Bio Threat Awareness (BSV).--Demonstrate detection 
        capabilities that create timely awareness
  <bullet> Next-Generation First Responder (NGFR).--Harnesses the best 
        existing and emerging technologies and integrates them in a 
        well-defined and standards-based open architecture enabling 
        first responders to be protected, connected, and fully aware
  <bullet> Flood Awareness (Flood).--Planned to reduce flood fatalities 
        and property damage as well as increasing community resilience 
        to flood disasters.
                             apex outcomes
  <bullet> Apex BEAP transitioned an initial ``Big Data'' solution that 
        is now supporting live investigations for Homeland Security 
        Investigation's counter-proliferation unit, including the 
        Export Enforcement Coordination Center, formed under Executive 
        Order 13558 in 2010. These technologies enable operational 
        personnel to process large amounts of disparate data and 
        perform analytics to gain insights that were previously 
        unattainable with ICE's current tools and databases. The 
        insights have led to reports, active investigations, lead 
        packages sent to various field offices including overseas 
        attaches, and seizures of illicit shipments. As a result of the 
        Apex BEAP Program, ICE has engineered new business processes to 
        take advantage of results from the system. BEAP is in the 
        process of fully automating interfaces to DHS data flows and 
        developing applications for additional ICE investigation 
        domains.
  <bullet> S&T's Apex AEER and CBP-resourced efforts to strengthen and 
        improve operational efficiency of CBP Traveler Inspections upon 
        arrival to the United States (Entry) as well develop cost-
        effecting Concepts of Operation to support a future CBP 
        Biometric Air Exit Capability. To put this in perspective, DHS 
        previously estimated Biometric Exit would cost between $3 
        billion-$10 billion to deploy. This represents less than 1 
        percent investment in S&T to accelerate and inform a multi-
        billion dollar DHS acquisition program. As a result, it has 
        identified a number of new technically viable concepts of 
        operation and biometric technologies that could be used to 
        enable that acquisition. S&T asserts that the technology 
        questions are now resolved. Improving current entry operations 
        for CBP not only allows CBP to strengthen its inspections of 
        international travelers, it also enables them to improve the 
        efficiency and scalability of operations as the number of 
        international travelers coming to the United States grows by 
        approximately 5 percent per year. Greater efficiency also has 
        significant benefit to the U.S. economy.
  <bullet> The NGFR Apex worked with the Integrated Justice Information 
        Systems Institute and the Open Geospatial Consortium to 
        investigate, develop, and test candidate architectures, 
        components, and relevant standards for an Internet of Things 
        Pilot using lightweight sensors, and to develop new or enhanced 
        open standards of profiles for interfacing with these sensors. 
        This pilot has demonstrated the development of interoperable, 
        open standards-based solutions that leveraged lightweight, low-
        cost, and networked sensors. The results demonstrated real-
        time, realistic actionable information in support of incident 
        response and management.
                                engines
    Apex Technology Engines represent a new approach to realizing the 
S&T Visionary Goals. The Engines identify and share subject-matter 
expertise, technical solutions and tools, best practices, lessons 
learned, and reusable products and solutions on behalf of Apex and 
other S&T projects. Teaming and collaboration to leverage knowledge 
from the DHS enterprise and external stakeholders are core components 
of the Engine approach.
                          engine descriptions
  <bullet> Behavioral, Economic, and Social Science Engine (BESS-E) 
        provides analysis of the social and behavioral implications of 
        new technologies, programs, and policies to support their 
        research, implementation, and diffusion.
  <bullet> Communication and Networking (CN-E) provides integrated 
        communications and networking solutions that ensure operability 
        and interoperability across all network platforms to ensure the 
        efficient and effective exchange of voice, video, and data 
        information.
  <bullet> Data Analytics Engine (DA-E) provides expertise and tools 
        for projects to leverage emerging storage, security, 
        computation, and analytics technologies to create information 
        and rapidly convert data to decisions for homeland security 
        systems, missions, and operations.
  <bullet> Identity Access and Management (IDAM-E) provides the 
        capability to deliver individuals and systems a digital 
        identity, credentials, authentication, and authorization to 
        allow the right people to securely access the right data at the 
        right time.
  <bullet> Modeling and Simulation Engine (MS-E) provides expertise and 
        a repository for mission-based models, as well as modeling and 
        simulation tools.
  <bullet> Situational Awareness and Decision Support (SANDS-E) 
        provides Apex and other S&T projects with assured, secure 
        access to databases, knowledge bases, modeling and simulation 
        tools, and shared situational awareness products.
                            engine outcomes
  <bullet> DA-E completed 2 social media pilots for USCIS screening and 
        vetting of K-1 Visa and Syrian/Iraqi refugee populations under 
        the auspices of the Social Media Task Force. USCIS is now 
        implementing the methodology developed with S&T in its social 
        media screening and vetting operations. Two additional pilots 
        are planned to start later in 2016.
  <bullet> MS-E provided the USSS with subject-matter expertise and 
        technical oversight for crowd ingress, egress, and emergency 
        evaluation for the September 2015 Papal visit. The value of the 
        MS-E work led the USSS to express interest in utilizing S&T to 
        provide modeling and simulation support to enhance the safety 
        of the Republican and Democratic National Conventions, as well 
        as the 2017 U.S. Presidential Inauguration. The crowd analysis 
        they will provide to the Presidential Inauguration will be 
        based on an enhanced model with expanded capabilities.
  <bullet> MS-E established the Modeling and Simulation Lab in February 
        2016. A first of its kind for S&T, the Lab enables the Modeling 
        and Simulation team to work simultaneously with other 
        stakeholders to provide time-sensitive solutions to real-time 
        security challenges, enhancing the safety and well-being of 
        first responders and citizens alike.
  <bullet> CN-E has developed a game-changing technology. By dedicating 
        5 percent of the public TV's digital transmission's bandwidth 
        to support a datacasting network, multiple video streams, text 
        messaging, and digitized building blueprint files can now be 
        securely sent wirelessly via advanced encryption to targeted 
        public safety users. As a result, the City of Houston and its 
        first responders used the datacasting network to securely 
        communicate during the NCAA Men's Final Four Basketball 
        Tournament in Houston, Texas on April 1-4 2016.
  <bullet> CN-E restructured the P25 Compliance Assessment Program 
        (CAP) that is on track to resolve a long-standing 
        interoperability problem for the Nation's first responders. 
        With compliant P25 Land Mobile Radios, first responders and 
        U.S. Border Patrol Agents can be assured that they will be able 
        to communicate no matter what brand of radio they are issued.
    Question 29b. Are metrics are being used to measure the 
effectiveness of each program?
    Answer. Numerous metrics are being used to measure Apex program 
success and effectiveness. These measures are program-specific and 
continue to be refined. Examples of some of the diverse Apex Program 
metrics include: Number of technologies transitioned to customers, 
improved situational awareness--i.e., ability to increase access to 
data and information (communications, sensors, etc.), time savings for 
specific events, the extent to which a solution provides regulatory 
compliance, improved screening time, cost savings, and reduction in 
false alarms.
    Question 30a. Of the 124 aliens charged with homicide-related 
crimes since 2010, how many were released as a result of a court order?
    Of those who were released as a result of a court order, how many 
were released as a result of the alien's home country not taking them 
back pursuant to the Zadvydas decision?
    Answer. Of the 124 aliens charged with homicide-related crimes 
subsequent to release since 2010, 28 were released based upon the 
requirements of the Zadvydas decision. Of the original population, 31 
were released on bond pursuant to the order of a Department of Justice 
immigration judge. In the past fiscal year U.S. Immigration and Customs 
Enforcement (ICE) has significantly reduced both the number of criminal 
aliens released as well as the proportion released for discretionary 
reasons.
    Question 30b. Of the 124 aliens charged with homicide-related 
crimes since 2010, how many were released that did not meet ICE's 
criteria for deportation?
    Answer. ICE adheres to Board of Immigration Appeals and Federal 
court decisions to determine whether an individual alien is removable 
from the United States as a result of criminal conviction. It is 
important to note, however, that some homicide-related offenses (e.g., 
those where the offender acted negligently or recklessly rather than 
with intent to kill) may not themselves render individuals removable 
from the United States under the Immigration and Nationality Act.
    Please also note that because the 124 includes releases that took 
place both before and after the issuance of my November 20, 2014 
memorandum concerning immigration enforcement priorities, ICE is unable 
to retroactively apply enforcement priorities in order to report on the 
number of those who did not meet the Department's enforcement 
priorities.
    Question 30c. Of the 124 aliens charged with homicide-related 
crimes since 2010, how many would fall within the Priority I or II 
categories under ICE's priorities for enforcement criteria?
    Answer. ICE is unable to statistically report on this information, 
and cannot retroactively apply to these cases the priorities outlined 
in the November 20, 2014 memorandum.
    Question 31a. In fiscal year 2014 and fiscal year 2015, how many 
recidivist criminal aliens have been released at ICE's discretion and 
rearrested (felony or misdemeanor) since their release?
    Answer. U.S. Immigration and Customs Enforcement (ICE) is currently 
analyzing the available data and will provide the information as soon 
as possible.
    Question 31b. In fiscal year 2014 and fiscal year 2015 how many 
recidivist criminal aliens have been released as a result of a court 
order?
    Answer. ICE is currently analyzing the available data and will 
provide the information as soon as possible.
   Questions From Ranking Member Bennie G. Thompson for Hon. Jeh C. 
                                Johnson
    Question 1a. It has been nearly 3 years since the Government 
Accountability Office (GAO) completed its report, ``TSA Should Limit 
Future Funding for Behavior Detection Activities.'' Within the report, 
GAO goes so far as to state that ``Congress should consider the absence 
of scientifically-validated evidence for using behavioral indicators to 
identify threats to aviation security when assessing the potential 
benefits and cost in making future funding decisions for aviation 
security.'' As I understand it, TSA has yet to come forth with 
scientifically-validated evidence showing the security effectiveness of 
the program. Given the recent headlines and reality that this travel 
season is going to be above and beyond any that we have seen in recent 
years, along with the fact that TSA is in need of more TSOs to staff 
underutilized lanes, will you commit to taking a serious look to 
determine whether these BDOs can reallocated to aid in screening 
functions outside of their current roles?
    Answer. Security experts have long argued that the most effective 
way to diminish threats to airports and other large public spaces 
involves a combination of tools, including greater use of surveillance 
cameras, bomb-sniffing dogs and, in particular, training more security 
personnel in the use of behavior-monitoring techniques. Therefore, TSA 
believes that behavior detection certified officers play an important 
part in an effective security screening system.
    Question 1b. In 2013, GAO conducted an investigation on TSA's SPOT 
program, which employs behavior detection officers to identify persons 
who may pose a risk to aviation security based on certain behavioral 
indicators. The report recommended that future funding for those 
activities be limited until TSA can scientifically prove that behavior 
detection activities have scientific validity.
    Please explain why TSA is requesting the same number of behavior 
detection officers as fiscal year 2016?
    Answer. TSA currently deploys 2,660 full-time BDOs at 87 airports. 
This is a reduction of 471 from fiscal year 2015. We took these cuts by 
re-examining our risk-based allocation and streamlining the airport 
management structure for BDOs. As history has shown, terrorists have 
employed a variety of means to attempt to inflict harm on an aircraft. 
TSA believes that Behavior Detection and Engagement, is a useful 
capability in light of adversaries' continually evolving weapons, and 
tactics, and plays an important role in observing the dynamics of the 
checkpoint.
    Question 1c. Has TSA completed an investigation to validate the 
usage of behavior detection officers? If so, what were the findings?
    Answer. The Transportation Security Administration (TSA) did 
complete an investigation to validate the usage of behavior detection 
officers. In August 2015, TSA delivered the ``Fiscal Year 2015 
Scientific Substantiation of Behavioral Indicators'' report to 
Congress. The report provides evidence demonstrating that behavioral 
indicators can be used to identify passengers who may pose a threat to 
aviation security and discusses TSA's plans to continue collecting 
performance data on the effectiveness of the behavior detection 
program. The evidence includes 189 scientific and operational 
references, including the 2011 study, Screening of Passengers by 
Observation Techniques Referral Report Validation Study completed by 
the Department of Homeland Security's Science & Technology Directorate.
    In the fall of 2014, TSA began a final effort to pilot the updated 
indicator protocol at 3 airports. The goal of the pilot was to collect 
operational and observational data in order to determine whether: (1) 
The protocol negatively impacted the checkpoint, and (2) Behavior 
Detection Officers (BDOs) could successfully apply this new protocol in 
the field. TSA assessed relevant data such as behavior detection 
referral frequencies, knowledge quiz scores, on-the-job training 
results, and feedback from Transportation Security Officer (TSO) focus 
groups. Based on this information, TSA concluded the pilot objectives 
were met.
    A third test objective is scheduled to be conducted at a total of 
10 airports, in 2 phases beginning in October 2016 and concluding in 
June 2017. The test is designed to assess the extent to which BDOs 
identify a subset of the substantiated indicators in a live environment 
and will use trained actors demonstrating the indicators. At the 
conclusion of the testing, TSA will evaluate the results and may 
consider National implementation of the new protocol in fiscal year 
2018 or further testing.
    Question 1d. According to a 2013 GAO report that recommended TSA 
limit funding for behavior detection activities, in fiscal year 2012, 
the average salaries the lowest BDO pay band was $66,000, the highest 
averaging salary was around $97,000, yet TSA screeners, whose duties 
actually display tangible results are not making anything comparable. 
How can TSA justify these salaries on a program that hasn't been proven 
effective?
    Answer. In 2016, F Band BDOs on average make $63,881 while G Band 
BDOs make on average $76,675. By comparison, the similar bands of non-
BDOs make on average $66,160 and $77,287. Based on the conclusions of 
TSA's report ``Fiscal Year 2015 Scientific Substantiation of Behavioral 
Indicators,'' described above, TSA believes the Behavioral Detection 
and Analysis program has been shown to be effective, and remains a 
valuable part of TSA's Aviation Security mission.
    Question 2a. In August 2015, TSA released its Strategic Five-Year 
Investment, which was required to make TSA procurement plans and 
process more transparent. In that plan, TSA stated 897 enhanced metal 
detectors would be procured with fiscal year 2016 funds, yet the budget 
request indicated that no enhanced metal detectors would be procured in 
fiscal year 2016.
    Please provide an explanation of the discrepancies between the 
Five-Year Plan and the budget justification and the Strategic Five-year 
acquisition plan.
    Answer. The planned procurement numbers provided in the Strategic 
Five-Year Technology Investment Plan for Aviation Security 2015 Report 
to Congress were based on the approved program documentation at the 
time of publication, specifically the Life-Cycle Cost estimate approved 
by the Department of Homeland Security (DHS) in May 2014. This 
documentation is in the process of being updated, and revised numbers 
will be published upon completion. Therefore, when developing the 
fiscal year 2017 budget request, the Transportation Security 
Administration (TSA) chose to reflect updated requirements per the 
latest spend plans, which resulted in TSA showing 0 units rather than 
897 units being planned for procurement in fiscal year 2016.
    Question 2b. When--between the time this Five-Year Plan was 
released and the time the budget request was created--was it decided 
that 0 enhanced metal detectors would be procured?
    Answer. TSA continues to prioritize its resources and projects 
according to the strength of their contribution towards fulfilling the 
agency's mission to protect the Nation's transportation systems from 
evolving threats. Because these machines remain highly reliable, and 
increases in unit maintenance costs throughout the service life of the 
current enhanced metal detectors are not anticipated, TSA adjusted the 
planned procurements to better align with latest spend plan 
requirements. Furthermore, TSA is working with DHS to develop a 
strategic sourcing vehicle for all DHS Components to procure enhanced 
metal detectors.
    Question 3. We have seen a rise in domestic terrorism incidents 
throughout the country, marked most recently by the events during the 
40-day standoff in Oregon, the killing of 3 people at a Planned 
Parenthood Clinic in Colorado, and the execution of 9 parishioners at 
the Emanuel African Methodist Episcopal church in South Carolina. These 
events demonstrate the marked rise in anti-Government militia and white 
supremacy groups in the United States. What CVE efforts has DHS 
implemented to address the threat of domestic terrorism?
    Answer. Recent events have highlighted the need for the 
Department's countering violent extremism (CVE) approach to include 
efforts related to countering domestic terrorism. As a part of its CVE 
efforts, the Department provides training for law enforcement; delivers 
briefings to fusion centers, law enforcement, and communities; conducts 
engagement events to inform community stakeholders of the threats posed 
by domestic terrorism and violent extremism; provides grant support to 
law enforcement and non-Governmental organizations; develops research 
to enhance DHS's understanding of the violent extremist threat, 
including domestic terrorism and violent extremism; and develops 
analysis on the spectrum of domestic-based threats. In particular, DHS 
Intelligence & Analysis (I&A) has a team of Domestic Terrorism (DT) 
analysts whose sole focus is domestic terrorism analysis. These 
analysts have expertise in all of the disparate categories of domestic 
terrorism, such as white supremacist extremists, sovereign citizen 
extremists, anarchist extremists, and environmental/animal rights 
extremists.
    The new DHS Office for Community Partnerships (OCP) is also 
increasing the DT work of the Department. OCP has placed a full-time 
Regional Director for Strategic Engagement in the U.S. Attorney's 
Office for Colorado (USACO) and partners with the U.S. Attorney to 
counter all forms of violent extremism, including domestic terrorism. 
Specifically, OCP and the USAO in Colorado are creating an intervention 
model that addresses all forms of violent extremism, using best 
practices from the BRAVE model, but also ensuring we address the gaps 
in research on the radicalization by domestic violent extremist groups. 
The intervention model will also overlap with existing gang 
intervention efforts in Denver to address white supremacist prison gang 
recruitment. Following the Planned Parenthood shooting in Colorado 
Springs, OCP and USAO are partnering with the Faith Security Working 
Group (a network of faith centers and law enforcement) to build 
awareness in churches and other faith centers, particularly with youth 
leaders, on how all violent extremist groups recruit. El Paso County 
Sheriff is also involved, as it has a robust rural engagement program. 
OCP and USAO are also partnering with the Aurora Police Department, 
which is piloting a program with its School Resource Officers, who will 
work to build curriculum that increases awareness with teachers, 
administrators, and students about how to be safe from recruitment by 
all violent extremist groups, as well as active shooters. Aurora has 
experienced the movie theater shooting, but also ISIL recruitment, so 
it supports an all threats approach to prevention.
    In regards to domestic terrorists and violent extremists, OCP and 
USACO are building upon existing relationships with sheriffs' offices 
to begin the process of exploring community engagement and resilience 
strategies focused on crime prevention. Further, OCP and the USACO plan 
to meet with the Colorado Department of Corrections to learn about how 
to support their efforts to prevent recruitment by the 211 Crew white 
supremacist gangs in prisons.
    Question 4. In the Consolidated Appropriations Act for fiscal year 
2016, the Office of Community Partnerships was appropriated $10 million 
dollars for grants to extend to outside stakeholders to further its CVE 
mission. It is still unclear how these grants will be administered. 
What is your vision for this new office and the new grant program?
    Answer. In July 2016, DHS issued the notice of funding opportunity 
for the new grant program. DHS will utilize FEMA's Grants Program 
Directorate (GPD) infrastructure for awarding grants. Like the current 
Transit and Port Security Grant Program model, where FEMA GPD makes 
awards and conducts fiscal audits while the subject-matter expertise is 
provided by the Transportation Security Administration (TSA) and the 
United States Coast Guard (USCG), OCP is involved in all aspects of the 
grant program relating to the grants' subject matter, from designing 
the funding opportunity's purpose, goals, eligible activities, and 
evaluation criteria, to providing CVE subject-matter expertise in the 
evaluations of applicants and collecting the performance measures for 
incorporation into the Department's overall CVE activities.
    The overarching goal of the initiative is to prevent radicalization 
to violence. This will be accomplished by enhancing community 
resilience, developing non-law enforcement off-ramps for individuals 
being recruited or radicalized to violence; creating or amplifying 
counter messages to violent extremist narratives; and increasing the 
capacity of non-traditional partners. OCP will be heavily involved in 
evaluating applications and will specifically evaluate whether 
applicant proposed metrics are appropriate. The DHS CVE approach calls 
for several categories of metrics, including measuring the extent to 
which DHS activities spur CVE efforts outside of the Federal Government 
and measuring the reach of CVE activities and the increased resiliency 
of the communities reached both in person and on-line.
    Question 5. DHS has an established insider threat program designed 
to mitigate the threat resulting from employees and contractors who 
purposefully or inadvertently commit security breaches.
    Please give an overview of how the program currently works. Is the 
current insider threat program limited to the detection of 
abnormalities in data usage or does it monitor other factors?
    Answer. The DHS Insider Threat Program (ITP) receives information 
from various sources relevant to security violations, infractions, and 
data spills. Once this information is received, the Insider Threat 
Operations Center (ITOC) coordinates with the various DHS components--
both support and operational--that are involved, depending on the 
situation. Per standard operating procedures, the ITOC will conduct a 
thorough review of all relevant information associated with all 
potential insider threat incidents. If there is determined to be 
suspected nefarious activity, the ITOC will immediately refer the 
incident to the appropriate internal investigative entity for action. 
The ITOC retains records of both actions and coordination as required 
by the ITP-established Privacy Impact Assessment and System of Records 
Notice. The current Insider Threat Program is not limited to the 
detection of anomalies in data usage. The ITOC ingests other data 
sources into its business process beyond data collected via user 
activity monitoring, and plans are underway to expand beyond the 
current data ingests.
    Question 6. The Science and Technology Directorate (S&T) announced 
a program to study the effectiveness of insider threat programs. How 
far along is S&T in the study and are there any preliminary results 
that you are able to disclose?
    Answer. The S&T Cyber Security Division's Insider Threat project is 
supporting operational insider threat programs across Government and 
industry through 3 main approaches. First, CSD is pursuing research 
that will enhance and complement existing capabilities to provide a 
more complete operating environment for insider threat programs. 
Currently, there are gaps in existing tools in this area. Additional 
research will assist in developing tools that can be incorporated into 
an operating environment without disrupting current operations. Second, 
CSD is developing data sets for researchers to use so they may test 
their tools. Currently, data sets are not freely available for insider 
threat researchers working independently. Small businesses and 
academics have to spend time and resources to generate their own data 
against which they may test their tools. S&T CSD plans to provide data 
sets to researchers, thereby removing the need to spend time and 
resources and limiting the duplication of efforts for researchers. 
Finally, CSD provides support by reviewing closed insider threat 
investigation case files. This review will likely provide information 
to agencies on historical trends related to insider threats, as well as 
evaluating investigative best practices.
    Question 7. In the aftermath of terrorist acts at home and abroad, 
information sharing between the law enforcement community and private 
sector is imperative. While I understand and agree that the priority 
after U.S. attack secure areas and respond to victims, we have heard 
from our local, State, and private partners that the information that 
DHS provides in response to these terrorist attacks is neither timely 
nor particularly informative compared to information provided by other 
Federal agencies. Some, especially those in the private sector who 
manage soft targets, have told us they are getting first updates and 
information from DHS days and weeks after incidents. What can DHS do to 
ensure that relevant information is being provided in a timely manner 
to the appropriate authorities?
    Answer. The U.S. Department of Homeland Security (DHS) takes very 
seriously our mission to equip the Homeland Security Enterprise with 
timely intelligence and information to keep the homeland safe, secure, 
and resilient. DHS has responded to incidents at home and abroad, and 
provided critical intelligence to and information to protect the Nation 
and inform Federal, SLTT, and private-sector partners, including 
responding to incidents such as those in Chattanooga and San 
Bernardino.
    In the hours following the Paris, Brussels, Orlando, NY, and NJ 
attacks, I&A, in collaboration with the Federal Bureau of Investigation 
(FBI) and the DHS Office of Intergovernmental Affairs, hosted a 
conference call with SLTT partners, including fusion centers, law 
enforcement executives, and Homeland Security Advisors. The purpose of 
the calls was to provide an update regarding the attacks, including 
what was known regarding the time line of events, targeted locations, 
and tactics used. I&A and the FBI committed to providing additional 
updates for these partners as warranted, based upon new or updated 
information. We expect to continue this practice of informing SLTT 
partners within hours of significant terrorist events, foreign and 
domestic.
    We continuously work to overcome barriers to information sharing as 
we bring information into the IC, share IC information with our SLTT 
and private-sector partners, and facilitate the flow of information 
across the Department. We routinely share relevant information, via our 
field-based intelligence professionals and via Unclassified and 
Classified systems, as soon as it is available with our SLTT and 
private-sector partners, while remaining compliant with privacy and 
security laws and regulations. This information may include immediate 
situational awareness notifications, reports, and conference calls 
during and after incidents, as well as more strategic analytic products 
that look at tactics, techniques, and procedures used during or lessons 
learned from an incident. In fiscal year 2016, I&A field-based 
personnel delivered 1,069 threat/intelligence briefings at the 
Unclassified/For Official Use Only and Law Enforcement Sensitive 
levels; responded to 1,091 requests for information regarding emerging 
incidents across the country; participated in 2,723 engagements with 
Federal and/or SLTTP partners; and produced 1,404 Intelligence 
Information Reports.
    In fiscal year 2015, we launched the Field Analysis Report (FAR), a 
new product line that incorporates views and assessments from SLTT 
partners with a National-level perspective on State-wide, regional, and 
National strategic intelligence issues. In fiscal year 2016, we 
published 52 FARs. Our new data cloud initiative, the DHS Data 
Framework, will improve data sharing across DHS and the Intelligence 
Enterprise, and fill critical gaps across the IC. We continue to 
enhance our relationship with fusion center directors, and with our 
SLTT law enforcement partners through our support of the National 
Network of Fusion Centers with people, Classified systems access, 
training, Federal grants, and security clearances. Through enhancement 
of the Homeland Security Information Network (HSIN), DHS has worked 
with the fusion centers to create a request for information tool called 
HSIN Exchange. That tool effectively links all 78 fusion centers to one 
another and the Terrorist Screening Center which will vastly increase 
the speed of information exchange during critical incidents. 
Additionally, DHS continues to utilize the HSIN National Situational 
Awareness Room as a platform to exchange information in real time with 
SLTT partners during special events and following incidents such as the 
Orlando, FL shooting. DHS is also partnering with 4 fusion centers to 
conduct secure video teleconferences for private-sector partners to 
provide threat briefings and roundtable discussions on protective 
measures.
    Question 8a. The fiscal year 2016 refugee ceiling is 85,000, with 
at least 10,000 of those individuals being Syrian.
    How many refugees has the Federal Government admitted to date this 
fiscal year?
    Answer. As of March 31, 2016, 29,055 refugees have been admitted to 
the United States.
    Question 8b. How many of those are Syrian?
    Answer. As of March 31, 2016, 1,285 Syrian refugees have been 
admitted to the United States.
    Question 8c. Do you face impediments to meeting this goal?
    Answer. The nature and location of refugee processing activities 
often lead to unexpected delays or cancellations, as overseas 
processing locations may have volatile security situations, host 
country processing limitations, or disease outbreaks. In addition, 
security vetting processing delays may be a potential impediment to 
meeting the stated program goals. However, the Department is working 
with its interagency partners to meet this goal, and fully anticipates 
that will we will be able to.
    Question 8d. What, if anything, can be done to overcome them? 
Please explain.
    Answer. Initiatives are underway to streamline processing and 
increase admissions, without compromising the security and integrity of 
the program, including: (1) Launching 2 ``surge'' operations--1 in 
Amman, Jordan (February-April) and the other in Tanzania/Uganda (April-
June)--to interview large numbers of refugees likely to travel in 
fiscal year 2016, if approved; (2) detailing officers from other parts 
of USCIS to conduct and support refugee interviews while working to 
double the size of the Refugee Corps by fiscal year 2017; (3) adopting 
technological and procedural efficiencies; and (4) detailing personnel 
to address backlogs in security checks pending at the vetting agencies 
and review cases on hold for potential National security issues pending 
at USCIS. USCIS has also resumed interviewing refugee applicants in 
Lebanon.
    Question 9. Congress passed Pub. L. 113-277, the Border Patrol 
Agent Pay Reform Act of 2014, which was the result of negotiations 
between the House and Senate to address important issues to assess how 
applicants are chosen and retained for cybersecurity purposes in the 
Department, that bill requires you to report on how the Department 
plans to fulfill the critical needs of the Government to recruit and 
retain employees in qualified positions. Can estimate when we will 
receive these required reports?
    Answer. These reports remain a priority of the Department and we 
hope to have a finalized deliverable to Congress in the near future. We 
apologize for the delay and appreciate your patience.
    Question 10. In 2014, we saw a rise in calls for attacks on the 
homeland, military and law enforcement personnel, and other Government 
officials by ISIS and other terrorist organizations. You responded by 
initiating Operation Blue Surge--an unprecedented deployment of Federal 
law enforcement officers to Federal facilities throughout the country. 
I understand that FPS has maintained that operational tempo since. Now, 
FPS is seeking authority to increase the fees it charges tenant 
agencies in order to fund a new force dedicated to these rapid 
deployments. Should we expect this surge capacity to be the ``new 
normal''?
    Answer. In response to these threats, FPS is building the Rapid 
Protection Force (RPF). Some of these surge tasks, along with others, 
will be executed by the RPF and dramatically reduce the stress on the 
current force.
    FPS's new normal is operating in an expanded capacity to protect 
Federal facilities, rapidly respond to credible threats and support the 
recovery from high-consequence events when and where it matters. As the 
threat environment changes, so must FPS.
    Question 11. Mr. Secretary, we have had conversations about the 16-
year class action lawsuit against the Secret Service. As you know, the 
Secret Service cannot fully turn the page to a new chapter on its 
diversity and cultural issues with this lawsuit hanging over its head. 
Mr. Secretary will you give me your commitment that you will seek a 
resolution in this lawsuit?
    Answer. I have been and remain committed to working in good faith 
to reach a fair resolution in this matter.
    Question 12. One of the primary concerns with the USSS is low 
morale and upper management. Please describe for the committee your 
plan address morale within the Service. Has any changes been 
implemented directly as it relates to recruitment, retention, and 
oversight of USSS management personnel?
    Answer. As part of its efforts to improve morale, the Secret 
Service has been working steadily to develop a comprehensive retention 
program aimed at enhancing morale for all employees. The agency has 
already implemented a retention bonus program for Uniformed Division 
officers, Tuition Assistance Student Loan Payback, and the 
reintroduction of the Senior Special Agent and Senior Resident Agent 
Programs. Other initiatives are in development for the larger workforce 
as well, such as child care subsidies, expanded telework and 
alternative work schedules, and an administrative, professional, and 
technical career progression plan. Additionally, legislative steps are 
being taken to address an Annual Leave pay-out option, Uniform Division 
step compression, and raising the annual pay cap.
    In addition, for special agents, a new Special Agent Career 
Progression Guidelines policy was developed to create greater balance 
between employees' work/life needs and the critical impact personnel 
constraints are having on our protective mission. The policy, published 
on September 1, 2015, reflects numerous business changes designed to 
provide: Increased awareness and notification of expected transfer to a 
protective assignment; firm, standard time frames (6 years) for 
protective assignments; increased flexibility in post-protection 
assignments; opportunities to specialize post-protection; and a more 
transparent and defined career progression and schedule that is clearly 
articulated in policy.
    Question 13. Director Clancy noted in his Senate Appropriations 
Committee testimony late last year that the Mayorkas Report on the 
September 2014 White House incursion made clear that inadequate 
training of Secret Service personnel contributed to the failures 
evident in this incident, and that the Secret Service has implemented 
new training programs to address these gaps. Have USSS and/or DHS 
leadership assessed the effectiveness of these training programs?
    Answer. Immediately after the September 2014 incident, the Secret 
Service responded by designing and implementing several new courses, as 
well as modifying the existing 3-day Mission In-Service Course 
curriculum for Uniformed Division members to address issues specific to 
White House security. These new courses are provided in addition to the 
regular weekly scheduled courses, which include: Multiple Protective 
Operations Cycle Training offerings for the Presidential and Vice 
Presidential details, as well as canine, emergency services, special 
operations, and hazardous material personnel; protective detail 
training courses; firearms re-qualifications on a quarterly and semi-
annual basis; special team candidate programs; and advanced skill 
courses.
    Additionally, a 2-week on-the-job training program has been 
formally implemented for special agents immediately following their 
graduation from basic training. This program provides new special 
agents with additional protective experience and integrated training 
with Uniformed Division members and Secret Service special operations 
teams (e.g., counter assault, counter sniper, emergency response, and 
hazardous materials teams).
    The Secret Service continually develops, assesses, modifies, and 
enhances operational training, to include the aforementioned courses. 
The USSS also trains with outside entities, to include joint training 
exercises and table-top exercises with Federal, State, and local law 
enforcement as well as military partners. Evaluations are conducted on 
all basic training courses as well as on several advanced courses 
related to protective operations to identify any gaps in the curricula.
    Based on after-action reviews of the above training and personnel 
performance since the September 2014 incident, the enhanced training 
has been effective in preparing Secret Service personnel to meet the 
demands of the mission.
    Question 14a. Over the past 4 years, employees have left DHS at a 
rate nearly twice as fast as in the Federal Government overall and this 
trend is expected continue accelerating. The continuing stream of 
departures has at times hampered the Department's ability to fill 
critical positions in areas such as cybersecurity.
    Answer. For the past 4 years, the DHS attrition rate has been 
between 2 to 4 percentage points below the Government-wide attrition 
rate. Attrition for cyber positions tracks with the DHS overall 
attrition rate. The chart below identifies the Department's attrition 
rate compared to the Government-wide attrition rate. Chief Human 
Capital Officer Angela Bailey would be pleased to discuss the DHS 
attrition rate and what we are doing to address morale and engagement.

----------------------------------------------------------------------------------------------------------------
                     DHS Overall Attrition                                         Government
----------------------------------------------------------------------------------------------------------------
                 Year                          Percent                    Year                   Percent
----------------------------------------------------------------------------------------------------------------
2012.................................  7.5%...................  2012...................  11.5%
2013.................................  8.6%...................  2013...................  11.1%
2014.................................  7.7%...................  2014...................  10.9%
2015.................................  7.8%...................  2015...................  11.0%
----------------------------------------------------------------------------------------------------------------

    Question 14b. In your perspective, what is causing the Department 
to rank so poorly in both morale and retention?
    Answer. DHS's 2015 Federal Employee Viewpoint Survey scores 
indicate that leadership (38 percent positive), performance management 
(38 percent positive) and communications (44 percent positive) are key 
issues driving overall morale scores. Percent positive represents the 
percent of respondents who answered ``agree'' or ``strongly agree'' to 
questions related to these subject areas. We are undertaking a 
concerted effort to improve employee morale and are implementing an 
action plan focused on:
    1. Selecting and empowering high-performing leaders:
    2. Developing excellent leaders at all levels; and
    3. Enhancing communication.
    Question 14c. Are you concerned with employees' views about the 
lack of management accountability?
    Answer. Yes. To address concerns about a lack of accountability for 
engagement, DHS enhanced the performance work plans of senior 
executives by adding an evaluation measure on engagement. I personally 
informed all SES of this and I am holding my direct reports accountable 
for efforts to improve employee engagement and morale.
    Question 14d. Please describe the Department's strategy to improve 
the morale, retention, and recruitment of top talent.
    Answer. As described above, DHS has been aggressively implementing 
a Department-level employee engagement action plan.
    In addition to Department-level action, all component heads have 
executed employee engagement action plans, based on a root cause 
analysis of their survey data, at the component level and below, since 
local solutions are the most powerful. With focused action at the 
Department, component, executive, supervisory, and employee levels, we 
are confident that over time morale and engagement will improve.
    The Deputy Secretary and I recently completed an employee 
engagement listening tour, during which we held Town Halls, 
roundtables, and personally met thousands of our employees in duty 
locations across the country. Throughout my tenure I have made meeting 
with employees a top priority in order to recognize their service, 
express appreciation for their hard work, and answer any questions they 
wish to pose to leadership. DHS is also improving training to ensure 
that everyone from employees to senior leaders understands the 
importance of creating conditions for engagement--empowering employees 
in the execution of the mission, rewarding outstanding performance, and 
supporting employee work-life balance.
    Question 15a. Secretary Johnson, Under Secretary Deyo and Deputy 
Under Secretary Chip Fulghum have made improved acquisition performance 
one of the Management Directorate's ``Integrated Priority Areas'' for 
2015-16.
    Could you cite an example of an early-stage acquisition, i.e. a 
program which has not yet completed Acquisition Decision Event IIA, 
which has benefitted from this renewed emphasis in the Management 
Directorate?
    Answer. FEMA's Grants Management Modernization (GMM) Program and 
National Flood Insurance Program (NFIP) are excellent examples where 
DHS senior leadership's focus on improving acquisition performance has 
made a difference. Significant efforts were expended by the Office of 
Program Accountability and Risk Management (PARM), the Office of the 
Chief Information Officer, the Office of the Chief Financial Officer, 
the Office of the Chief Procurement Officer, the Joint Requirements 
Council, the Science and Technology Directorate and FEMA's Component 
Acquisition Executive (CAE) staff to support the program management 
offices during the Need phase of the acquisition. The primary goal of 
these early engagements was to prepare the program offices for 
Acquisition Decision Event 1 and beyond by increasing the program 
offices' attention to cost, schedule, and performance parameters, 
ensuring appropriate program office staffing, supporting the 
development of documentation, defining sound risk management and 
following thorough review processes, both within FEMA and at the 
Management Directorate level. This team approach to problem solving was 
beneficial in that it allowed for a quicker resolution of issues by all 
stakeholders and enabled the programs to successfully complete 
Acquisition Review Boards without any major issues and in a more timely 
fashion. The teams are continuing to work together to support the 
programs as they move toward Acquisition Decision Event 2. GMM and NFIP 
acquisition activities to date validate the importance of DHS senior 
leadership's emphasis on improved acquisition performance.
    Question 15b. Could you cite an example of a post-ADE IIA program 
which has similarly benefitted from Mr. Deyo's and Mr. Fulghum's 
efforts?
    Answer. The Transportation Security Administration's Technology 
Infrastructure Modernization is one example. This program reduces the 
probability of a terrorist attack on the transportation sector by 
replacing legacy vetting systems with a person-centric system. This 
eliminates exploitable gaps, improves enrollment and threat assessment 
methodologies, and enables the Transportation Security Administration 
(TSA) to vet and provide credentials to more transportation 
populations. The Technology Infrastructure Modernization (TIM) System 
provides an integrated, end-to-end solution to manage identities, 
credentials, and assessment results for millions of transportation 
workers, providing more accurate and timely identification of terrorist 
threats. TIM provides a service-oriented architecture framework, 
mission services, and service capabilities
    This program reported a schedule breach on September 4, 2014. The 
causal factors for the breach were: (1) Changes to the scope of the 
surface population; (2) late adoption of the TIM system in the 
adjudication center; and (3) challenges encountered during preparations 
for operational testing. Due to continuing technical challenges, the 
program was directed to stop all planning and development efforts 
related to the Surface and Aviation segments until notified by an ADM 
dated January 9, 2015, thereby pausing the program. Another ADM was 
issued on April 10, 2015, directing the program to perform all 
necessary work to re-baseline the program and brief the Acquisition 
Review Board (ARB) on the re-baseline plan. During the planning for the 
ARB on September 15, 2015, it was decided that the TIM DHS ARB would be 
postponed for approximately 30 days to allow the DHS Chief Information 
Officer (CIO) to assess the proposed TIM technical approach. In October 
2015, the DHS CIO reported that he could not support the TIM program's 
technical approach to re-baseline the program and deliver the remaining 
capability. An ADM was then issued on November 30, 2015 directing the 
DHS CIO to form and lead an Integrated Project Team (IPT) to develop a 
new strategy and technical approach. This new strategy and technical 
approach will be captured in a detailed report that will be submitted 
to the Acquisition Decision Authority.
    DHS is addressing the above cost, schedule, and performance delays 
through an aggressive IPT. The results of this IPT and the recommended 
way ahead will be captured and subsequent direction provided through 
ARBs where ADMs will be issued to provide specific direction to the 
program and stakeholders that were designed to get the program back on 
track. The goal of this approach is the identification of a solution 
that will stay within the program's funding profile.
    Question 16. Secretary Johnson, please provide the committee with a 
``Unity of Effort'' perspective on the Department's management of its 
real-property portfolio, from progress on the transition to St. 
Elizabeths, to any steps planned following the field-efficiency pilot 
studies, to how this year's budget will enable the Federal Protective 
Service to contribute to your plans for reorganization of the National 
Protective and Programs Directorate.
    Answer. A key initiative for Unity of Effort, Field Efficiencies 
entails the review of 10 regions where DHS has a large operational 
presence to identify opportunities for achieving mission requirements 
more efficiently. Representatives from components that operate in each 
of the regions collaboratively identify opportunities and make 
recommendations for how DHS can better utilize assets and share 
resources. These opportunities and recommendations are generated in 
regional integration meetings that are facilitated by the DHS Office of 
the Chief Readiness Support Officer. Following the regional meetings 
and data-gathering phase, a final report for the Field Efficiency 
recommendations will be completed in July 2016. As we have seen in our 
regional meetings thus far, we expect the recommendations will be very 
diverse. Some will be fairly easy to implement with minimal investment 
required, while some others may take several years and involve up-front 
investments. For recommendations regarding real property, we must 
consider the timing of lease expirations so we are working closely with 
General Services Administration to plan next steps.
    The Enhanced Headquarters Consolidation Plan also contributes to 
Unity of Effort by consolidating leadership, policy, management, and 
operations on the St. Elizabeths West Campus. The plan reduces our 50 
scattered locations in the National Capital Region down to 6 to 8. 
Phase 1 of the St. Elizabeths development (USCG Headquarters) was 
completed on schedule/budget for the portions funded by Congress. Phase 
2 (Renovation of the Center Building) was awarded on-budget, and 
construction is progressing on schedule for a late 2017 construction 
completion/early 2018 move-in for the Department's executive leadership 
and management. The Fiscal Year 2016 Consolidated Appropriations Act 
fully funds the next phases of development (Management Directorate, 
OHA, S&T, and DNDO). The full development of St. Elizabeths will save 
the Department $1.2 billion present value over 30 years, as compared to 
the best available commercial lease alternative. The Enhanced Plan 
delivers the goals of the original consolidation plan at a lower cost 
and in a shorter time frame than the original program of record by 
adopting more efficient space standards, implementing flexible 
workplace strategies and realigning the lease expirations to the 
development schedule.
    Question 17. Under current legal authorities and the Department's 
own Acquisition Management Directive (MD-102), do you and your Chief 
Acquisition Officer, Under Secretary Deyo, have the tools you need to 
ensure that acquisition executives and program offices throughout the 
Department follow best practices for active management of risks to 
timely and cost-effective acquisition of validated operational 
capabilities?
    Answer. The Chief Acquisition Officer (CAO) currently has the 
authorities necessary to ensure that acquisition executives and program 
offices follow Departmental policies. The Department has policies and 
procedures that limit cost overruns and schedule delays. First and 
foremost, the Department established Acquisition Management Directive 
(MD) 102-01, and most recently revised the directive in July 2015. MD 
102-01 establishes the Acquisition Lifecycle Framework (ALF) and the 
Systems Engineering Lifecycle (SELC) by which the Department governs 
and oversees its acquisition programs. Further, it establishes the 
Acquisition Review Board, as well as the roles and responsibilities of 
its chair (the Chief Acquisition Officer/Under Secretary for 
Management), its members (Under Secretary for Science and Technology, 
General Counsel, Assistant Secretary for Policy, Chair of the Joint 
Requirements Council (JRC), the Executive Director of the Office of 
Program Accountability and Risk Management (PARM), and Management line 
of business chiefs), and other acquisition stakeholders (including 
Component Acquisition Executives (CAE) and Program Managers).
    The ARB reviews each program's planning and acquisition 
documentation in accordance with MD 102-01, at predefined milestones 
called Acquisition Decision Events (ADE). At each ADE, the CAO, 
supported by the ARB, determines the program's readiness to progress to 
the next phase of the acquisition life cycle.
    Each major program must have an Acquisition Program Baseline 
(APB)--approved Acquisition Decision Authority (ADA). The baseline is 
informed by: (1) A Chief Financial Officer approved life-cycle cost 
estimate, (2) JRC-validated operational requirements, and (3) the 
program's schedule. The APB establishes the cost, schedule, and 
performance threshold values of the program, which are monitored by the 
program, component, and headquarters through program Full Operating 
Capability delivery. The APB also contains a Program integrated master 
schedule, which is assessed for adequacy and realism during the ADE 
review and approval process. If a key schedule date is missed, this can 
trigger an inquiry into program status and if issues are identified, 
corrective action can be taken earlier to minimize the extent of 
schedule delays and cost overruns. Additionally, at each ADE, starting 
at ADE-2A, a memorandum certifying sufficiency of funding by the 
component's Senior Financial Officer is required. This certified 
assertion ensures the program is adequately funded as it moves through 
the acquisition process. Further, the Department implemented the 
Federal Information Technology Acquisition Reform Act (FITARA) through 
MD 102-01 requiring the Chief Information Officer to conduct an IT 
assessment and approve the IT aspects of the programs prior to ADE-2A 
approval.
    Inside the component-level are CAO-designated CAEs who support 
overseeing major acquisition programs. Each CAE is also responsible for 
component-level acquisition policy and serves as the Acquisition 
Decision Authority for component-level/non-major acquisitions. In 
September 2014, the Department further defined and clarified the roles 
and responsibilities of the CAEs in the memo, Unity of Effort 
Acquisition Review--Component Acquisition Executive Policy.
    In certain cases, the CAO has established Executive Steering 
Committees (ESC), made up of component and Headquarters executives, to 
provide additional support to programs between the ADEs. These ESCs do 
not hold ADEs, instead they provide guidance and support throughout the 
life of the acquisition program, especially when programs begin to 
deviate from the defined cost, schedule, and performance parameters. 
ESC actions minimize cost overruns and schedule delays.
    In addition to the acquisition policies and procedures, as part of 
the Secretary's Unity of Effort initiative, the Department established 
a Joint Requirements Council (JRC). The JRC provides oversight of the 
DHS requirements generation process, harmonizes efforts across the 
Department and supports prioritized funding recommendations. Sound, 
component-driven capability analysis and operational requirements 
generation is an extremely important first step in limiting cost 
overruns and schedule delays. The establishment of the JRC and 
improvements in the operational requirements development process is 
expected to provide a solid foundation on which to support follow on 
acquisition. The Department-approved JRC policy in February 2016. 
Through acquisition policies, oversight bodies, and review procedures 
DHS aggressively works to limit cost overruns and schedule delays.
    Question 18. In 2011, DHS completed a Human Capital Segment 
Architecture Blueprint as well as developed a Comprehensive Future 
State Plan that redefined the HRIT investment scope and implementation 
time frames. The blueprint also articulated 15 strategic improvement 
opportunity areas. The Department has fully implemented only 1 of these 
opportunity areas and has made limited progress in HRIT implementation. 
It appears these documents are merely paper exercises and do not have 
real meaning and merit. Please explain to the committee your intention 
to utilize these blueprints and plans and how you plan to fully 
implement the remaining 14 strategic improvement opportunity areas.
    Answer. The Strategic Improvement Opportunities (SIOs) from the 
2011 architecture was a roadmap from which DHS could select projects as 
resources were available based on then-current priorities. The original 
plan was too expansive and included 80 potential SIOs. These SIOs have 
been re-baselined and evaluated. Current program milestones are the 
following:
  <bullet> The Capability Analysis Study Plan (CASP) was approved by 
        the JRC intake process in February. The draft HC Capability 
        Analysis Report (CAR) was completed by the end of April. The 
        CAR will outline future requirements for Human Capital and the 
        final draft will update the HCSA Blueprint. The study was 
        conducted by OCIO/Enterprise Architecture in conjunction with 
        the HRIT Advisory Team and Human Capital subject-matter experts 
        from OCHCO and the components. The HC CAR and HCSA Blueprint 
        were approved by the HRIT Executive Steering Committee and the 
        HC CAR was submitted to the Joint Requirements Council.
  <bullet> The analysis undertaken with the CAR and the re-baselining 
        of the existing HCSA resulted in a reduction to 9 SIOs. These 
        SIOs belong with a prioritized time line for implementation 
        have been approved by the HRIT ESC and the ARB by the April 30 
        time line.
    The top 9 SIOs that will be the focus of planning in fiscal year 
        2017 are as follows:
      1. End-to-End Hiring--Talent Acquisition: Assess current systems 
            for cost savings/features & benefits
      2. End-to-End Hiring--Workforce Planning: Obtain systems 
            improvements and capabilities
      3. End-to-End Hiring--Security Classification/Background 
            Investigation
      4. Learning Management: Finish current planned implementations
      5. Data Management & Sharing--Enterprise HC Reporting and 
            Analysis: Automate the Time-to-Hire reporting
      6. On-boarding Process & Off-boarding Process: Implement to 
            include identity based Access Life-cycle Management 
            integration into End-to-End hiring
      7. Performance Management: Implement pilot in fiscal year 2016, 
            hold full implementation until fiscal year 2017 pending 
            results
      8. HR Document Management: Identify requirements for case 
            management vs. document management
      9. Payroll Action Processing: Complete with the implementation 
            CBP on WebTA.

                                 [all]
</pre></body></html>
